<html>
<title> - FEDERAL BUREAU OF INVESTIGATION'S INFORMATION TECHNOLOGY MODERNIZATION PROGRAM, TRILOGY</title>
<body><pre>[Senate Hearing 109-76]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-76

FEDERAL BUREAU OF INVESTIGATION'S INFORMATION TECHNOLOGY MODERNIZATION 
                            PROGRAM, TRILOGY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                    FEBRUARY 3, 2005--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
20-668                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ----------
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
KAY BAILEY HUTCHISON, Texas          PATRICK J. LEAHY, Vermont
SAM BROWNBACK, Kansas                HERB KOHL, Wisconsin
THAD COCHRAN, Mississippi            PATTY MURRAY, Washington
  (ex officio)                       ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Katherine Hennessey
                             Dennis Balkham
                           Jill Shapiro Long
                            Jessica Roberts
                             Nancy Perkins
                        Chad Schulken (Minority)
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Remarks of Senator Judd Gregg............................     1
Trilogy Program Software.........................................     2
Opening Remarks of Senator Patrick J. Leahy......................     2
Possibility of Scraping Key Trilogy Components...................     2
Assessments of Visual Case Files.................................     3
Lessons Learned..................................................     3
Prepared Statement of Senator Patrick J. Leahy...................     4
Statement of Senator Barbara A. Mikulski.........................     6
Technology Programs Going Bust...................................     6
Statement of Hon. Robert S. Mueller, III, Director, Federal 
  Bureau of Investigation, Department of Justice.................     7
Zalmai Azmi, Chief Information Officer, Federal Bureau of 
  Investigation, Department of Justice...........................     7
Opening Statement of Director Mueller............................     7
Completed Phases of Trilogy......................................     7
Critical IT Improvements.........................................     8
Technology for Street Agents.....................................     8
Virtual Case File Answers........................................     9
Two-track Visual Case File Plan Adoption.........................    10
Responsibility for What Went Wrong...............................    10
Virtual Case File Funding........................................    11
Where Do We Go From Here.........................................    11
Aerospace Corporation Selection..................................    12
Prepared Statement of Robert S. Mueller, III.....................    13
Quality of Personnel.............................................    19
Cost-plus Contract and COTS Products.............................    20
Enterprise Architecture..........................................    21
How Do We Get the Money Back.....................................    21
Delivery Elements of VCF on Track................................    21
Director Mueller's Responses.....................................    22
Federal Systems Integration and Management Request...............    23
Budget to Complete Trilogy.......................................    23
Reprogramming....................................................    24
Recouping Funds from SAIC........................................    24
Case Management..................................................    25
Information Technology Development and Funds Recovery............    25
Possibility of Scraping SAIC.....................................    26
Decisionmaking...................................................    27
Evaluating the 2004 Product......................................    27
Accelerated Funding and Oversight................................    29
Independent Evaluating Assistive Team............................    30
File Management and Wireless Technology..........................    30
Prepared Statement of Arnold L. Punaro, Executive Vice President, 
  Science Applications International Corporation.................    33
Prepared Statement of Gary P. Pulliam, Vice President, Civil and 
  Commercial Operations, The Aerospace Corporation...............    40
Prepared Statement of Glenn A. Fine, Inspector General, 
  Department of Justice..........................................    60
Prior OIG Reviews of FBI Information Technology..................    61
Background on Trilogy............................................    62
Results of OIG Audit of Trilogy Project..........................    62
Causes of Trilogy's Problems.....................................    65
OIG Conclusions Regarding Trilogy Project........................    68
Additional OIG Reviews in the FBI................................    68
Prepared Statement of Senator Charles Grassley...................    70
Additional Committee Questions...................................    71
Questions Submitted by Senator Patrick J. Leahy..................    72
Virtual Case File................................................    72
Terrorist Screening Center.......................................    80

 
FEDERAL BUREAU OF INVESTIGATION'S INFORMATION TECHNOLOGY MODERNIZATION 
                            PROGRAM, TRILOGY

                              ----------                              


                       THURSDAY, FEBRUARY 3, 2005

                           U.S. Senate,    
    Subcommittee on Commerce, Justice, and 
                                     State,
               the Judiciary, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:01 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Mikulski, and Leahy.


                 OPENING REMARKS OF SENATOR JUDD GREGG


    Senator Gregg. The subcommittee will come to order. I 
appreciate Senator Leahy being here. We haven't really 
organized as an Appropriations Committee yet, so we do not know 
who is chairman of what and who is ranking where, but for the 
moment, Senator Leahy is serving as the acting ranking member 
for this subcommittee. It is nice to have my neighbor and 
friend from across the river, as we refer to it, sitting here 
as the Democratic leader on this committee.
    This hearing is called, regrettably. I wish it wasn't being 
held. I know the Director wishes it wasn't being held and the 
Bureau does, also, I am sure.
    For a long time, this committee has committed a large 
number of resources, a tremendous amount of effort, on working 
with the Federal Bureau of Investigation (FBI) to try to 
upgrade the technology capability of the agents on the street 
and the FBI generally, not only within the Bureau but as it 
integrates with the rest of the Government, especially on this 
core issue of how we fight terrorism. Part of this initiative, 
of course, has been the famous Trilogy program, which has had 
fits and starts, which has involved a large number of dollars 
and in which we have made a serious effort.
    The FBI, to begin with, needs to be congratulated. We are 
3\1/2\ years out from 9/11 and we haven't been attacked, and 
that is in large part because of the excellent work of the FBI 
and the men and women of that agency who commit their lives to 
making sure that we are secure. I congratulate the Bureau for 
that and the American people thank you for it.


                        TRILOGY PROGRAM SOFTWARE


    In addition, there have been some successes with the 
Trilogy program that deserve praise. The bringing online of the 
hardware was done on time and it appears to be well done.
    But the big issue is the software which runs the hardware. 
Here, we have a huge problem. It has been reported that we now 
have independent evaluations and it appears that the Virtual 
Case File (VCF) element, which is essentially the software 
which would give the agents and the FBI the capacity to 
adequately consolidate and track cases from agent to agent, 
from field office to field office, from central command back to 
field offices, has failed catastrophically.
    And so we have got to address why it failed, first. Second, 
we have to ask the question of who is responsible. I think that 
is only reasonable because there is a large amount of 
taxpayers' dollars that have produced very little for the 
taxpayers, over $100 million minimum. And then, third, where do 
we go from here, because this is a critical element of having 
an efficient and effective FBI and especially an efficient and 
effective deterrent to terrorism. So now that we have had this 
very significant failure, how do we get back on track and what 
is the timeframe, what is the cost, and most importantly, can 
it be done?
    The Director has kindly agreed to come and testify today. I 
appreciate his courtesy in giving us time today on this issue. 
We are going to proceed with trying to find out what is going 
on and how we can fix the problem. We are not too interested in 
spending a lot of time on the history of the blame. We are more 
interested in figuring out how we fix the problem.
    Senator Leahy.


              OPENING REMARKS OF SENATOR PATRICK J. LEAHY


    Senator Leahy. Thank you, Mr. Chairman. I agree very much 
with what you had to say. Mr. Chairman, perhaps it is our New 
England upbringing that we get somewhat worried about the 
amount of money that has been put in here and will never be 
recovered.
    We have an important issue for the FBI in this. I am glad 
that Director Mueller and Inspector General Fine have returned 
to testify. I appreciate the time Director Mueller spent with 
me yesterday, he and Mr. Azmi and others. I made very clear to 
him my concern at that time on this and some other subjects.


             POSSIBILITY OF SCRAPING KEY TRILOGY COMPONENTS


    I know Groundhog Day was yesterday, but I think of that 
movie, ``Groundhog Day,'' and the sense of deja vu the movie 
had. It is unbelievable, given the years that have gone by, the 
advances in technology that have marched on in the meantime, 
that we are here today to discuss whether or not to completely 
scrap a key component of the Trilogy project, the long-
anticipated Virtual Case File. It has been kind of a train 
wreck in slow motion, unfortunately, at a cost of $170 million 
to the taxpayers, or a very large part of that. We don't know 
how much of a cost to the public.
    I don't want New England reserve to fool anybody to think 
that my reaction getting the initial reports of this was much 
short of apoplectic, this unraveling of the Trilogy project, or 
as some FBI agents have told me privately, the tragedy project. 
It would bring the FBI's information technology into the 21st 
century. That shouldn't be rocket science. Most companies have 
to do that. It should be doable.
    This has been a long and tortured effort. Back in 2000, 
when we began discussions about Trilogy as a way to bring the 
FBI's antiquated system into the 21st century, we were warned 
of dire consequences to our security and our safety if the 
improvements weren't imminent, if we didn't give them the money 
so that it could be done right away. Well, we responded. We 
devoted $581 million to the project.


                    ASSESSMENTS OF VISUAL CASE FILES


    But time and again, it has fallen victim to escalating 
costs and implementation concerns, mismanagement, and so on. 
The estimated December 2003 deadline for completion of it 
passed unmet. The program was then dubbed unusable. We now know 
that it is being tested as the so-called ``Virtual Case File 
(VCF/Light).''
    The $170 million seems to have evaporated. Maybe some of 
this, we can get back from those supplying software and 
hardware. But what bothers me is that a lot of the delays in 
communications, even though we asked in different committees--
and I am on the authorizing committee as well as the 
appropriating committee--we never seemed--they weren't 
communicated to Congress, and it wasn't because Republicans and 
Democrats alike weren't asking. We were.
    The FBI has repeatedly pressed for realistic assessments of 
VCF, but getting straight answers from the Department of 
Justice and the FBI have proved so difficult that we finally 
turned to the Government Accountability Office (GAO) for an 
independent assessment. It is only in the shadow of that 
impending Office of Inspector General (OIG) report that 
suddenly this comes to light. We have a classic example of too 
many cooks with the unpredictable results.
    The initial contract for VCF was modified 36 times. During 
this period, the FBI had five different chief information 
officers, I am told 10 different project managers. Beyond that 
shuffling, several teams were brought into the process at 
various times to help set requirements, assess deliverables, 
and manage costs. Even the efforts of the GAO have been 
thwarted by changes in personnel and trying to get answers.
    Technology changes rapidly, I appreciate that. But the 
private sector has to make these decisions under similar 
pressures and it is not too much to demand the same from the 
FBI.
    The September 11 attacks did change the FBI's assessment on 
what is needed. I appreciate that. But 3 years have passed for 
the FBI to regroup. The Congress has responded with the 
necessary financial resources.


                            LESSONS LEARNED


    Now, this has been a very, very expensive lesson learned 
program. Congress paid for something to be built, not for 
learning what has to be built through trial and error. We have 
to protect the American people. To do this effectively, the FBI 
has to have state-of-the-art technology that works. It is a 
vital task. Now we are going to have to spend more money to buy 
what we thought we bought.
    But I think that just simply spending money is not going to 
be enough. We can't just keep throwing money at the problem. I 
think that the FBI has got to stop hiding its problems. The 
Department of Justice has to stop hiding its problems. You 
know, you have a lot of us up here who have been very, very 
supportive of law enforcement, very supportive of the FBI. I 
have done this for 30 years in both appropriations and 
authorizations. But, you know, the camel's back is broken, and 
if you think that some of us who have been supportive in the 
past are going to keep on spending money and we are not getting 
answers, or are told all is well when it is not, it is just not 
going to work.
    Mr. Chairman, I agree with you. It is unfortunate we have 
to be having this hearing, but thank goodness we are.
    Senator Gregg. Thank you.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    I commend Chairman Gregg for convening this hearing today. This is 
an important issue for the FBI and its missions in protecting the 
country, and I appreciate the opportunity to serve as ranking member on 
this hearing. I am pleased that both Director Mueller and Inspector 
General Fine have returned to testify, I welcome them and the other 
witnesses, and I look forward to their testimony.
    I know that Groundhog Day was actually yesterday, but the subject 
of today's hearing--problems the FBI is having with its computers--
calls to mind the sense of deja vu that the film of the same name 
captured so well. It is unbelievable given the years that have gone by 
and the advances in technology that have marched on in the meantime 
that we are here today to discuss whether or not to completely scrap a 
key component of the FBI's Trilogy project--the long-anticipated 
Virtual Case File. This program has been a train wreck in slow motion, 
at a cost of $170 million to American taxpayers and an unknown cost to 
public safety. And sadly, VCF is but one of many Trilogy problems at 
the FBI.
    Apoplectic would be too mild a description of my reaction to the 
unraveling of the Trilogy project--or the Tragedy project, as some FBI 
agents have taken to calling it. Bringing the FBI's information 
technology into the 21st Century should not be rocket science; it is a 
complicated process, but it is certainly doable.
    The history of the FBI's efforts to upgrade its information 
technology has been long and tortured. Back in 2000, when we began 
discussions about Trilogy as a way to bring the FBI's antiquated 
systems into the 21st Century, we were warned of dire consequences to 
our security and our safety if the improvements were not imminent. The 
picture was bleak. The Bureau had no functional e-mail system at the 
time, and over 13,000 desktop computers that were years old could not 
run basic software packages. Congress responded by devoting $581 
million to the effort.
    These deficiencies had real-world consequences, hampering the FBI's 
ability to share important and time-sensitive information internally 
and externally with other intelligence and law enforcement agencies. In 
testimony before the Senate Judiciary Committee, 9/11 Commissioner 
Slade Gorton noted: ``[I]nformation technology problems . . . have 
hampered the FBI's ability to know what it knows for years'' and led to 
the now infamous incident of the Phoenix memo on terrorists and flight 
schools that never made it to the attention of top officials who should 
have seen it.
    Time and again, the project has fallen victim to escalating costs, 
imprecise planning, mismanagement, implementation concerns, and delays. 
The necessary network, hardware and software upgrades were not 
delivered in a timely manner. Consequently, the estimated December 2003 
deadline for completion of VCF passed unmet. The program was then 
dubbed ``unusable,'' and we now know that what is being tested is a 
significantly scaled-down version, a so-called ``VCF-lite.'' And in 
keeping with the past disappointments and delays, we have recently 
learned that the future of this ``lite'' version remains in question.
    Congress was led to believe that VCF was progressing on track 
despite some delays and cost overruns on the project. Yet now we hear 
that VCF may never be completed at all. In effect, that means for 
Congress, for the FBI and, most importantly, for the American taxpayer, 
this has been $170 million in ``vaporware''--widely advertised, but 
never actually available for use.
    There has been no shortage of opportunities for straightforward 
reporting to the oversight committees of Congress as things began to 
come off the tracks, including numerous hearings, punctuated by several 
damaging reports from OIG, the Government Accountability Office, and 
the National Research Council. These delays and disappointments were 
never communicated to Congress, and it is not because Congress failed 
to ask. The FBI was repeatedly pressed for realistic assessments of 
VCF. But getting straight answers from the Justice Department and the 
FBI proved so difficult that Congress finally turned to the Government 
Accountability Office for an independent assessment. It was only in the 
shadow of an impending OIG report that the reality of the situation has 
come to light.
    Director Mueller testified before the Judiciary Committee last May 
and was specifically asked about the status of VCF. He testified then 
that ``we are on track to deliver elements of virtual case file 
capabilities by the end of this year. We are in negotiations with our 
contractor on finishing out that last part of the Trilogy project . . . 
But I do believe that when we are concluded this year, we will have the 
foundation for cutting-edge technology for an organization our size.''
    What was not presented in this hearing was any acknowledgement or 
even any hint that progress had halted and the project was, in fact, 
falling apart. This was an opportunity for Director Mueller to show 
some accountability and be upfront with Congress about the problems 
with the project. The FBI missed another opportunity to come clean 
three months later when the Committee convened a hearing on the 9/11 
Commission's recommendations.
    It appears the FBI bears the brunt of the responsibility for this 
derailment; a classic example of too many cooks, with the predictable 
results. The initial contract for VCF was modified 36 times. During 
this period, the FBI had five different Chief Information Officers and, 
reportedly, 10 different project managers. Beyond all that shuffling at 
the top, several teams were brought into the process at various times 
to help set requirements, assess deliverables and manage costs. Even 
the recent efforts of the GAO to audit the project have been thwarted 
by repeated changes in the personnel responding to auditors' inquiries.
    It is not clear to me even yet what the FBI truly knew and whether 
the Bureau articulated what it needed, though initial reports suggest 
the FBI made an art form of redefining and changing its requirements. 
The project's contractor, Science Applications International 
Corporation, has said it received changes on almost a daily basis--some 
small, but many, significant. Unbelievably, the OIG reports that the 
process for defining the requirements and baselines for the VCF 
continues to this day. I look forward to hearing from Inspector General 
Fine on this matter. The Trilogy project is reminiscent of other FBI 
technology failures where the Bureau has ambitiously tried to build the 
latest and greatest without properly assessing its needs. The FBI 
custom-built the Carnivore system on the basis that it was ``far 
better'' than any commercial product, but after very little use, 
recently scrapped it for an undisclosed commercial product.
    Technology changes rapidly, and I appreciate the FBI's efforts to 
keep pace. But the private sector has had to make these hard decisions 
with similar pressures, and it is not unreasonable to demand as much 
from the FBI. The September 11th attacks did change the FBI's 
assessment of what it needed. But three years have passed for the 
Bureau to regroup, and in that time Congress has responded with the 
necessary financial resources to assist the Bureau in adapting in these 
tasks. This has been an outrageously expensive lessons-learned training 
program. Congress paid for something to be built, not for learning 
about what to build through trial and error.
    I am aware of the concerns that have also been raised about the 
performance of SAIC, the project's contractor, and I do expect SAIC to 
account for any failures in its work product.
    Our highest priority must be to protect the American people. To do 
its job effectively, the FBI must have state-of-the-art technology that 
works. This is a vital task, and now Congress will have to provide 
still more funding to get the job done. But throwing money at this 
chronic problem alone will not fix it. The FBI must stop hiding its 
problems and begin confronting them. The FBI needs to engage in a full 
working partnership with the authorizing and appropriations committees 
to which the Bureau is accountable to for programs like this. Doing 
that will better protect the public, conserve tax dollars, and save 
everyone's time.
    The camel's back is broken. For a course correction to succeed, 
there must be a true accounting, and it is going to start today. We 
want to hear what went wrong, who was responsible, and how we are going 
to move forward.

    Senator Gregg. Traditionally, we haven't had opening 
statements beyond the chairman and the ranking member, but 
obviously, participation today is by folks who are really 
interested in this and I didn't know whether you wanted to make 
a statement.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Just very briefly, Mr. Chairman. First of 
all, I want to thank you for holding this hearing. You have 
always stood sentry over getting taxpayers' value for 
taxpayers' dollar, and you were the first to hold public 
hearings on the issue of terrorism, so we thank you for your 
leadership.
    Also to Senator Leahy, in the absence of a permanent Chair 
of CJS, we thank you for filling in. It is also very possible 
that if the draconian restructuring program of the House would 
ever go through, I might Chair this subcommittee, which----
    Senator Gregg. Or be ranking.
    Senator Mikulski. Or just be ranking.
    Oh, no, that is another restructuring.
    Senator Leahy. I wasn't going to say a word.
    Senator Mikulski. I am sorry.
    Senator Leahy. I am just staying out of this one.
    Senator Mikulski. I am sorry. I was so excited. That was 
regime change, not restructuring.
    But I also wanted to be here as a member of the committee. 
I am a member of the Intelligence Committee. We went through 
the 9/11 inquiry and we were absolutely very clear that our FBI 
needed to modernize itself. We are proud of the FBI and we are 
proud of the fact that we have asked them to retool their 
mission, retool their people, and retool their technology. And 
now, as we have moved forward to the reform necessary for both 
intelligence and FBI, I think the Director is working very hard 
on this retooling of the mission. The people that he has hired 
have helped him do this. Now we have to make sure that we have 
the right technology to do this.

                     TECHNOLOGY PROGRAMS GOING BUST

    Right after 9/11, we found out that the FBI had 13,000 
desktop computers that were outdated and dysfunctional. We also 
saw that that whole idea of watch lists talking to each other, 
offices talking to each other, and so on was outdated. We have 
got to get this back on track.
    As someone who has looked at these big technology programs, 
whether it was in transportation, whether it was out of the VA/
HUD Subcommittee, they have always been a bust. I think maybe 
we have to reexamine that rather than inventing things, that we 
need to look at how to buy things off the shelf, how we can 
move quicker, faster, cheaper, and save a lot of heartache, a 
lot of heartburn, and a lot of taxpayers' dollars.
    But I know today is the day for getting the FBI and its 
financial and computer programs back on track and I look 
forward to working with you in any capacity in which I might 
find myself.
    Senator Gregg. I look forward to that, also.
    Senator Mikulski. I am ready to retool if I have to.
    Senator Gregg. Mr. Director, we are ready to hear your 
thoughts and explanations.
STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR, 
            FEDERAL BUREAU OF INVESTIGATION, DEPARTMENT 
            OF JUSTICE
ACCOMPANIED BY ZALMAI AZMI, CHIEF INFORMATION OFFICER, FEDERAL BUREAU 
            OF INVESTIGATION, DEPARTMENT OF JUSTICE

                 OPENING STATEMENT OF DIRECTOR MUELLER

    Mr. Mueller. Thank you, Mr. Chairman, Senator Mikulski, 
Senator Stevens. I do want to thank you, believe it or not, for 
the opportunity to be here today to discuss this issue because 
it is important. It is important to the Federal Bureau of 
Investigation (FBI), it is important to the country, and I know 
it is important to the Congress.
    I do want to spend some time discussing the questions that 
you, Mr. Chairman, have raised. As all of us know, the Virtual 
Case File is a case management system constituting the third 
prong of the FBI's mission technology program and is known as 
Trilogy. It was first developed in 2001.

                      COMPLETED PHASES OF TRILOGY

    I want to point out at the outset that the first two phases 
of Trilogy have been successfully completed and, as the 
chairman pointed out, have been deployed and have greatly 
enhanced our information technology capabilities. We now have 
deployed a high-speed network enabling our FBI offices around 
the country and around the world to share data, including 
audio, video, and image files. Our new IT infrastructure also 
provides for secure communications with our intelligence 
community partners.
    We have replaced those outdated computers with more than 
30,000 new desktop computers with modern software applications, 
and we have replaced nearly 4,000 printers. We have 1,600 
scanners, 465 servers, and as important, 1,400 routers that 
have been installed.
    As a result of the implementation of the first two prongs 
of Trilogy, FBI personnel can now utilize a uniform suite of 
software that enables our agents and our support to share 
information quickly, reliably, and securely.
    These efforts have also provided a foundation for a number 
of new capabilities to support the FBI's counterterrorism 
mission. I will point out at the outset that after September 
11, while Trilogy and bringing Trilogy home was tremendously 
important, it also at that time was critically important to us 
to take our counterterrorism information throughout the Bureau, 
information from elsewhere on counterterrorism, and place that 
information in an updated investigative data warehouse. We now 
have that information, that investigative data warehouse, that 
has that information and provides to special agents, 
intelligence analysts, and members of joint terrorism task 
forces a single access point to more than 47 sources of 
counterterrorism data that was only in the past available 
through separate stovepiped systems.
    We have new analytical tools used across multiple data 
sources, providing a more complete view of the information 
possessed by the Bureau. Users can now search up to 100 million 
pages of international terrorism-related documents and other 
structured records, such as addresses and phone numbers, in 
seconds. They can also search rapidly for pictures of known 
terrorists and match or compare the pictures with other 
individuals in minutes rather than days.

                        CRITICAL IT IMPROVEMENTS

    Other critical IT improvements have enabled the FBI to 
proceed with unprecedented connectivity with our partners in 
the intelligence and law enforcement communities. The SCION 
network gives FBI personnel the ability to electronically 
receive, disseminate, and share compartmented sources of 
intelligence information amongst our various operating 
divisions and with the intelligence community.
    But despite these significant improvements, the Virtual 
Case File, which is a case management application for improving 
efficiency and records management, is not yet available to our 
personnel. I can tell you, Mr. Chairman, as I have expressed in 
private to yourself and Senator Leahy, there is no one who is 
more frustrated, no one who is more disappointed than I at the 
delays we have encountered in deploying VCF. I do believe, 
however, it is important to the American people to understand 
what the failure to deliver VCF means, and what it does not 
mean, to the FBI agent on the street.

                      TECHNOLOGY FOR STREET AGENTS

    I want to point out that the FBI agent on the street has 
the state-of-the-art technology when it comes to surveillance. 
Without getting into sensitive and classified information, I 
can assure you that our ability to intercept and decipher 
communications and to otherwise monitor criminal activity and 
gather intelligence is among the best in the world. The FBI 
agent on the street is able to communicate and share data 
securely, whether by telephone, computer, or teleconference 
with our partners, not only in the FBI but also in the law 
enforcement and intelligence communities in the United States 
and around the world.
    What the agent on the street does not have is a user-
friendly format for inputting investigative and intelligence 
information into his or her computer. Instead, the agent faces 
a cumbersome, time-consuming process of preparing a paper 
record of that information, seeking the necessary approvals, 
and then uploading that document into an existing database. If 
the agents had the Virtual Case File capabilities we had 
envisioned, they could directly input information into their 
computers, receive electronic approvals, and with the push of a 
button upload information into the database where it would be 
immediately available to others who need to access it, whether 
it be an agent, an analyst, or other Federal employees and 
State and local officials.
    And by saying this, Mr. Chairman, I do not mean to say that 
this does not affect our capacity to protect the United States. 
To the extent that we are delayed, to the extent that we do not 
have this Virtual Case File, we are not as effective or 
efficient as we should be in protecting the people of the 
United States, whether it be from terrorism or criminals within 
the country.

                       VIRTUAL CASE FILE ANSWERS

    Mr. Chairman, this afternoon, I would like to take this 
opportunity to answer the three basic questions about Virtual 
Case File which you elucidated in your opening statement. First 
of all, what went wrong? Second, who is responsible for what 
went wrong? And third, where do we go from here?
    What went wrong? The development of the VCF application 
started with a relatively simple concept that the FBI needed a 
modern case management system. As the FBI's mission evolved, 
particularly over the past 3 years, so did our technological 
needs. And as a result of these changes and other issues, the 
FBI faced obstacles in a number of key areas relating to the 
VCF program.
    We did not have a complete set of defined VCF requirements 
when the original contract was signed in June 2001, and we did 
not have a finalized set until the summer of 2002.
    The contract which we entered into was based on hours 
worked, a cost plus award fee, and we now know that these types 
of contracts are difficult to manage.
    But from our perspective, we also lacked skill sets in our 
personnel, such as qualified software engineering, program 
management, and contract management.
    We underestimated the complexity of interfacing with our 
legacy systems, of addressing our security needs, and of 
establishing an enterprise architecture.
    Recognizing many of those internal limitations originally, 
we did decide to outsource the development of VCF, including 
contract management and technology development. The contractor 
responsible for delivering the user applications component, 
including VCF, was Science Applications International 
Corporation (SAIC). I know you are to hear from them today, as 
well.
    Following the establishment of the solid requirements in 
November 2002, the original target date for completing VCF was 
December 2003. I personally received a demonstration of the VCF 
software in November 2003, and was impressed by what I saw at 
that time. I anticipated that we would be moving forward 
expeditiously to the installing of that VCF on our agents' 
support computers in the relatively near future once we had 
upgraded all of our computers from a Windows 98 operating 
system to a Windows 2000 operating system. I, at that time, 
believed that we were on the right track to deliver that which 
our employees were seeking.
    When SAIC delivered the first product in December 2003, we 
immediately identified a number of deficiencies, 17 at the 
outset. That soon cascaded to 59 and ultimately to 400 problems 
with that software. In April 2004, we provided SAIC with a 
document outlining the corrections we felt were needed and SAIC 
ultimately agreed to remedy the deficiencies and deliver full 
functionality, but only at a cost, an additional $56 million, 
and a timetable, an additional year, which at that time we had 
problems with.

                TWO-TRACK VISUAL CASE FILE PLAN ADOPTION

    So in June 2004, I decided to adopt a new two-track plan 
for VCF, an initial operating capability, or IOC, and a full 
operating capability, which is denominated as FOC. My goal with 
the IOC was to identify and utilize some portion of the product 
developed by SAIC since the fully functional case management 
system as we had anticipated had not been delivered. The 
portion of Virtual Case File currently being piloted is the 
automated workflow process. Last month, several hundred 
employees in the New Orleans field office began using the 
system as their document routing system and will continue to do 
so through the end of March.
    The purpose of this pilot is to test drive the workflow 
concept, validate the human-computer interface, create an 
electronic interface to our legacy systems, access the network 
performance, and develop and deliver an enterprise-level 
training curriculum. The IOC, the initial operating capability, 
is on track to accomplish these objectives.
    As part of two-track plans, the FBI contracted with 
multiple independent vendors to perform the following tasks: 
Examine the Virtual Case File application delivered by SAIC in 
December 2003, to determine if this software, as designed, 
would meet the FBI's operational, security, and performance 
requirements. Aerospace Corporation was tasked to determine if 
the Virtual Case File application is scalable and can be 
maintained and enhanced easily.
    They were also asked to examine the current technologies 
and vendors as well as available commercial off-the-shelf or 
COTS, products. They were also tasked to look at those products 
designed for other agencies to determine the best combination 
to meet the FBI's needs. This effort was conducted jointly, not 
only with ourselves and the Department of Justice, but also 
with the Department of Homeland Security, to ensure our case 
management efforts would be interoperable. In many ways, as 
several of you have pointed out, the pace of technological 
innovation and the need for information sharing has overtaken 
our original vision for Virtual Case File and there are now 
products to suit our purposes that did not exist when Trilogy 
was first envisioned.
    We have also asked a different contractor to review and 
revalidate our users' requirements because the mission of the 
FBI has evolved and there are new requirements for information 
and intelligence sharing among different entities.
    Last week, we received the final version of the Aerospace 
report and provided copies to this subcommittee and to the 
Office of Inspector General at the Department of Justice.

                   RESPONSIBILITY FOR WHAT WENT WRONG

    Question number two, who is responsible for what went 
wrong? Mr. Chairman, I am responsible, at least in part, for 
some of the setbacks experienced with Trilogy and Virtual Case 
File. I agree with the OIG's findings that FBI management did 
not exercise adequate control over the Trilogy project and its 
evolution in the early years of the project.
    Let me also add that I agree with the OIG's finding that 
with the new organizational structure and authority given to 
the Chief Information Officer (CIO), Zal Azmi, in July 2004, 
project management has now been given the attention that was 
needed throughout the Trilogy project. Zal Azmi is here with me 
today. He started with me as a special advisor on technology 
issues when I first saw problems in the fall of 2003. He became 
the Chief Information Officer in spring of last year, and 
through his leadership, the FBI has implemented a coordinated 
strategic approach to information technology. My prepared 
statement outlines a number of the steps that Mr. Azmi has 
taken as CIO and some of the accomplishments of him and the 
people with whom he works.
    I also will say, and I think it is shared in the testimony 
from SAIC, that in addition to our shortcomings in overseeing 
the Trilogy project, the contractor also bears some 
responsibility. As discussed above, we retained a not-for-
profit federally funded contractor, Aerospace Corporation, to 
conduct an independent verification and validation review of 
the Virtual Case File, the VCF software as delivered by SAIC in 
December 2003.
    Aerospace in its report concluded that, and I quote, ``lack 
of effective engineering discipline has led to inadequate 
specification, design, and development of VCF.'' In the course 
of their review, Aerospace could find no assurance that the 
requirements were satisfied nor that the architecture concept 
of operations and requirements were correct and complete. When 
we received this report recently, we were indeed disappointed.

                       VIRTUAL CASE FILE FUNDING

    With regard to the funding of Virtual Case File, this 
committee has been supportive of our efforts and has generously 
provided the funding we have needed to overcome obstacles and 
attempt to move forward. Mr. Chairman, you and other members 
are undoubtedly concerned, as am I, about losses we have 
incurred as well as future investments we will need to make in 
Virtual Case File.
    We have invested approximately $170 million in VCF to date. 
It is my understanding that our vendors have delivered services 
and reusable equipment worth $53.3 million and that we have 
$12.2 million in unspent obligations on our VCF contracts. This 
results in a loss of approximately $104.5 million. I do not 
take that lightly. It is $104.5 million that we will not have 
to spend on other things. It is $104.5 million of the 
taxpayers' dollars and I am tremendously troubled by that and 
that is an understatement. I am disheartened by this result, 
but remain confident in our ability now to deliver a case 
management system to our employees' desktops in the future.

                        WHERE DO WE GO FROM HERE

    Last question, where do we go from here? The development 
and deployment of an investigative case management system 
remains the top priority of the Office of the Chief Information 
Officer. Some components of VCF that have been developed will 
be incorporated into the long-term solution. We will leverage 
the permanent interface that has been established with our 
legacy data systems. We will assess the impact of an automated 
workflow system on a field office and headquarters structure as 
well as the performance of a case management system on the new 
Trilogy network, during, and at the end, of the pilot testing 
period. We will take with us a number of valuable lessons 
learned in contract management, project management, policies 
and procedures, modular development and deployment, data 
security, and records management.
    Not surprisingly, the pace of technology has overtaken the 
development of unique software applications for the Bureau and 
we may turn to commercial off-the-shelf, or COTS-based 
products, to give us that which we had envisioned in Virtual 
Case File. We are currently reviewing the Aerospace reports 
which recommend that we discard VCF and start over with a COTS-
based product and which provide their evaluation of COTS 
products as well as products in use by other Government 
agencies. As we review these reports, we will continue to 
consult with industry leaders to ensure that we develop a sound 
long-term plan for our IT needs.
    We will move forward with a phased, and I emphasize a 
phased, development and deployment plan as recommended by the 
National Academy of Sciences. Every phase will provide a set of 
services that the FBI workforce needs and which was part of the 
original VCF plan.
    I cannot at this time estimate when this will occur, nor 
can I determine right now what we will need in terms of 
additional funding. I will tell you that we will work closely 
with this committee and other committees of Congress to develop 
the future for a Virtual Case File, and with the work of Mr. 
Azmi and the people he has brought in, with input from persons 
outside the Bureau, I am confident that we, in a phased way, 
can replicate that which we had envisioned in 2000 and 2001 as 
being a part of Virtual Case File.

                    AEROSPACE CORPORATION SELECTION

    Mr. Chairman, before I conclude, let me say that I have 
reviewed the testimony of other witnesses and there are two 
questions that I would anticipate and would like to answer at 
the outset.
    The first question is, how did we select Aerospace 
Corporation to conduct the independent verification and 
validation review, and I am going to pass that over to Mr. 
Azmi.
    I am going to start on the second question, and that is why 
did we limit Aerospace's review to the December 2003 delivery 
of Virtual Case File and not include that which was produced in 
December 2004 and that which we are testing now.
    I will tell you, last spring, in 2004, after we saw the 
problems we had in the version that was provided in December 
2003, we entered into negotiations with SAIC, and at the end of 
those negotiations it was clear from their leaders that we 
would have to invest another $56 million and an additional year 
of time to complete the project as we had anticipated with 
SAIC. At that time, in consultation with Mr. Azmi, I felt we 
needed an independent review of the work that had been produced 
by SAIC and that is the version that we had to review at that 
time. I am comfortable in having Aerospace or anyone else 
review the initial operating capacity that is currently being 
tested in New Orleans and here at the FBI headquarters.
    Mr. Azmi may want to provide more input into why we asked 
Aerospace to review the December 2003 delivery, and I would 
also ask him to answer the question as to why we selected 
Aerospace, because I believe that is when it would be 
forthcoming, and then I will close.
    Mr. Azmi. Mr. Chairman and members of the committee, thank 
you for the opportunity to appear here today and respond to 
your questions.
    On the question, why we selected Aerospace to conduct an 
evaluation of the VCF delivery of 2003, it was mainly a 
recommendation made by the Director of the Science Board. When 
I arrived in November 2003, I realized that the Director 
already had a number of boards and advisors that were actually 
providing input to the future of the information technology 
within the Bureau. I met with the Science Board--the members 
are former CIOs, technologists from both the Government and 
private sector--and I presented the dilemma that we were facing 
with VCF.
    The software was delivered with 17 deficiencies. We 
decomposed those 17 deficiencies to 59. Later on, we found 400 
problems with the software, and that was the recommendation of 
the Board, that we conduct an independent evaluation.
    We had selected three sources of evaluators. Aerospace was 
selected because it was a federally funded organization, a 
nonprofit organization. It had worked with the Department of 
Defense (DOD) and the intelligence community for more than four 
decades. They were also capable of providing in-depth software 
engineering review that we needed. For those reasons, we 
selected Aerospace to conduct an independent evaluation of the 
VCF software. Thank you, sir.
    Mr. Mueller. Anything to add on why we selected the 
December 2003 version to be evaluated?
    Mr. Azmi. I can add only one point. When I arrived, I 
looked at the contract and the contract stated specifically 
that SAIC will deploy a working version of VCF by December 17, 
2003. When I looked at all of the capabilities of VCF, what 
should have been delivered and what was delivered, we decided 
if we are going to invest in the software for the future of the 
FBI, if we will have to stay with this software, we need to 
understand what the software will provide to us, and that is 
one of the reasons why we selected to evaluate that software 
that was promised to the Bureau from the outset of support of 
this contract.

                           PREPARED STATEMENT

    Mr. Mueller. So in closing, those hopefully answer the 
questions that would have been asked. I want to thank the 
subcommittee, you in particular, Mr. Chairman, for your support 
throughout this endeavor, your patience, understanding your 
frustration. Mr. Azmi and I are happy to respond to any 
questions that the subcommittee may have.
    Senator Gregg. Thank you, Mr. Director, and thank you for 
your forthrightness.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller, III

    Good afternoon, Mr. Chairman, Senator Leahy, and Members of the 
Committee. Thank you for the opportunity to appear this afternoon and 
address concerns relating to the FBI's Virtual Case File system, or 
VCF. As you know, VCF is a case management system constituting the 
third prong of the FBI's information technology program known as 
Trilogy. The first two phases of Trilogy have been successfully 
completed and deployed, and have greatly enhanced our Information 
Technology (IT) capabilities.
  --We have deployed a high-speed, secure network, enabling personnel 
        in FBI offices around the country and around the world to share 
        data, including audio, video and image files. Our new IT 
        infrastructure also provides for secure communications with our 
        Intelligence Community partners.
  --We have also replaced outdated hardware with more than 30,000 new 
        desktop computers with modern software applications, nearly 
        4,000 new printers, 1,600 scanners, 465 servers, and 1,400 
        routers.
    As a result of the implementation of two major prongs of the 
Trilogy initiative, FBI personnel can now utilize a uniform suite of 
software that enables them to share information quickly, reliably, and 
securely. These efforts have also provided a foundation for a number of 
new capabilities to support the FBI's counterterrorism mission. The new 
capabilities include:
  --The FBI's Investigative Data Warehouse (IDW) now provides Special 
        Agents, Intelligence Analysts, and members of Joint Terrorism 
        Task Forces (JTTFs) with a single access point to more than 47 
        sources of counterterrorism data, including information from 
        FBI files, other government agency data, and open source news 
        feeds, that were previously available only through separate, 
        stove-piped systems.
  --New analytical tools are used across multiple data sources 
        providing a more complete view of the information possessed by 
        the Bureau. Users can search up to 100 million pages of 
        international terrorism-related documents and other structured 
        records such as addresses and phone numbers in seconds. They 
        can also search rapidly for pictures of known terrorists and 
        match or compare the pictures with other individuals in minutes 
        rather than days. Coupled with sophisticated state-of-the-art 
        search tools, the IDW enhances the FBI's ability to identify 
        relationships across cases quickly and easily.
  --Other critical IT improvements have enabled the FBI to proceed with 
        unprecedented connectivity with our partners in the 
        Intelligence and Law Enforcement Communities. The Top Secret/
        Sensitive Compartmented Information Operational Network (SCION) 
        gives FBI personnel the ability to electronically receive, 
        disseminate, and share compartmented sources of intelligence 
        information among the FBI's counterterrorism and 
        counterintelligence operations and with the Intelligence 
        Community. SCION also provides for video teleconferencing at 
        the TOP SECRET level.
    Despite these significant improvements, the Virtual Case File--a 
case management application for improving efficiency and records 
management--is not yet available to our personnel. Mr. Chairman, no one 
is more frustrated and disappointed than I at the delays we have 
encountered in deploying VCF. But I believe it is important for the 
American people to understand what the failure to deliver VCF means--
and what it doesn't mean--to the FBI Agent on the street.
    The FBI Agent on the street has state-of-the-art technology when it 
comes to surveillance. Without getting into sensitive and classified 
information, I can assure you that our ability to intercept and 
decipher communications and to otherwise monitor criminal activity and 
gather intelligence is among the best in the world. The FBI Agent on 
the street is able to communicate and share data securely, whether by 
telephone, computer, or teleconference with our partners, not only in 
the FBI, but also in the law enforcement and intelligence communities, 
in the United States and around the world. The Agent on the street is 
able to access FBI documents electronically on our existing computer 
systems and to search those documents using multiple search 
technologies.
    What the Agent on the street does not have is a user-friendly 
format for inputting investigative and intelligence information into 
his or her computer. Instead, the Agent faces a cumbersome, time-
consuming process of preparing a paper record of that information, 
seeking the necessary approvals, then uploading the document into an 
existing database. If Agents had the VCF capabilities we envisioned, 
they could directly input information into their computers, receive 
electronic approvals, and, with the push of a button, upload 
information into the database where it would be immediately available 
to others who need access to it--Agents, analysts, other federal 
employees, and state and local officials.
    I want to emphasize, however, that although VCF would enable us to 
do our jobs more efficiently, the absence of VCF does not prevent us 
from fulfilling our counterterrorism, intelligence and law enforcement 
missions. Again, VCF is not a database or an analytical tool used to 
connect the dots--it is a case management system that will make it 
easier for Agents to input and share the dots.
    Having said that, Mr. Chairman, I thank you for your longstanding 
interest in the VCF program and your commitment to hold a public 
hearing to examine the setbacks which have plagued this program. This 
afternoon, I would like to take the opportunity to answer three basic 
questions about VCF: (1) What went wrong? (2) Who is responsible for 
what went wrong? and (3) Where do we go from here?

What Went Wrong?
    The development of the VCF application started with a very simple 
concept--the FBI's need for a modern case management system. As the 
FBI's mission evolved over the past several years, so did our 
technological needs. As a result of these changes and other issues, the 
FBI faced obstacles in a number of key areas relating to the VCF 
program.
  --We did not have a complete set of defined VCF requirements when the 
        original contract was signed in June 2001.
  --The contract was based on hours worked--cost plus an award fee. We 
        now know these types of contracts are difficult to manage. 
        Although the requirements were solidified in November 2002, the 
        contract remained a cost-plus-award-fee contract.
  --We lacked skill sets in our personnel such as qualified software 
        engineering, program management, and contract management. We 
        also experienced a high turnover in Trilogy program managers 
        and Chief Information Officers.
  --We underestimated the complexity of interfacing with our legacy 
        system, of addressing our security needs, and of establishing 
        an enterprise architecture.
    We will continue to confront these lessons moving forward.
    Recognizing our internal limitations, we decided to outsource the 
development of VCF, including contract management and technology 
development. The contractor responsible for delivering the user 
applications component, including VCF, is the Science Applications 
International Corporation, or SAIC.
    Following the establishment of solid requirements in November 2002, 
the original target date for completing VCF was December 2003. I 
personally received a demonstration of the VCF software in November 
2003 and was impressed with what I saw. I believed that we were on the 
right track to deliver to our employees' desktops the case management 
system we were seeking. However, when SAIC delivered the product to us 
in December 2003, we immediately identified a number of deficiencies in 
VCF that made it unusable. Upon further examination, we discovered 
nearly 400 problems with the software and, in April 2004, provided SAIC 
with a document outlining the corrections needed. SAIC ultimately 
agreed to remedy the deficiencies and deliver full functionality but 
only at a cost--an additional $56 million--and a timetable--an 
additional year--which were unacceptable to the FBI.
    In June 2004, I decided to adopt a new two-track plan for VCF: an 
Initial Operating Capability, or IOC, and a Full Operating Capability, 
or FOC. My goal with the IOC was to identify and utilize some portion 
of the product developed by SAIC, since the fully functional case 
management system had not been delivered. The portion of VCF currently 
being piloted in the IOC is the automated workflow process. Last month, 
several hundred employees in the New Orleans field office began using 
the system as their document routing system and will continue to do so 
through the end of March. The purpose of the pilot is to: test drive 
the workflow concept; validate the human/machine interface; create an 
electronic interface to our legacy system, the Automated Case Support 
System, or ACS; assess network performance; and develop and deliver an 
enterprise level training curriculum.
    The IOC is on track to accomplish these objectives.
    As part of Track Two, the FBI contracted with multiple independent 
vendors to perform the following tasks:
  --Examine the VCF application delivered by SAIC in December 2003 to 
        determine if the software as designed will meet the FBI's 
        operational, security, and performance requirements. The 
        contractor, Aerospace Corporation, was also tasked to determine 
        if the VCF application is scalable and can be maintained and 
        enhanced easily.
  --Examine the current technologies and vendors, as well as available 
        Commercial Off-The-Shelf, or COTS, software applications and 
        those designed for other agencies, to determine the best 
        combination to meet the FBI's needs. This effort was conducted 
        jointly with the Department of Homeland Security to ensure our 
        case management efforts would be interoperable. In many ways, 
        the pace of technological innovation and the need for 
        information sharing has overtaken our original vision for VCF 
        and there are now products to suit our purposes that did not 
        exist when Trilogy began.
  --We have also asked a different contractor to review and revalidate 
        our users' requirements because the mission of the FBI has 
        evolved and there are new requirements for information and 
        intelligence sharing among different entities.
    Last week, we received the final version of the Aerospace report 
and provided copies to the Committee and to the Office of the Inspector 
General at the Department of Justice.

Who is Responsible for What Went Wrong?
    Mr. Chairman, I am responsible, at least in part, for some of the 
setbacks experienced with Trilogy and VCF. I agree with the OIG's 
finding that ``FBI management did not exercise adequate control over 
the Trilogy project and its evolution in the early years of the 
project.'' Let me also add that I agree with the OIG's finding that 
``with the new organizational structure and authority given to the CIO 
in July 2004, project management has been given the attention that was 
needed throughout the Trilogy project.'' Mr. Chairman, I will address 
that new structure and its accomplishments later in my statement.
    In addition to our shortcomings in overseeing this project, 
however, the contractor responsible for VCF bears some responsibility. 
As discussed above, the FBI retained a not-for-profit, federally funded 
contractor, Aerospace Corporation, to conduct an independent 
verification and validation review of the VCF software as delivered by 
SAIC in December 2003. We asked Aerospace to provide responses to the 
following three questions:
  --1. Did SAIC meet the stated requirements?
  --2. Did SAIC develop a complete and correct Concept of Operations, 
        System Architecture, and System Requirements?
  --3. What should the FBI do with the VCF software as delivered in 
        December 2003?
    Aerospace concluded that ``lack of effective engineering discipline 
has led to inadequate specification, design and development of VCF.'' 
In the course of their review, Aerospace could ``find no assurance'' 
that the requirements were satisfied, nor that the architecture, 
Concept of Operations, and requirements were correct and complete. 
Needless to say, Mr. Chairman, after three and a half years, this was 
disappointing news.
    With regard to the funding of VCF, this Committee has been 
supportive of our efforts and has generously provided the funding we 
have needed to overcome obstacles and attempt to move forward. Mr. 
Chairman, you and the other members are undoubtedly concerned--as am 
I--about losses we have incurred, as well as future investments we will 
need to make, in VCF. We have invested approximately $170 million in 
VCF to date. It is my understanding our vendors have delivered services 
and reusable equipment worth $53.3 million and that we have $12.2 
million in unspent obligations on our VCF contracts. This results in a 
loss of $104.5 million. I am disheartened by this result but remain 
confident in our ability to deliver a case management system to our 
employees' desktops in the future.

Where Do We Go from Here?
            VCF
    The development and deployment of an investigative case management 
system remains the top priority of the Office of the CIO. Some 
components of VCF that have been developed will be incorporated into 
the long-term solution. We will
  --Leverage the permanent interface that has been established with our 
        legacy data systems.
  --Assess the impact of an automated workflow system on a field office 
        and Headquarters structure, as well as the performance of a 
        case management system on the new Trilogy network, during and 
        at the end of the pilot testing; and,
  --Take with us a number of valuable ``lessons learned'' in contract 
        management, project management, policies and procedures, 
        modular development and deployment, data security, and records 
        management requirements.
    Not surprisingly, the pace of technology has overtaken the 
development of unique software applications for the FBI, and we may 
turn to Commercial Off-The-Shelf, or COTS-based, products. We are 
currently reviewing the Aerospace reports which recommend that we 
discard VCF and start over with COTS-based products, and which provide 
their evaluation of COTS products as well as products in use by other 
government agencies. As we do so, we will continue to consult with 
industry leaders to ensure that we develop a sound, long-term plan for 
our IT needs.
    We will move forward with a phased development and deployment plan 
as recommended by the National Academy of Sciences and required by 
Federal information resource management policy. An incremental approach 
ensures development and acquisition of the best available products on 
the market. Every phase will provide a set of services that the FBI 
workforce needs and which was part of the original VCF plan. I cannot 
at this time estimate when this will occur nor how much in additional 
funding we will need to invest to get there.
    We will also give consideration to a Service Oriented Architecture 
(SOA), as recommended in the Aerospace report. The concept behind an 
SOA solution is to standardize enterprise services--such as searching, 
reporting, and analyzing data--so that different groups of users can 
reuse similar services to access dissimilar data sets throughout the 
enterprise--such as our legacy systems of ACS, III, and our Telephone 
Application. It appears that an SOA approach could provide a flexible 
solution to the inflexible systems currently existing within the FBI 
and would help us successfully implement a final product.

            FBI Information Technology
    With me today is Zal Azmi, who joined the FBI in November 2003 as 
the Chief Information Officer. Through his leadership, the FBI has 
implemented a coordinated, strategic approach to information 
technology.
  --Strategic Plan.--In December 2004, we completed our first release 
        of the Strategic IT Plan which maps out how IT will support the 
        FBI's and DOJ's Strategic Plan and mission goals over the next 
        five years. All IT projects are required to be consistent with 
        the FBI's and DOJ's Strategic Plans.
  --Enterprise Architecture.--We established our baseline Enterprise 
        Architecture (EA) in 2004 and are in the process of developing 
        our target EA. We have created an IT Master Systems List 
        identifying all of the IT systems, applications, networks and 
        databases in the FBI and DOJ. All IT projects in the future 
        will be required to be consistent with the FBI's and DOJ's EA.
  --Process Improvement.--Our Life Cycle Management Directive (LCMD), 
        which governs how IT projects are managed from ``cradle to 
        grave,'' is now consistent with industry best practices and 
        Federal government information resource management policies. 
        All IT Projects and Programs are required to pass through 
        rigorous project and executive level control ``gate'' reviews 
        for each stage, from inception through disposal. There are 7 
        gates, 9 phases, and 14 key supporting processes in the LCMD. 
        These reviews are the mechanisms for management control and 
        direction, decision-making, coordination, and confirmation of 
        successful performance.
  --Portfolio Management Program.--This program focuses on performance 
        assessments of IT investments in the operations and maintenance 
        (O&M) phase of their life cycle. Since the majority of our IT 
        investments currently reside in the O&M phase, these 
        assessments help senior management make more informed decisions 
        about IT investments, in terms of both personnel and money. 
        Portfolio Management recommendations are focused on those 
        investments that should be leveraged, replaced, outsourced or 
        retired.
  --Enterprise IT Tool.--The IT Portfolio Management Automation project 
        awarded a contract to develop the FBI's Enterprise IT tool. 
        This is a software package that will identify and track IT 
        projects with baselined plans, schedules, and costs. It will 
        also plan and track all FBI IT hardware and software 
        infrastructure procurements at an integrated, enterprise level.
  --Capital Planning and Investment Management/Project Assurance.--The 
        Investment Management/Project Review Board now reviews and 
        approves new IT investments at specified stages of each IT 
        project's life cycle. We are also in the process of evaluating 
        the FBI's 130+ existing IT projects for overall health and 
        placement within the system development life cycle. This will 
        enable FBI executives to uncover and address cost, schedule and 
        performance risks. IT Investment Management will use our 
        Enterprise IT Tool to track new FBI IT investments to ensure 
        alignment with mission goals.
  --Performance and Results-Based Management (IT Metrics).--We are 
        updating an IT Metrics program that identifies and measures IT 
        performance according to industry standards, government 
        regulations, and Earned Value Management System (EVMS) 
        principles. Currently, we publish a CIO Monthly IT metrics 
        report using the Balanced Scorecard Methodology. Our plan is to 
        establish EVMS for ``major'' IT projects. When a program or 
        project metric varies by more than 10 percent of the acceptable 
        thresholds for cost, schedule, and performance, it will trigger 
        closer scrutiny and remedial action by the Investment 
        Management/Project Review Board.
  --Acquisition and Financial Reform.--IT Acquisition Reform, a joint 
        initiative between the CIO and the Chief Financial Officer of 
        the FBI and DOJ, will standardize and automate all procurement 
        actions, involving all IT acquisitions, as well as focus on 
        increased competition and small business involvement. In 2004, 
        the FBI entered into multi-year enterprise-wide agreements with 
        Microsoft, Oracle and Dell which have saved millions of dollars 
        in licensing fees. The savings derived from these contracts 
        have been reinvested into technology projects, such as SIPRNET 
        and FAMS (FBI Automated Messaging System). SIPRNET gives the 
        FBI desktop connectivity to the Intelligence Community and FAMS 
        is based on the Defense Messaging System (DMS). The FBI is the 
        first civilian agency to operate a classified DMS-like system.
  --Leadership.--We have begun to train our Program and Project 
        Managers as well as executive management personnel to become 
        certified as Program Management Professionals (PMP), which is 
        in compliance with the federal guidance. We currently have two 
        certified Government and five contractor PMPs. Approximately 25 
        managers have taken the PMP review course and plan to take the 
        test. Another 20 are currently enrolling in the training 
        program. This and other leadership training provides best 
        practices and techniques to provide better management of the IT 
        projects and the enterprise IT portfolio.
  --IT Policy.--We are in the process of updating a Master IT Policy 
        List. Once established, any new IT policies or modifications 
        will have to be reviewed and approved by the IT Policy Review 
        Board. The Master List will enable the CIO to monitor all IT 
        projects during the Life Cycle Management Directive control 
        gate review processes and enforce all applicable IT policies.
  --Technology Assessment.--The FBI's Chief Technology Officer is 
        working closely with the Enterprise Architecture team of the 
        FBI and DOJ to standardize enterprise technology standards, 
        technical reference models, technical architectures, and 
        technical design reviews under the Life Cycle Management 
        Directive and system testing/integration. A unified test and 
        integration facility will allow for centralized technology 
        assessment that provides responsive IT solutions to meet 
        mission goals. These measures mitigate project risks through 
        common, interoperable, supportable and affordable solutions.
  --Security and Information Assurance.--We have implemented an 
        Information Assurance Program which implements key IT 
        capabilities such as Public Key Infrastructure (PKI) and the 
        Enterprise Security Operations Center (ESOC), to strengthen IT 
        services in the FBI and DOJ and mitigate internal and external 
        threats. Certification and Accreditation is being required for 
        all IT Projects and Systems to further mitigate project risk.

                               CONCLUSION

    Mr. Chairman, in the aftermath of VCF, the FBI is faced with 
difficult decisions on how best to proceed with our evolving IT needs 
and evolving technologies. This Committee and the American people have 
my personal assurance that we will proceed as expeditiously and as 
prudently as possible to provide our employees with the automated 
capabilities they need. We have expanded the team of IT professionals 
within the FBI, each of whom has demonstrated an ability to perform 
under adverse circumstances. We have learned many valuable lessons over 
the past few years and, as a result, will be able to apply these 
lessons and avoid many of the pitfalls that befell this project in the 
past.
    I would like to close by thanking the Committee, and you in 
particular, Mr. Chairman, for your support throughout this endeavor, 
and I look forward to working with you and your staff as we chart our 
course for the future.

    Senator Gregg. The FBI has obviously got a problem and you 
are willing to address it and you have been forthright in 
explaining it, but I do think it is important to go back to 
some of the causes of the problem and make sure that those 
things are being addressed.
    The Aerospace review, and I think choosing Aerospace, from 
what I can figure out, was a reasonable choice. They are 
independent and they appear to be quite objective. But they 
have three basic findings. One, that the architecture was 
developed without adequate assessment of alternatives and 
conformance to various architectural standards and in a way 
that precluded the incorporation of significant commercial off-
the-shelf software. I want to get back to that point because I 
want to know if that was an intentional decision because it 
appears to have driven cost.
    Second, the high-level documents, including the concept of 
operations, systems architecture, and systems requirement, were 
neither complete nor consistent and did not map to users' 
needs, which I find unusual.
    And three, the requirements and design documentations were 
incomplete, imprecise, requirements in design tracing have 
gaps, and the software cannot be maintained without difficulty 
and is, therefore, unfit for reuse. We are looking at the 2003 
delivery, of course, but this was the format on which 2004 was, 
I presume, built out of. And even if it wasn't, it still raises 
huge issues since we paid $170 million to get it.
    And then Aerospace concluded that it would be better not to 
even develop it this way, that we should go to the off-the-
shelf approach, which raises three fundamental issues which I 
am wondering how the FBI plans to approach them as it moves 
forward.
    The first one is, why didn't we have in the FBI the 
technical people who would have picked up on things like 
failure of architectural design, failure to meet standards 
which were fairly consistent across the development of software 
architecture which weren't being met? There was a huge turnover 
of people during this period. Is it possible for an agency like 
the FBI to maintain the quality of people that are necessary in 
order to monitor a program of this size or should they--do we 
almost as a matter of systems have to put that monitoring into 
an independent group in order to make sure that we have the 
talent necessary to double-check a contractor like this?
    Second, why would we ever choose a cost-plus contract? I 
mean, this experience of cost-plus is pretty horrific across 
Federal funding activities.
    And third, this point which Aerospace makes about actually 
developing a software which wouldn't conform or wouldn't be 
integrated with off-the-shelf activity. We know by definition 
that technology mutates constantly and improves. I mean, isn't 
it inherent to any technological system of this size that you 
are going to want to be able to migrate to the next system, 
which is going to work better, and that next system isn't 
necessarily going to be internally developed, it is going to 
probably be developed by some smart bunch of folks who spun off 
from Massachusetts Institute of Technology (MIT) and are 
sitting in a garage somewhere in hopefully New Hampshire?
    But it is not going to probably come from within the agency 
because you don't have the time and you don't have the people 
and you don't have the talent. Or you have the talent, maybe, 
but you don't have the time to focus on the mutation.
    So have we addressed those three issues which I see as 
systemic to the question of why it has failed?

                          QUALITY OF PERSONNEL

    Mr. Mueller. Let me take a crack at them and then turn it 
over to Mr. Azmi.
    In terms of the quality of personnel we had in the Bureau, 
I had a CIO, a very excellent CIO for the first year after I 
was there. He then retired. I then went on a nationwide search 
for a CIO which took about 8 to 12 months. The persons who were 
proffered for a variety of reasons fell through and there was a 
gap during that period of time in leadership at the CIO 
position. That hurt us.
    I also, perhaps due to my naivete, did believe that we had 
the appropriate program managers. I had persons in from other 
organizations such as IBM and Lucent. I came to find out that 
there are project managers in a particular skill that we 
needed. I did not provide to our project managers or to the 
users group. It was a software engineer specialist with the 
capability of drilling down into that which was being composed 
by SAIC.
    Now, do I have that capability now? I don't think, and I 
will ask Zal, I am not certain that we have that full 
capability to drill down into a particular software package and 
determine whether everything is going as it should go.
    I do know that we have greatly expanded our CIO office 
under Zal Azmi. One of the things that he has brought is the 
ability to give me the bad news early on. One of the problems 
of anybody who runs an organization like mine is that people 
want to give you the good news. They do not want to give you 
the bad news. He has always been out there giving me the bad 
news and he has brought on board a technology officer who is 
the type of person that goes out and looks at each one of these 
COTS products.
    All that being said, we will have to augment our staff with 
contractors. We will have to go and look, as we have in the 
past, for expertise outside the Bureau to make certain that we 
have covered all of these areas of expertise.

                  COST-PLUS CONTRACT AND COTS PRODUCTS

    As to your second question, on a cost-plus contract, that 
was entered into in the summer of 2000. I do not have the facts 
or the understanding as to why we entered into a cost-plus 
contract in the summer of 2000, in the summer of 2001. I can 
tell you that my experience is we will never again in the 
Bureau enter into a cost-plus product that can lead us so far 
astray.
    I will tell you that prior to the last piece of the second 
part of Trilogy, which was putting in the networks, the local 
area networks, the wide area networks, at the secret level, at 
the classified level, which was a challenge, we had 
difficulties with the cost-plus contract with that contractor 
and ended up restructuring it so we got a commitment to produce 
at a particular cost at a particular time.
    Last, with regard to COTS products, as I become more 
knowledgeable about technology, it goes without saying, I 
think, that the world has come to be a plug-and-play world. You 
don't get a full system of stereo television all in one package 
by one manufacturer now. What you have is plug and play, 
whether it be computers or your stereo or what have you. As we 
have grown since 2001, it is clear that in developing a package 
such as the Virtual Case File, we have to look at COTS 
products. We have to use COTS products. We have to phase it in, 
understanding that down the road 1, 2, or 3 years hence, we may 
have to unplug a product and plug in a new one.
    Zal, do you have anything to add?
    Mr. Azmi. I want to add to the concept of cost-plus 
contract. The Bureau originally actually got into this contract 
in 2001 because we did not have all of our requirements 
defined. However, in 2002, there was a joint application 
development session between the Bureau and SAIC and, at that 
point, we developed a solid base for requirements, and, at that 
point, that contract could have gone to a performance-based 
contracting. However, that contract continued as a cost-plus 
contract.
    I will say that in June 2004, when we decided to actually 
develop the initial operating capability, we did move to a 
performance-based contract. That is the main reason why the 
software was developed on time and within the budget.
    I would also add that even though IOC is only 10 percent of 
the VCF, I think the concept is sound and we can implement that 
for larger contracts.

                        ENTERPRISE ARCHITECTURE

    The other question, Mr. Chairman, you had was about 
enterprise architecture and what we are doing, where we are 
going from here. I submit to you that we have already 
solidified our requirements for Virtual Case File or a case 
management system of the future. We have already mapped those 
requirements through a Federal enterprise architecture 
framework, which is the best practice, is the standard the 
Federal Government uses. We have already mapped our software, 
or our requirements to what they call a service reference 
model. We have already done this mapping.
    That will enable us to actually deliver a case management 
system of the future in phases, with capabilities being 
available to the users shortly after the contract is awarded, 
and that is the concept we are going to move forward with, the 
small deliverables and the contained time with program 
management and project management disciplines in place.

                      HOW DO WE GET THE MONEY BACK

    Senator Gregg. I want to make sure everybody has time here 
so I will reserve my questions, but I am sure somebody is going 
to ask you how we are going to get any of this money back and 
that is a question I do hope we get to.

                   DELIVERY ELEMENTS OF VCF ON TRACK

    Senator Leahy. Thank you, Mr. Chairman, and I would ask 
also consent that I have a little time to put my full statement 
in the record and keep this short.
    Senator Gregg. Of course.
    Senator Leahy. The reason I ask is that it would be 
somewhat more lengthy because it also involves my other hat on 
authorization.
    Director Mueller, on May 20, 2004, you testified before the 
Judiciary Committee. You stated, ``We are on track to deliver 
elements of Virtual Case File capabilities by the end of this 
year.'' I responded to that and I said, ``What elements and 
what do you mean by elements?'' I don't think I ever got a 
clear answer on elements, but you did say, quote, ``We are in 
negotiations with our contractor on finishing out that last 
part of the Trilogy project, the Virtual Case File, and my hope 
and expectation is that that will be completed by the end of 
this year. But I do believe that when we are concluded this 
year''--2004--``we have the foundation for cutting-edge 
technology for an organization our size,'' close quote.
    At the same hearing in May 2004, Senator DeWine of Ohio 
asked you this. Quote, ``Do you currently have enough money to 
complete Trilogy? What will be the total cost of Trilogy? How 
much money do you have left to spend on the program, and when 
will Trilogy be completed?'' You responded, ``I believe we do 
have sufficient money. I believe the total cost will be close 
to $560 million. And the last piece of Trilogy, that is the 
Virtual Case File, my expectation, it will be in by the end of 
this year.'' Senator DeWine said, ``End of this year?'' You 
responded, ``This year.''
    Now, we do know that by the time you testified in May 2004, 
almost 1 year ago, Virtual Case File was already on life 
support. The FBI had already twice rejected SAIC's delivery of 
the Virtual Case File. It already identified nearly 400 
potential problems with the software. It had already been told 
by Virtual Case File that correcting these problems would cost 
an additional $56 million and an additional year. As you say in 
your testimony today, they are both unacceptable to the FBI.
    In addition, the FBI was already negotiating for a scaled-
down version of VCF, the initial operating capability of VCF 
Light.
    Just the day before the hearing when we asked you these 
questions where we got a pretty rosy scenario, the FBI 
submitted a request, Federal Systems Integration and Management 
(FEDSIM), the contract manager, to estimate the cost associated 
with shutting down 90 percent of it.
    Now, I don't know anybody who has been more supportive in 
the 30 years I have been here of the FBI than I have. Others 
have been as supportive. I don't know of anybody more 
supportive. I have been extremely supportive of you. But I am 
ready to tear out what little bit of hair I have left.
    Why didn't you mention any of these problems, all of which 
were there, when you were asked about the status of the project 
in May 2004? You had a friendly audience. You had me. You had 
one of the leading Republicans, Mike DeWine. We were asking you 
these questions, and the answers we got didn't comport with the 
facts. Why?

                      DIRECTOR MUELLER'S RESPONSES

    Mr. Mueller. Senator, I don't want you to lose the last of 
that hair.
    Senator Leahy. There is not much left, I can tell you right 
now, nor is there any more patience.
    Mr. Mueller. I will tell you, as we went through the 
spring--and I would have to look at the dates--as we went 
through the spring last year, I had voices telling me, 
particularly from SAIC, that they could produce. I met with the 
Chief Executive Officer (CEO) in the spring--I am not certain 
of the date--and received from the CEO the assurances that we 
could--and by ``we,'' I mean SAIC would produce and it was my 
expectation that we would have a substantial portion, not all, 
but a substantial portion of Virtual Case File by the end of 
the year.
    Now, when that came in terms of the timing of my testimony, 
I am not certain. On the other hand, I will tell you that Zal 
Azmi has always raised questions about this. I knew that there 
were issues with regard to the project as it was given to us in 
December 2003, but I had already been through a similar 
circumstance with Computer Sciences Corporation (CSC) in which 
we had to renegotiate, we had to go back to the drawing table, 
and they came through under budget, on time, as we had done so. 
And there was a part of me in the spring of 2004 that thought 
that we could go through exactly the same exercise.

           FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT REQUEST

    Senator Leahy. The day before the hearing, the FBI had 
submitted a request to FEDSIM asking, what would it cost to 
shut down 90 percent of it.
    Mr. Mueller. I am not familiar with that. I am not certain 
I was familiar with that at the time.
    Senator Leahy. I hope not, because if you were familiar 
with it, your answers to mine and Senator DeWine's questions 
were totally inconsistent with what the facts were.
    And then we sent follow-up questions to you. I did and 
several others did. You told me you completed your responses 
some time ago and sent them on to the Department of Justice for 
review. It has been 8 months. I don't know who is good cop/bad 
cop, to use an analogy in your business, who is good cop/bad 
cop here, but we asked specific questions. The answers we were 
given did not comport with the facts, and I will accept your 
statement here today that you were not aware that the day 
before, they were trying to figure out how to close down 90 
percent of it.
    But the answers--somebody has got to bear responsibility. 
It can't just simply be, well, the Department of Justice told 
us for 8 months, don't answer these questions. We are talking 
about hundreds of millions of dollars and a friendly committee. 
What in the hell goes on if it is an unfriendly committee?
    Mr. Mueller. Is that a question, Senator?
    Senator Leahy. Yes. When are we going to get the answers?
    Mr. Mueller. Well, as I indicated to you yesterday, the 
answers were provided to the Department of Justice in October. 
We have been working with them. I am as frustrated that you do 
not have the answers as you quite obviously are and I am 
certainly willing to do what I can to work to get those answers 
to you.

                       BUDGET TO COMPLETE TRILOGY

    Senator Leahy. Well, let me ask you a specific question for 
appropriations. Does the FBI have sufficient money to complete 
Trilogy, including VCF or a similar case management system, or 
will the FBI reprogram or request additional funds to fix and 
find a replacement for Virtual Case File in this upcoming 
budget cycle?
    Mr. Mueller. What we are planning to do is utilize funds 
that we have outstanding for this fiscal year and in 6 to 8--
and correct me if I am wrong, Zal, on this--and in 6 to 8 
weeks, we ought to have a better feel for what it would cost to 
bring on the various components that we are anticipating 
bringing on in the phased-in development of Virtual Case File. 
It would not be a 1-year phase-in. It would be a 2- or a 3-year 
phase-in. At this point in time, having just received the 
Aerospace report, we are examining all of our options and it 
will be at least 6 to 8 weeks before we can come back to you 
and lay out in front of you our strategy and say, this is what 
we want to do. These are the COTS products we may want to use 
and this is what it will cost.
    I am looking to reprogram funds to do it, certainly within 
this fiscal year, and then we will look at where we are when it 
comes to 2006-2007.

                             REPROGRAMMING

    Senator Leahy. Well, if you reprogram the funds----
    Senator Gregg. Senator, if I can just interrupt, I think it 
is important to note this phased-in development issue, because 
this committee was actually very aggressive with the FBI saying 
that this program should have been phased in at the beginning--
--
    Senator Leahy. I remember that.
    Senator Gregg [continuing]. As I think the Director will 
recall, and so I think at least they should be credited with 
the next steps they are going to do phases.
    Senator Leahy. But then on that, where are you going to 
reprogram the money? Does that mean you are going to reduce 
other programs?
    Mr. Mueller. We have carryover money of approximately $15 
million and we are looking at other savings that we have 
managed to put into Virtual Case File, or what will become 
Virtual Case File, and we are also going to look at 
reprogramming additional funds, depending on what we can do and 
how fast we can do it in this fiscal year.
    Senator Leahy. Will you report to this subcommittee--well, 
the reprogramming, you will anyway----
    Mr. Mueller. Absolutely.
    Senator Leahy [continuing]. But will you report to this 
subcommittee from what programs you are finding savings?
    Mr. Mueller. Yes.
    Senator Leahy. You understand the danger of that, of 
course.
    Mr. Mueller. Yes.
    Senator Leahy. All right.
    Mr. Mueller. I would anticipate we would have to. We 
reprogram--if it is over a certain amount, we are up here in 
any event, so----
    Senator Leahy. We are just curious----
    Mr. Mueller [continuing]. It is an ongoing----

                       RECOUPING FUNDS FROM SAIC

    Senator Leahy. We are just curious what programs that we 
have already authorized might get cut back or eliminated by a 
reprogramming to take care of the mistakes in the VCF. By the 
way, speaking of money, do you have plans to recoup funds from 
SAIC, and if so, how much?
    Mr. Mueller. We have referred the matter over to the 
Department of Justice to look at, explore our options.
    Senator Leahy. Are they going to get an answer back to you 
quicker than they do to those of us in the Congress?
    Mr. Mueller. All I can tell you is we referred it to the 
Department of Justice, Senator, looking at to what extent 
either of the parties are culpable. I do believe there is 
culpability, as I indicated, on both sides. I am not going to 
stand here and say that we are not in some part responsible for 
the fact that it was not brought home on time. But as I say, I 
believe SAIC was also responsible. The report from Aerospace 
seems to indicate some of those deficiencies and we are looking 
at our options to recover some of that money for the taxpayer.
    Senator Leahy. Do you have any estimate of how much that 
might be?
    Mr. Mueller. I do not.

                            CASE MANAGEMENT

    Senator Leahy. Okay. Let me ask you just two questions and 
I will submit the rest, which is always scary because I will 
probably never get the answer, but when will agents have a 
functioning case management system in their hands?
    Mr. Mueller. A basic case management system, and there are 
various aspects to it--monitoring evidence, leads management, 
and the like, but a basic case management system, certainly we 
hope within 1 year. And I will tell you, I am guilty of----
    Senator Leahy. One year from today?
    Mr. Mueller. Yes. And I am guilty in the past of raised 
expectations. I thought we were going to produce. Every time I 
have gone to an office to talk to our people, I will talk about 
the importance of technology, the desirability of bringing us 
into the digital age, and have given them the expectation that 
we would have had Virtual Case File certainly by now. I went 
out and retrained a number of agents in support of Virtual Case 
File. So I am very reluctant to give estimates, understanding 
that I have been proven wrong in the past and I have raised 
expectations, not only of the agents but also of Congress and 
others who are interested in moving us into the digital age.

         INFORMATION TECHNOLOGY DEVELOPMENT AND FUNDS RECOVERY

    Senator Leahy. I will ask just one last question and I will 
submit the rest, and I ask this question because the same 
frustration--the biggest frustration I have in being unable to 
get answers is that over and over again on the things that we 
legitimately ask questions about, either the Appropriations 
Committee or the authorizing committee, we don't find out until 
we read it in the paper. We either find out because a newspaper 
reporter is able to get more or a TV reporter, or somebody has 
leaked something to them.
    So let me ask you this. Are there other clouds on the 
horizon with respect to the information technology efforts that 
you might like to tell us about today before we read about it 
in the press in the future?
    Mr. Mueller. That is a very broad question.
    Senator Leahy. I know it. It is a very broad subject.
    Mr. Mueller. Are there any clouds on the horizon with 
regard to the development of these systems? With regard to the 
development of these systems, I think the last piece of Trilogy 
was Virtual Case File, and I think you know exactly what we 
know with the various reports. We, upon occasion, have other 
areas in which technology is affected. We are currently looking 
at an issue that does not relate at all to our sensitive 
material--well, our classified materials, but is an issue which 
I probably should raise to you in private.
    Senator Leahy. Okay. Fair enough. Will you?
    Mr. Mueller. I will.
    Senator Leahy. Thank you. Thank you, Mr. Chairman.
    Senator Gregg. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    Well, under this rock is another rock and under this rock 
is a black hole. The future--I am concerned. First of all, we 
can look back, but my concern is how do we move ahead.
    Can you tell me, number one, are you thinking about 
scrapping the program now that we have invested $170 million 
into it, or how much of the $170 million are we able to kind of 
recapture and get value for the agents to have what they need 
in the field? Are we just bagging it? We have got so many 
contractors there. You have got SAIC, and others working on the 
other parts of Trilogy and of course now you have Aerospace, 
the corporation's comments and evaluations. Where are we here? 
What are you going to do? Are we scrapping a $170 million 
program here?
    Mr. Mueller. Let me start, Senator, by saying that the 
total contract was for $170 million. We think we can recover 
approximately $53 million of that in terms of software, 
hardware that we have received in the course of that contract, 
so that will not be lost. We have in excess of $12 million left 
in the contract, which leaves approximately $104 to $105 
million that we will not be able to recover.

                      POSSIBILITY OF SCRAPING SAIC

    Senator Mikulski. Are you saying goodbye to SAIC now or are 
they going to be the ones that everybody walks into the 
woodshed, but then what happens after you come back from the 
woodshed to the main building? Are we going to get the case 
file----
    Mr. Mueller. We are looking at all of our options and who 
can----
    Senator Mikulski. So you don't know who----
    Mr. Mueller. We do not know who the contractor will be for 
the next phases of the program. Now, are we scrapping the 
program altogether, I think was one of your questions.
    Senator Mikulski. Yes.
    Mr. Mueller. The recommendation from Aerospace, based on 
their review of that which was provided to us by SAIC in 
December 2003, was to scrap the project totally. We are looking 
at that. We are reviewing that. SAIC, I think, will tell you 
when they testify that the product that they have produced for 
us that is being tested down in New Orleans is state of the 
art. It is very good and we should adopt that. We are looking 
at that.
    On the one hand, SAIC says we have produced and the product 
we have got down in New Orleans is good and you ought to adopt 
that. On the other hand, we have the report from Aerospace that 
says, for a variety of reasons, you ought to scrap Virtual Case 
File. So we are evaluating those two----
    Senator Mikulski. But SAIC says, we have delivered you an 
initial product. It is now in New Orleans being tested.
    Mr. Mueller. Yes, and it is good, state of the art----
    Senator Mikulski. Well, wait. Wait. We don't know yet. It 
is being tested.
    Mr. Mueller. That is what SAIC is saying.
    Senator Mikulski. It is being tested.
    Mr. Mueller. It is being tested.
    Senator Mikulski. So, number one, you don't know whether 
you are going to scrap it or not, and if you do, whether you 
scrap it or not, moving ahead, you don't know who the 
contractor will be. And if you don't know who the contractor 
will be, then you don't know how much it will cost----
    Mr. Mueller. Correct.

                             DECISIONMAKING

    Senator Mikulski. So this is not a happy situation.
    Mr. Mueller. No. I would agree with that. It is not a happy 
situation when we are----
    Senator Mikulski. And then my question becomes, then, who 
is in charge to get this back on track and what are your time 
tables? The chairman will have an appropriations deadline. We 
have a very tight budget--we have been faced with spartan 
allocations. And then who is going to be in charge to make all 
these decisions? And I know you are going to say you are in 
charge, okay. That is great. But like the Pope is in charge of 
the Catholic Church, who is in charge of this confessional?
    Mr. Mueller. Well, the way you put it, maybe I am in charge 
of the confessional, but I will rely on Zal Azmi and his team 
for advice and management of the process as we go forward. But 
as I said before and I have said since I have arrived, and I 
have said it in this context and other contexts, we need and 
would look to outside, independent advice on whether we are on 
the right track. We have had--and I have gone to any number of 
outside entities to get advice on whether we are on the right 
track, experts outside, and we will continue to do that.
    Senator Gregg. Senator----
    Senator Mikulski. Well, my time is up----
    Senator Gregg. No, your time is not up, but I am just 
wondering if I could interject a question here.
    Senator Mikulski. Please, yes. I think this will work best 
this way.

                      EVALUATING THE 2004 PRODUCT

    Senator Gregg. Are you evaluating the 2004 product as it is 
now being used in a demonstration in New Orleans independently, 
and if you are, who is doing that?
    Mr. Azmi. That product in New Orleans is a prototype or a 
functional prototype of the VCF IOC, initial operating 
capability. That software is one-third of the--I am sorry, one-
tenth of the VCF software. It is not all of the capabilities 
that was promised. It is just one-tenth of that. Within that 
software, the FBI has also included a number of capabilities 
that were developed by FBI staff, programmers. So, that is a 
combination of two programs that is being tested in New 
Orleans.
    By the end of March, we will shut down that evaluation 
period and will have 30 days to actually gather information and 
feedback from our users in New Orleans to see how they liked 
it. That is the work we are doing with our staff over in New 
Orleans, sir.
    Senator Gregg. Can I postpone you for one more question?
    Senator Mikulski. Sure.
    Senator Gregg. You are saying it is one-tenth of what was 
supposed to be delivered.
    Mr. Azmi. That is correct, sir.
    Senator Gregg. The project that was evaluated and found so 
lacking by Aerospace, which was the 2003 product, was that the 
entire product?
    Mr. Azmi. That is correct, sir.
    Senator Gregg. Thank you.
    Mr. Mueller. I think----
    Senator Mikulski. Did you want to pick up on my question?
    Mr. Mueller. I think Mr. Azmi wanted to add on the answer 
to your question, if he could.
    Senator Mikulski. Yes.
    Mr. Azmi. I know that Director Mueller is taking 
responsibility for the program as a whole, but as the Chief 
Information Officer for the FBI, it is my responsibility to 
develop information technology to our users. What steps have I 
taken since my arrival to actually make sure----
    Senator Mikulski. When did you arrive?
    Mr. Azmi. November 2003, ma'am.
    Senator Mikulski. Thank you.
    Mr. Azmi. We have taken a number of steps to actually 
correct the deficiencies overall with information technology 
programs within the FBI. But specifically for the VCF program, 
what we have done, we have completed our requirements. We have 
a requirements document for a case management system that our 
users, our agents, and our analysts want and the FBI. We have 
mapped those requirements toward services that are guidelines 
by the Federal enterprise architecture framework. We have those 
services. We have broken down those services into phases to 
ensure that we have the ability and capability to deliver those 
into phases.
    We have also asked another independent contractor to 
develop what we call an independent Government cost estimate to 
tell us exactly how much every one of these phases will cost. 
That report is due to the FBI by mid-February, ma'am.
    Senator Mikulski. I appreciate that answer. I know my time 
is about up----
    Senator Gregg. You have as much time as you want.
    Senator Mikulski. Director Mueller, did you----
    Mr. Mueller. I wanted to add one other thing that has 
become important. It was in the National Sciences report, and 
that is the necessity for an enterprise architecture for the 
FBI as a whole. We have never had an enterprise architecture. 
We have been stovepiped. And one of the things we have done 
over the last year is begin to develop an enterprise 
architecture so that whenever we bring on an information 
technology product, it fits within that enterprise 
architecture.
    For us to move forward, we have to have the enterprise 
architecture to assure that whatever we bring in is consistent 
with and works with other software and hardware packages that 
we may bring on board, and that is a substantial advance for 
us. We have a team working on it and I think we are on the 
track to have one of the better enterprise architectures for 
any institution in Washington.

                   ACCELERATED FUNDING AND OVERSIGHT

    Senator Mikulski. Well, I appreciate these answers and I 
certainly your attempt, Mr. Azmi, to try to bring order out of 
chaos. I also appreciate the fact that after September 11, 
there was this incredible need to retool the FBI. There was an 
accelerated ops tempo, if you will, because we didn't know when 
they were going to try to kill us again. We were still standing 
sentry because they might be trying to kill us again in an hour 
and a half.
    So we understand the challenges you faced, the FBI faced, 
and with this increased ops tempo, though, your Congress gave 
you money as well as in a variety of homeland security agencies 
money to protect the United States of America. That is what 
these files and all this technology is all about, is to 
maximize and leverage an agent to make that agent the most 
effective person that they can to do the mission.
    I am really concerned that after 3\1/2\ years, where in the 
hell are we and have we just wasted money, have we just wasted 
time, and how we won't repeat it again, because in the report, 
it talked about how the FBI had changing requirements. It is 
what we hear at the Pentagon. Every time they build a ship, 
they meet with an admiral and a boatswain's mate and the 
requirements get changed.
    So my question--well, first of all, just know, I know you 
are disappointed and I am disappointed. I believe that this is 
a systemic issue with some of the accelerated funding in 
homeland security and I think calls for additional oversight in 
appropriations.
    But now having then come back to where we are, with the 
reforms Mr. Azmi has put in to bring order out of chaos, when 
do you think you can tell the subcommittee what it is that you 
want to do and how much it will cost?
    Mr. Mueller. Two months.
    Senator Mikulski. Two months.
    Mr. Mueller. I think we will have a much better handle on 
where we are at that time.
    Senator Mikulski. Fine. But I think we also have to 
understand the pressure that you--when I say you personally, 
because we were together in some tough environments and I 
respect you very much and all the agents. But, wow, I think we 
kind of have to regroup, don't you agree, Mr. Chairman?
    Senator Gregg. As usual, the Senator from Maryland has 
gotten to the essence of the issue.
    Senator Mikulski. Thank you. We look forward to working 
with you, Mr. Chairman, and we look forward to making sure 
there is not an empty chair here.

                 INDEPENDENT EVALUATING ASSISTIVE TEAM

    Senator Gregg. It would be very enjoyable were you in that 
chair.
    And just to follow up on the Senator from Maryland's 
points, which I think are absolutely correct, and Senator 
Stevens actually made this point before he had to leave, this 
could be a systemic issue across other agencies, as we tooled 
up so quickly with technology that agencies that didn't have 
the personnel capability to properly manage this tooling up 
either bring online technology that can't migrate into the 
greater needs, can't keep up with the changing times, or simply 
can't do the job.
    That is why I get back to this issue of should we have an 
independent evaluating assistive team, where we have the level 
of expertise there that is consistent and technically current 
to come in and help an agency like the FBI. I mean, you have 
got a good person in Mr. Azmi. I am extremely impressed with 
Mr. Azmi. I have had a fair number of discussions with him. But 
is the FBI ever capable of getting out of the trees and looking 
at the forest on the issue of technology the way an independent 
group might be able to help you?
    Mr. Mueller. I think it is worth exploring. I think, as I 
have come to learn, that development of software for a 
particular organization requires a complement of individuals 
within the organization who understand the work of that 
organization----
    Senator Gregg. That is obvious.
    Mr. Mueller [continuing]. Usually called user groups, and 
the experts on the other side who know the technology. And the 
coming together of those two is exceptionally difficult. A 
third party with the expertise, or a third entity that could 
provide the expertise to an agency may be worthwhile.
    Right now, we understand we don't have all the areas of 
expertise in the Bureau and we go out to outside contractors to 
bring that expertise in, in particular areas. But it is 
certainly something that perhaps should be explored.
    I will tell you also, in response to Senator Mikulski's 
point about pushing hard on the technology, one of the things 
that we did do which I think backfired on us is push hard after 
September 11 to get the technology on as fast as possible 
without understanding, fully understanding the detrimental side 
effects to pushing too hard to get that technology on board 
without going through, unfortunately, some tedious, time 
consuming steps in order to get what you need, even though you 
have to delay, and that is a lesson I have learned in the 
course of working with Virtual Case File.

                FILE MANAGEMENT AND WIRELESS TECHNOLOGY

    Senator Mikulski. Mr. Chairman, just to you, after 9/11 and 
then for those of us on the Intelligence Committee also 
authorizing and appropriating with the FBI, it was, in every 
one of the agencies where there was responsibility for 
protecting us against predatory attacks, there was this 
increased tempo and every desire to move quickly, even if we 
made mistakes. It was better to make a mistake and spend the 
money, but don't dilly-dally on the process.
    At the same time, we had that sniper in Maryland, and I 
wish you could have been there to see the FBI, Bureau of 
Alcohol, Tobacco and Firearms (BATF), hundreds of agents in a 
room about this size with wireless technology. That is when I 
got a sense of the files, the management, and the 
communication, how they all worked with all of the leads all 
over America, with BATF and the ballistic lab, and then local 
law enforcement. It was really stunning. And when we have the 
right tools, it is amazing. But again, they were at the edge of 
their chair, working with every tool at their disposal, and 
even though some of those tools were out of date.
    So again, we see the way they have to escalate to an 
intense level. They have an attitude which we appreciate. Damn 
the torpedoes. So if you make mistakes or you spend too much 
money or whatever, at least grab the sniper, grab the killer, 
grab the terrorist, grab the predator, and we have made 
mistakes. These are big-bucket mistakes, but now it is to 
regroup.
    But I think it wasn't because there wasn't a desire to move 
quickly and do a good job. I am not white-washing this, but----
    Mr. Mueller. If I could respond briefly, Mr. Chairman, I 
think if you look at it as a continuum, after September 11, if 
you went into that room, you saw paper all around----
    Senator Mikulski. You did.
    Mr. Mueller [continuing]. Because we would have to take 
down everything on paper and run it by paper. And if you went 
into our SIOC in the wake of September 11, you would find piles 
of paper around.
    We evolved. When we worked with the other agencies, Federal 
and local, it was pretty much a paperless organization, and we 
have evolved to be paperless when we have challenges such as 
that.
    Unfortunately, we had to run files between offices. We did 
not have the communications capabilities at the time of the 
sniper attacks that we would want, even though we had the 
paperless entry of information, and we have evolved yet from 
there.
    So we have made headway in a number of these areas that 
enables us, particularly with substantial challenges such as 
September 11 or the sniper attacks and the like, to do our 
business digitally.

                            CLOSING REMARKS

    Senator Gregg. Thank you Senator, which I think gets back 
to what our purpose here is, is to make the agent on the street 
more effective in protecting us. We know the commitment of the 
Bureau. We know it is extraordinary. We know the people that 
serve us there, including right up to yourself, are the best 
and trying hardest and we respect that, but obviously the 
taxpayers want to make sure they get value for their dollar, as 
you do, too. So that is what this hearing is about.
    I thank you. Thank you for your time. I appreciate your 
courtesy in giving us so much of your time.
    Mr. Mueller. Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Mr. Director, Mr. Azmi.

                          SUBMITTED STATEMENTS

    We have a bit of an issue here in that we have got a vote 
at 3:30 and a 4 o'clock event that I have to be at because the 
leader told me I have to be there and I am a big fan of the 
leader. So I think I am going to have to recess this hearing 
and probably reschedule the second panel, which I regret, 
because I think SAIC has every right to make their case in the 
public. They have obviously got a case they want to make as to 
their views, and obviously we would like to hear from Aerospace 
and from the Inspector General.
    The statements from these organizations not appearing and a 
statement from Senator Grassley will be inserted in the record.
    [The statements follow:]

   Prepared Statement of Arnold L. Punaro, Executive Vice President, 
             Science Applications International Corporation

    Chairman Gregg and Senator Leahy: It is a privilege to appear 
before you today to testify concerning our portion of the work on the 
Trilogy Project for the Federal Bureau of Investigation. Mr. Chairman, 
I ask consent that my entire statement be entered into the record and 
with your permission I am prepared to summarize.

                        INTRODUCTION AND CONTEXT

    At the outset, let us say clearly that SAIC understands and 
appreciates the overwhelming demands and difficulties that the FBI has 
faced since the attacks of September, 11. While we disagree with the 
Bureau over aspects of the Trilogy program history, we have only the 
greatest respect for the dedication with which the Bureau has pursued 
its mission of defending our nation under the enormous, and sometimes 
conflicting, pressures that surfaced in the aftermath of the terrorist 
attacks.
    SAIC, with 45,000 employees, is the largest privately owned 
research and engineering firm and one of the largest government 
contactors in the nation. As employee owners, we have prided ourselves 
since our founding 36 years ago on our ability to assist the U.S. 
Government on programs of national importance. Our dedication to work 
that matters is further reflected in an aggressive and pervasive ethics 
program. How our company operates and how we are perceived are matters 
of vital, personal interest to each and every employee. We have grown 
to become a very successful and sought after company by providing 
quality products and creating satisfied customers.
    In that respect, let me mention several major, illustrative 
software engineering projects successfully designed and deployed for 
the FBI to illustrate the work we've done.
  --The Combined DNA Index System (CODIS) is a national DNA database 
        system for use by United States and international law 
        enforcement authorities by creating DNA profiles and by 
        matching unknown profiles found in the course of criminal 
        investigations to profiles stored in local, state, and national 
        databases here and overseas.
  --The FBI Interstate Identification Index (Triple-I) is the U.S. 
        national criminal history system that maintains more than 40 
        million data entries (the largest and most accurate criminal 
        history database in the world) and is used every day by state, 
        local and federal law enforcement agency in the United States.
  --The National Instant Criminal Background Check System (NICS) 
        implements the Brady Act. SAIC was contracted to develop, 
        deploy, maintain, and support the federal, state, and local 
        governments in checking a citizen's eligibility to purchase a 
        firearm (handing in excess of 30 million purchases to date). It 
        handled more than four million calls per year from firearms 
        dealers checking purchasers against the national database. To 
        quote Mr. Michael D. Kirkpatrick (FBI Assistant Director in 
        Charge, Criminal Justice Information Services Division at the 
        time of the work) in his letter of appreciation to SAIC in 
        January 2004, ``Not only is the successful implementation of 
        the NICS directly attributed to the hard work and dedication of 
        the SAIC staff, numerous post-implementation challenges were 
        met head-on and overcome with SAIC's support--you have been a 
        trustworthy, customer-oriented partner.''
  --Law-Enforcement Online (LEO) is a 24 hours a day, 7 days a week, 
        online, real-time, controlled-access web portal (more than 
        43,000 users) providing a focal point for electronic 
        communication, education, and information sharing for the law-
        enforcement, criminal-justice, and public-safety communities 
        nationwide.
    In sum, SAIC comes to this issue with a record of outstanding 
achievement in challenging projects, including specifically for the 
Federal Bureau of Investigation. We point this out not to boast, but to 
provide the context for considering some of the issues that have marked 
the public discussion of Trilogy and the manner in which SAIC has 
performed on this contract.

The Results and the Reasons
  --Trilogy began in a pre-9/11 world with very different circumstances 
        and requirements than those that exist now.
  --The events of 9/11 caused massive and continuing change in the 
        project while the FBI dealt with enormous post-attack pressures 
        and demands.
  --The FBI's requirements for the project--the list of what the FBI 
        wanted the project to have and do--grew and changed continually 
        while turbulence in FBI program management worked against 
        stability and definitive guidance.
  --A key FBI decision to drop a controversial, high-risk plan for a 
        one-step conversion to a new system opened the way for a 
        sensible developmental approach of incremental improvements in 
        capability.
  --The FBI and SAIC renegotiated the contract in summer 2004, coming 
        to firm agreement on requirements for the incremental 
        improvement through what is called the Virtual Case File (VCF) 
        Initial Operating Capability (IOC).
  --SAIC acknowledges some areas where we made mistakes and 
        particularly where we failed to adequately communicate our 
        concerns to appropriate levels of management, to include the 
        Director of the FBI.
  --SAIC delivered, and the FBI approved and accepted, VCF IOC within 
        the allocated budget and ahead of schedule to industry-standard 
        quality, offering FBI agents significant new tools in their 
        counter-crime and counter-terror roles.
    Currently, the contract has a negotiated value of $130.3 million 
and a funded value of $123 million. To date, SAIC has been paid $115.2 
million. We expect to be paid the funded value of $123 million at 
completion. In conjunction with this work effort, the company has 
invested $3.9 million of its own money to support the Trilogy program.

Aerospace Corporation
    Before presenting SAIC's testimony about the course of its work on 
Trilogy in detail, I want to speak briefly to the report by the 
Aerospace Corporation. While we have not been given a copy of this 
report, we were allowed to read a copy last week at the FBI. We 
appreciate that opportunity. Aerospace Corporation did not inform us, 
nor attempt to discuss in any way its findings--a lapse we find both 
inexplicable and contrary to the practices of inspectors general, the 
General Accounting Office, and other scientific groups, who find that 
comments from those reviewed contribute to a more balanced and useful 
report.
    The Aerospace Corporation produced a report on the wrong software 
while failing to concentrate on central issues that determine system 
performance.
    Had they asked us for comment, we could have told them they 
examined the wrong software. Mr. Chairman, I mean that in a literal 
sense. Aerospace Corporation explicitly evaluated a snapshot in time of 
the software as if it were a finished product when in reality, as 
everyone should have known, it was still being developed. The Aerospace 
Corporation says it found ``evidence of incompleteness'' and ``failure 
to optimize.'' This is hardly unexpected in a work in progress that was 
still months away from its delivery date. In academic terms, it was as 
if we had been assigned a paper due December but then graded it the 
previous summer.
    The product we presented to the FBI in December 2004 is not the 
product evaluated by Aerospace Corporation. VCF IOC was rigorously 
tested and accepted by the FBI after meeting 100 percent of its 
requirements.
    Because the software evaluated was different from the software 
delivered, SAIC believes that the Aerospace Corporation report is not 
an adequate basis for deciding on a future course of action concerning 
VCF.
    This is not to say we accept Aerospace Corporation's judgments 
about the product that was evaluated. We emphatically do not. The 
Aerospace Corporation is a national asset in its realm of expertise: 
aerospace. The Trilogy project is something else, altogether. We 
respectfully--but strongly--urge this subcommittee to consider that 
Aerospace Corporation did not bring a sufficient understanding of the 
uniqueness, complexity, and scope of the FBI undertaking to evaluate 
our software product.
    Central to the Aerospace report is criticism of requirements 
documentation. Time and again, in the Aerospace report we reviewed, we 
saw instances where criticisms about requirements were based not on the 
substance of the requirements or whether or not the product satisfied 
the requirements, but rather on ancillary data such as syntax in 
documentation. How well the product satisfied requirements was not a 
part of their evaluation. Based on examination of the documentation 
they concluded they were not assured the product would meet 
requirements and went no farther.
    In particular, SAIC categorically rejects the assertion that its 
work lacked engineering discipline, an assertion that appears without 
support in the document we read. This kind of assertion, without 
rigorous--or even specific--support should be unacceptable in an 
endeavor of this importance. For instance, Aerospace Corporation did 
not look at the software development folders, which are key documents 
on how the code was designed and written. These comprise the ``Bible'' 
for software developers. In a football analogy, it was as if Aerospace 
Corporation was asked to scout another team which had made available 
its playbook. They didn't bother to read it. In fact, they scouted the 
wrong team.
    Even so, Mr. Chairman, we would welcome the opportunity, late 
though it may be, to discuss the findings with Aerospace Corporation. 
It could only benefit the FBI, which is our aim here.

                    SAIC'S PARTICIPATION IN TRILOGY

    The FBI's Trilogy program is a massive, multi-part, multi-
contractor program for broad-based modernization and improvement of its 
information technology. In June 2001, SAIC was competitively awarded a 
cost-plus-award fee developmental contract for the Trilogy User 
Application Component (UAC). This is an appropriate contract type 
because the project involved first working with the customer to develop 
and agree on what was needed (the requirements) and then execute the 
agreed tasks. The complexity and uniqueness of the missions of the 
Bureau also argued for this approach. Some of the public discussion of 
the Trilogy contract has been conducted as if the required tasks were 
well known at the start, and easily achievable. At no point in time has 
either condition existed.
    At the time of award in June 2001, the contract scope for SAIC 
called for development of a web front-end to the existing legacy 
applications used to manage case information. When this effort was 
complete, SAIC was to define an Enterprise Case Management System. This 
was a measured low-risk approach building on existing, or legacy, 
systems within the Bureau.

The attack of 9/11
    The September 11, 2001, attacks had as profound an affect on this 
project as it did elsewhere in the nation. Following 9/11, the Bureau 
faced enormous and sometimes conflicting pressures. Prior to the 
attack, the Bureau was dealing with revelations that a spy, Robert 
Hansen, had plundered FBI secrets. Security and integrity of 
information is a fundamental issue for the FBI. After the attack, it 
faced three often conflicting demands:
  --The need to share information in the post-9/11 world so authorized 
        personnel could both see and connect the dots to analyze and 
        exploit intelligence.
  --The need, in the post-Hansen world, to prevent all but a few 
        specifically authorized people from seeing truly sensitive 
        information.
  --The need to ensure admissibility of investigative information in 
        court in keeping with the complex body of legal, policy, and 
        Attorney General Guidelines under which the Bureau operates.
    Thus, the FBI faces a task of great difficulty and complexity in 
building an information technology system that simultaneously meets all 
three imperatives.

Trilogy after 9/11
    Following the attack, the Bureau fundamentally reexamined the 
project. The earlier, measured approach of June 2001 called for 
improving legacy systems. In the wake of the attack, the FBI correctly 
determined that the legacy applications should be replaced to make the 
Bureau more effective in responding to terrorists' threats as well as 
to improve the efficiency of the continuing criminal investigative 
mission.
    In the months following 9/11, the Bureau conducted an independent 
review of available Commercial Off-The-Shelf (COTS) systems and 
Government developed systems, and determined they could not satisfy the 
requirements. Therefore, SAIC was tasked to in February 2002 to develop 
the replacement for the legacy systems using the original contract. The 
SAIC UAC contract was restructured to incorporate an aggressive 
development plan first conceived in February 2002. This became the 
electronic Virtual Case File (VCF) contract. Thus, the FBI shelved 6 
months of work that no longer fit the post-911 world, and directed SAIC 
take on a much more ambitious, high risk project.
    The Trilogy VCF was a large and complex enterprise-level 
undertaking. There are no other criminal investigative management 
systems of this scale in the world. In terms of size, the VCF DELIVERY 
1 system was to manage millions of case files on Day One with an annual 
growth of hundreds of thousands of cases per year. At start-up, the VCF 
DELIVERY 1 system was to store and index more than hundreds of millions 
of documents in a wide variety of formats. The VCF DELIVERY 1 system 
would support 30,000 users geographically dispersed across the United 
States and other countries. FBI agents, analysts, and support personnel 
would rely on the VCF DELIVERY 1 to conduct nearly all the business 
functions that support the criminal investigative process. The VCF 
DELIVERY 1 was also to provide hundreds of interfaces to legacy 
systems. The VCF DELIVERY 1 system would manage this workload while 
providing a 3-second response to users as well as high system 
availability. This would not be an ordinary case file management 
system.
    The VCF was intended, in sum, to provide the next generation system 
supporting the FBI's case file management concept. It would be, as the 
Justice Department Inspector General has reported, ``the first real 
change in the FBI's workflow and processes since the 1950's''. The VCF 
would move the FBI from its slow, paper-based processes into the 
twenty-first century with electronic work flow. VCF, it was envisioned, 
would support real-time coordination among agents, allow secure access 
to, and reporting of case information for all those authorized to 
receive it, regardless of organization or location. VCF would support a 
dispersed community of users in creating, accessing, and managing 
centrally stored electronic case file information. It would provide the 
foundation upon which the FBI could migrate its disconnected business 
processes into an integrated and seamless work environment.
    Following the 9/11 attacks, time was of the essence. SAIC was asked 
to devise an approach to deliver VCF in record time--on an even more 
aggressive schedule. The new challenge was to define, develop, and 
deploy a bureau-wide enterprise-level case management system in just 22 
months. Without defined requirements or an enterprise architecture for 
the FBI IT systems, this was a high risk approach that reflected the 
post 9/11 atmosphere. Here is where SAIC made honest mistakes. We 
should have made known that this approach was too ambitious.
VCF and ``flash cutover''
    One of the key issues in the new VCF development strategy was the 
so-called ``flash cutover'' approach. That meant, simply, that the new 
VCF, in spite of its then undefined requirements, would not be 
implemented via a low risk, evolutionary strategy, but rather would be 
built as a grand design in record time and be implemented all at once 
in a ``flash cutover'' from the legacy systems to the new VCF. SAIC 
informed the Bureau this was a high-risk strategy. It was here that 
SAIC should have made its concerns known to the Director. The FBI 
insisted on this aggressive approach because of its critical need to 
improve information sharing and case management. SAIC agreed to 
undertake the challenge. In hindsight, this approach was a fundamental 
error and, in May 2004, the National Research Council Computer and 
Telecommunications Science Board was highly critical of the flash 
cutover approach and instead argued in favor of an incremental 
deployment model with prototyping and adequate time for test. From 2002 
through mid-2004, the Bureau was committed to the flash cutover 
approach; however, after the Academy report, the Bureau agreed to a 
low-risk, incremental strategy.
    During 2003 and 2004, the Bureau's understanding of how it should 
respond, of what mechanisms and process it might need, and how it 
should adjust the IT infrastructure to meet the challenges of fighting 
terrorism continued to evolve. Not surprisingly, the impact on the VCF 
program was continuing and significant. In the testimony of the 
Department of Justice Inspector General before this Subcommittee in 
March, 2004, the IG identified ``poorly defined requirements that 
evolved as the project developed'' as one of the reasons for the delays 
and cost increases in the Trilogy project. In fact, as recently as 4 
months ago, the FBI had a team working to define, confirm, and refine 
their case management requirements.
    When the flash cutover approach was adopted, SAIC formulated an 
approach to meet the aggressive schedule. SAIC used eight development 
teams working in parallel and a program staff that reached 250 full-
time equivalents. The risks associated with the multi-team, parallel 
approach became apparent in the fall of 2003. With multiple teams 
working on vertical slices of the system at breakneck speed, SAIC did 
not adequately enforce coding standards across the teams and this 
resulted in less than uniform code. In addition, this approach resulted 
in some level of duplication of effort in the code with different 
approaches used to solve similar problems. This, however, did not 
compromise the system.
    Another matter affecting the VCF software development was 
significant management turbulence. Since November 2001, there have been 
19 Government management personnel changes that had a direct and 
significant impact on the management of this project (11 FBI Changes 
and 8 FEDSIM Changes). This lack of continuity among key Government 
managers contributed to the problems of ensuring the effective and 
timely implementation of this system. Each change brought new 
directions, a different perspective on priorities, and new 
interpretations of the requirements.
    In its report on Trilogy last year, the National Research Council 
spoke directly to the difficulty of developing software in the absence 
of specific, settled requirements. As the Council noted, ``[I]t is 
essentially impossible for even the most operationally experienced IT 
applications developers to be able to anticipate in detail and in 
advance all of the requirements and specifications.''
    Probably the most damaging aspect of this development environment 
was the ever-shifting nature of the requirements. SAIC development 
teams would meet with the FBI agents assigned to the project to elicit 
system requirements, then SAIC would translate that into software 
designs. Often, however, the agents would look at the development 
product and reject it. They would then demand more changes to the 
design in a trial-and-error, ``we-will-know-it-when-we-see-it'' 
approach to development. The turbulence was not limited to the 
immediate changes demanded. They would ripple though the related parts 
of the software design. This cycle was repeated over and over again and 
prevented SAIC from defining system acceptance criteria and suitable 
test standards until requirements were finally agreed under VCF IOC 
this past summer. SAIC expressed concern over the affect of these 
changes on cost and schedule; however, we clearly failed to get the 
cumulative effect of these changes across to the FBI customer. We 
accept responsibility for this failure to elevate our concerns.
    The most significant of these changes, occurring during the period 
when the flash cutover strategy was in place, was to the Records 
Management System. SAIC had actually selected a commercial off the 
shelf (COTS) solution and the FBI had agreed to it. Then, late in 2003, 
FBI representatives decided they wanted a different approach, which 
would require changes to another COTS software package. The new COTS 
vendor would not be able to modify the software until a new release of 
the software was available in spring 2004. At this point, the grand 
design approach of the flash cutover strategy had begun to fall apart.
    In December 2003, we delivered an evaluation copy of the VCF 
system. The FBI reviewed the product and identified 17 deficiencies, 
some of which were actually more changes in requirements. These 
deficiencies and changes were addressed by SAIC, and an updated version 
of the system was provided in March 2004. The FBI then asked SAIC to 
assess the cost and schedule impact of incorporating accumulated 
changes and finishing Delivery 1. SAIC complied with this request in 
April 2004, but the FBI chose not to undertake this course of action. 
The goal established early in 2002--define, develop, and deploy a 
bureau-wide, enterprise-level case management system in 22 months--was 
now clearly in jeopardy and behind the aggressive schedule.

From VCF to VCF IOC
    In May, 2004, a series of meetings between SAIC, the FBI, and 
FEDSIM took place to define a new strategy. What emerged from these 
meetings was a significantly different plan.
    In these meetings, the Bureau agreed to modify its flash cutover 
approach in favor of an incremental approach, allowing deployment of 
new capabilities. Second, instead of replacing its legacy systems at 
this juncture, the Bureau agreed to focus on creating new capabilities 
based on legacy systems. Finally, the new approach was christened VCF 
Initial Operating Capability (IOC) and it was set for Delivery in 
December 2004. The fundamental understanding between the SAIC senior 
leadership and Director of the FBI that enabled SAIC to go forward on 
the VCF IOC was agreement, for the first time, on a fixed set of 
requirements and defined acceptance criteria.

                    WHAT THE FBI RECEIVED IN VCF IOC

    In December of last year, SAIC delivered VCF IOC. The project was 
successful. It delivers significant new capabilities, complied with the 
December, 2004 delivery date, was within the budget allocated for IOC, 
met 100 percent of requirements established by the FBI for IOC, passed 
a rigorous testing phase, was accepted by the FBI, meets or exceeds 
industry standards for quality, and, most importantly, is working well 
today for FBI agents in New Orleans and Washington Headquarters.

Functional capabilities
    With VCF IOC the FBI has a system that will move agents from a 
slow, paper-based system to a twenty-first century system for their key 
investigative efforts. In the past investigative information was often 
held-up in Field Offices, captured in agent notebooks, stored away in 
filing cabinets, and generally held in different ways and different 
means all across the country. VCF IOC makes critical information 
available instantaneously, in a uniform, easy-to-access manner, to all 
who need to access it regardless of their physical location. 
Additionally, these new capabilities build a foundation for migrating 
now-disconnected business processes into an integrated work environment 
and provide the infrastructure required to add the additional case 
management capabilities. Specifically, the functional capabilities of 
IOC include:
  --Investigative document import for the FD-302 and related documents 
        (the current mainstay of FBI investigative effort) and National 
        Security Letters.
  --Electronic workflow, validation, and approval meeting legal, 
        policy, and Attorney General Guideline standards to ensure 
        admissibility in court.
  --Upload of approved investigative documents into the appropriate 
        case files as serials in the legacy Automated Case Support 
        (ACS) system.

Infrastructure capabilities
    If widely deployed, the infrastructure capabilities within IOC 
would take the Bureau from its current paper-based circumstances into a 
modern web-based environment. Specifically, IOC delivers:
  --A modern 3-tier web based computing infrastructure (as a migration 
        target from the legacy mainframe).
  --An effective web-based user interface, already well received by 
        agents who have seen and used it.
  --Organizational Hierarchy maintenance infrastructure, which matches 
        IT infrastructure to the Bureau's organization.
  --Automated interface to the legacy ACS.
  --A significant part of the underlying infrastructure for security, 
        access control, auditing and logging.
  --System management and integration with the FBI's Enterprise 
        Operations Center (EOC), a 24-7 monitoring and support center.
    The functional and infrastructure capabilities in IOC enable the 
rapid expansion of VCF capabilities, both to add new features and to 
integrate software developed for Delivery 1 but not included in IOC. As 
evidence of this, in November 2004, the FBI tasked SAIC to extend the 
capabilities of the IOC system to provide a significantly broader 
capability to the Agent users. These extensions were successfully 
implemented in less than three months and provided to the FBI pilot 
users, where they have been quite well received.
    We believe the FBI would be well served by expanding these 
capabilities beyond the pilot sites, even as an interim solution to its 
urgent needs.
    Beyond the capabilities and infrastructure active in IOC, SAIC has 
done substantial work toward meeting the full set of requirements 
articulated to date for the Bureau and enterprise-wide version of VCF. 
The product of that broader work can be categorized in three groups. In 
the first category are capabilities where implementation was complete 
(or nearly complete), where integration and test were underway, and 
where routine software problems were being identified and fixed. These 
specifics of work done in these categories include:
  --Case Management
  --Leads
  --Intake and Report of Investigative Activity (RIA)--which is a 
        different way of approaching the import documents in IOC
  --Document Management
  --Notifications and Ticklers
  --Source Management
  --Text Search
  --Most of the Reporting Generation Capabilities
  --Case Classification Hierarchy Maintenance Infrastructure
  --The remainder of the underlying infrastructure for security, access 
        control, auditing and logging including complex business rules 
        address the potentially conflicting pressures to share 
        information post-9/11 and to implement need to know 
        restrictions post-Hansen.
    Beyond completing the integration and test effort, additional work 
would be required to deploy these capabilities focused on (a) resolving 
outstanding requirements or implementation issues, and (b) adapting the 
capability away from the flash cutover approach to the incremental 
deployment strategy.
    The second category represents capabilities where implementation 
was in progress but engineering or requirements issues required 
resolution before implementation could be completed, including:
  --Evidence Management
  --Analysis and Techniques and the remainder of the report generation 
        capabilities.
  --Name search
  --Resource tracking and management
  --Crisis Case management
    The third category includes capabilities that were late 
requirements additions or implementation approach changes and 
preliminary engineering efforts were in place. This would include 
records management.
    In addition to these capabilities, SAIC performed substantial 
analysis and engineering efforts to document the complex and largely 
undocumented legacy environment that has evolved over the years. That 
effort was critically important to the FBI's information technology 
initiative. In a December, 2002 report, the DOJ IG noted that the lack 
of documentation for the legacy systems would limit ``how rapidly UAC 
can be developed and deployed'' since ``the FBI must know what it has 
before it can define the right solution to fix the problem''. The SAIC 
team made significant progress in this area producing
  --Over 300 Interface Control Documents (ICDs) covering the interfaces 
        between internal FBI systems and also with external systems.
  --Extensive analysis and mapping of largely undocumented legacy data 
        to a relational model in preparation for migration into VCF.

                               CONCLUSION

    In conclusion, SAIC has spent the last 36 years working hard and 
ethically to support important work for the U.S. government and our 
nation. We have been successful because we have delivered good work for 
our customers. We followed a difficult path to get there. The Bureau 
faces difficult choices in difficult and challenging times. 
Unfortunately, the flawed report from Aerospace Corporation does not 
provide a sound basis for making decisions about VCF IOC.
    The information technology assignment that the FBI envisioned and 
that SAIC accepted in June of 2001 changed dramatically after the 
terrible events of 9/11. As the FBI struggled to respond to new 
missions and conflicting demands, new technology requirements also 
evolved, and we attempted to keep up. Finally, it became clear to all 
that the grand design envisioned in the full version of Virtual Case 
File was collapsing. The FBI agreed, instead, to an incremental 
approach that would--and did--produce immediate and tangible results. 
With the delivery of VCF IOC, SAIC has given FBI agents new capability 
today--not at some uncertain point years from now, but today as they 
work to combat both crime and terror across this nation.
    SAIC pledges to the Committee and to the FBI that we stand ready to 
work at cost with all parties to recognize the full potential of all of 
the extensive documentation, analysis and code that has already been 
provided to further enhance the capabilities of the FBI to perform its 
vital tasks.
    If the FBI's goal is to provide its agents enhanced capabilities as 
soon as possible and at relatively low additional cost, then we 
strongly recommend that the FBI continue to deploy VCF capabilities to 
the agents using the highly successful incremental approach utilized 
for the VCF IOC delivery and to evolve it along with their emerging 
enterprise architecture. Using IOC should bring dramatic productivity 
improvements now while the bureau develops a new system.
    If, however, the primary goal has shifted to meeting the new 
requirements of the new Federal Investigative Case Management System 
(FICMS), or to adopt the latest technology and COTS components that did 
not exist when VCF began, then the FBI's agents will have to wait until 
these new programs deliver as yet undefined capabilities in three or 
more years. The Trilogy IOC provides much needed capabilities today 
that are scalable across the entire FBI and provides the foundation to 
quickly add other required capabilities incrementally over the next 
year.
                                 ______
                                 
   Prepared Statement of Gary P. Pulliam, Vice President, Civil and 
            Commercial Operations, The Aerospace Corporation

    Mr. Chairman, distinguished committee members, and staff: I am 
pleased to represent The Aerospace Corporation and appear before you 
today as you deliberate Trilogy and the Virtual Case File System.
    As a private, nonprofit corporation, The Aerospace Corporation has 
provided engineering and scientific services to government 
organizations for over 40 years. We provide a stable, objective, expert 
source of analysis. We are focused on the government's best interests, 
with no profit motive or predilection for any particular design or 
technical solution.
    As its primary activity, Aerospace operates a Federally Funded 
Research and Development Center (FFRDC) sponsored by the Under 
Secretary of the Air Force, and managed by the Space and Missile 
Systems Center (SMC) in El Segundo, California. The Aerospace 
Corporation also undertakes projects for civil agencies that are in the 
national interest and are consistent with our corporate role. Over 350 
staff members focus exclusively on computer systems, software, and 
information technology.
    Our unique ``trusted agent'' role provided to the Air Force has 
become known throughout the Intelligence Community. In executing our 
FFRDC mission, and more specifically, our support to the National 
Reconnaissance Office, our technical core competencies have become 
known to the FBI.

                            1. INTRODUCTION

    In 2001, the Federal Bureau of Investigation (FBI) began a major 
information technology upgrade commonly known as The Trilogy Program. 
The User Applications Component (UAC) is one of three basic elements of 
Trilogy. Organizations such as the Government Accountability Office, 
the Department of Justice Inspector General, and the National Research 
Council have voiced serious concern about the progress in completing 
Trilogy, and specifically the UAC. In response to these concerns, the 
FBI developed and implemented a ``corrective action plan'' in June 
2004. As part of the corrective action plan, the FBI requested that The 
Aerospace Corporation (hereafter, Aerospace), conduct an independent 
verification and validation of the UAC; specifically, the Virtual Case 
File (VCF) Delivery 1.
    This testimony summarizes findings and recommendations from the 
independent verification and validation (IV&V) review of the VCF 
Delivery 1, conducted by The Aerospace Corporation (Aerospace). This 
testimony is extracted from Aerospace Report No. ATR-2005(5154)-4, 
``Independent Verification and Validation of the Trilogy Virtual Case 
File, Delivery 1: Final Report'', delivered to the FBI on January 21, 
2005. The FBI, and the Vice President, Civil and Commercial Operations 
of The Aerospace Corporation have approved release of this information.
    This overall scope of the IV&V assessments of the VCF Delivery 1 
included the system design, software design, overall security, and the 
maturity of the development contractor's software development 
processes. Each assessment comprised reviews and analyses of pertinent 
documentation, source code, and process-related materials. In addition, 
the assessment of the maturity of the development contractor's software 
development processes included a site visit (November 9, 2004) with 
interviews of key contractor personnel involved in the VCF Delivery 1. 
The assessments summarized in this testimony were conducted in the 
period August-December 2004.
    It is important to clarify that this effort was not an IV&V in the 
traditional sense of verifying that all requirements have been 
satisfied, though requirement satisfaction was part of the assessment. 
Neither was it an independent program assessment that focused on the 
entire range of management, programmatic, contractual, and technical 
issues. Rather, Aerospace conducted a detailed engineering assessment 
of VCF Delivery 1 requirements and design documentation, source code, 
and artifacts to provide a recommendation to the FBI on discarding or 
remediating VCF Delivery 1 products.
    Specifically, Aerospace was asked to address the following business 
questions:
    Question 1. Did the incumbent contractor meet the stated 
requirements?
    a. User Needs
    b. System Requirements
    c. Software Requirements
    Question 2. Did the incumbent contractor develop a complete and 
correct Concept of Operations, System Architecture, and System 
Requirements?
    Question 3. What should the FBI do with VCF Delivery 1?
    a. Keep all of it?
    b. Keep parts of it?
    c. Discard it?
    The remainder of the testimony is organized as follows:
    Section 2 describes the methodology used in assessing the system 
design associated with VCF Delivery 1, as well as the software design, 
security, and the maturity of the development contractor's software 
development processes.
    Section 3 summarizes the findings made by the assessment teams in 
terms of topics whose state of being influences the answers to the 
three business questions. These topical groupings represent (1) 
architecture, (2) requirements, (3) software quality, (4) performance, 
(5) security, and (6) contractor processes. More detailed finding 
statements are found in the Appendices.
    Section 4 presents conclusions formed by examining the findings 
across all six items of interest, as well as inferred findings based on 
possible observed trends. This section addresses Business Questions 1 
and 2.
    Section 5 presents a framework for addressing Business Question 3 
and a recommendation based on the framework. In addition, general 
recommendations are given based on Aerospace observations.

                              2. APPROACH

    The IV&V review consisted of assessments of the UAC documentation 
and artifacts relating to system design, software design, security, and 
the maturity of the development contractor's software development 
processes. In addition, the IV&V assessment of the maturity of 
contractor processes included a fact-finding trip to the contractor's 
facility to conduct interviews and view additional materials. In 
general, the methods used were tailored versions of those employed by 
Aerospace in performing IV&V reviews of national security space 
systems. The specific approaches utilized by a given assessment team 
are summarized in the following sections.
    Because IV&V is the process of verifying that requirements are 
satisfied and validating that user needs are met, and because Aerospace 
was limited primarily to documentation and artifacts, most of 
assessment was spent examining the quality of and traceability through 
the documentation and artifacts. This is in keeping with an essential 
tenet of systems engineering that necessary conditions for a system to 
be successfully implemented are that (1) documentation and artifacts be 
complete, clear, concise, precise, and mutually consistent, and (2) 
requirements be properly decomposed with bi-directional tracing between 
successive levels of the system (e.g., user needs trace to system 
requirements, system requirements trace to subsystem requirements, and 
so forth through design, implementation, and test). Not only do these 
conditions increase the probability of successfully implementing a 
system, they are required for effective maintenance.
    When possible, the assessment team used industry and government 
standards as benchmarks against which the program documentation and 
artifacts were measured. Although standards were not required on the 
VCF development contract, standards were used in the assessment because 
they encapsulate known best practices that should be used whether or 
not they are required of a contractor. The use of standards also 
eliminates a level of subjectivity from the assessment.
    Given the scope and time constraints of the IV&V review, Aerospace 
focused on a sample of program documentation and other artifacts. Two 
notable exceptions were that (1) the group assessing the maturity of 
contractor software development processes conducted a 1-day site visit 
with the contractor to obtain answers to process questions and to view 
sample reports and artifacts, and (2) a limited number of Aerospace 
personnel attended a 1-day design review. In taking this overall 
approach, it is important to note:
  --With the exception of the 1-day site visit and the 1-day design 
        review, Aerospace did not have direct contact with the 
        incumbent contractor to address comments on the documentation 
        and potentially alleviate some concerns.
  --With the exception of database performance testing, access was not 
        provided to the tests that occurred or the results of those 
        tests (hence, the review does not directly address how well VCF 
        Delivery 1 satisfies the user requirements but does so by 
        inference).

2.1 System Design Assessment
    The system design assessment provided the system-level portion of 
the IV&V review. The system design assessment was divided into two 
smaller assessment activities: an evaluation of the system-level 
documentation (i.e., cross-checking the system-level documentation) and 
a system-level IV&V appraisal of VCF Delivery 1. The latter consisted 
of an examination of requirements traceability, requirements 
satisfaction, performance, and security.

2.1.1 System Level Documentation Assessment
    To objectively assess the system-level documentation, Aerospace 
identified standards against which the documents could be compared. 
This section describes the ways these standards were used in the 
assessment.
    The CONOPS was reviewed and its content compared against the 
reference standard embodied in the Department of Defense (DOD) Data 
Item Description (DID) Operational Concept Description (OCD) [1]. (The 
emerging guide for preparing CONOPS documents [2] that is being created 
by the American Institute of Aeronautics and Astronautics (AIAA), in 
conjunction with the International Council on Systems Engineering 
(INCOSE), was also consulted for content and language.) In the review, 
particular attention was given to the CONOPS with respect to:
  --The description of the current system (e.g., operational 
        environment; major system components; interfaces to external 
        systems or procedures; capabilities and functions of the 
        current system; diagrams/charts depicting data flow and 
        processes; quality attributes such as reliability, 
        availability, maintainability, flexibility, extensibility; 
        personnel; support concept for the current system).
  --The justification for and the nature of changes (e.g., description 
        of the needed changes; priorities among the changes; changes 
        considered but not included; assumptions and constraints).
  --The description of the new system.
  --Operational scenarios (e.g., the role of the system and 
        interactions with users; events, actions, interactions, 
        stimuli).
  --The new system's operational and organizational impacts.
  --The analysis of the proposed system (e.g., summary of advantages; 
        summary of disadvantages/limitations; alternatives and trade-
        offs considered).
    The SADD was reviewed and its content compared to the reference 
standard found in the DOD DID System/Subsystem Design Description 
(SSDD) [3]. (The Institute of Electrical and Electronics Engineers 
(IEEE) Recommended Practice for Architectural Description of Software-
Intensive Systems, IEEE Std 1471-2000 [4], was consulted for content 
and language.) The SADD was examined with respect to its:
  --Presentation of system-wide design decisions. Specifically, 
        decisions regarding system behavior and the selection and 
        design of components; inputs, outputs, and interfaces; actions 
        the system would perform in response to inputs or conditions; 
        description of physical systems; selected algorithms; how 
        databases would appear to the user; approaches to meeting 
        safety, security, and privacy requirements; design and 
        construction choices.
  --Descriptions of the system architectural design (e.g., hardware 
        configuration items, computer software configuration items, and 
        manual operations; concept of execution; interface design; 
        requirements traceability).
    The SRS was also reviewed and compared against two applicable 
standards: DOD Military (MIL) Standard (STD) 498, Software Development 
and Documentation [5] and DOD DID System/Subsystem Specification (SSS) 
[6]. (The INCOSE Systems Engineering Handbook [7] was consulted for 
content.) The SRS was assessed against the full breadth of possible 
requirements, to include:
  --Definition of required states and modes
  --Internal and external interface requirements
  --Internal data requirements
  --Safety requirements
  --Environment requirements
  --Computer-related requirements (e.g., resources, hardware, resource 
        utilization, software, computer communications)
  --Quality factors.
    In addition to performing reviews of the SADD, CONOPS, and SRS 
against particular standards, the system-level documentation was 
assessed for their mutual consistency, completeness, and 
reasonableness.

2.1.2 VCF Delivery 1 Assessment

2.1.2.1 Requirement Traceability
    Aerospace examined the completeness and consistency of user need 
statements and their maturation into system requirements.
    Aerospace extracted all system and software requirements from 
traceability tables found in the SRS and the SRD, and examined parent-
child relationships between these documents. Comparisons were made of 
each system requirement statement within the body of the SRS to that 
found in the SRS traceability matrix. A similar comparison was made 
with software requirements in the SRD.
    Validation and verification was performed on subsets of the system-
level requirements involving access control and workflow (these 
requirement areas were chosen, in consultation with the FBI, based on 
their importance to the UAC). Specifically, Aerospace identified 22 
system-level access control requirements and assessed all of them. Of 
the more than 120 system-level workflow requirements identified, 52 
were assessed. The 74 system-level access control and workflow 
requirement statements were assessed against the following quality 
attributes provided in The Engineering Design of Systems [8]:
  --1. Clear and concise.--The requirement has only one interpretation 
        and does not contain more than it should. When clarity was in 
        question, the UAC Requirements Terms and Definitions Document 
        (RTDD) was used as the primary source for clarification.
    2. In-scope.--The requirement does not impose anything unnecessary 
on the system.
    3. Design- and implementation-free.--The requirement does not 
impose a design or implementation solution.
    4. Verifiable.--The requirement uses concrete terms and measurable 
quantities.
    5. Free of TBD/TBR.--The requirement does not contain placeholder 
statements or values.
    6. Free of conflict or duplication.--The requirement neither 
overlaps nor opposes another requirement.
    7. Appropriate decomposition.--The traced-to software requirements 
make sense and are complete.
    8. Complete requirement set.--There is no appearance of missing 
requirements related to the requirement being examined.

2.1.2.2 Requirements Satisfaction
    Actual requirement satisfaction, as determined through a review of 
requirement testing results, was not considered because test results 
were not made available. For this reason, Aerospace relied on secondary 
indicators of requirement satisfaction. For example, the assessment of 
traceability of the CONOPS, SADD, and SRS was performed within the 
system-level requirement traceability activity (Section 2.1.2.1), while 
traceability of software requirements was examined in the software 
source code and traceability analyses (Sections 2.2.3 and 2.2.5). Other 
facets of requirement satisfaction were provided by other analyses.

2.1.2.3 Performance
    Contractor test methodology and database performance test results, 
as found in the Interim Scaling and Performance Test Report, were 
examined to assess the performance of VCF Delivery 1. The goal of the 
database performance evaluation was to identify areas of high 
performance risk in the database schema and database Structured Query 
Language (SQL) query code. Network, application server, and web server 
performance were not examined.
    In addition to examining the contractor test data, independent 
checks on database performance were conducted through the following 
means:
  --Creation of an Entity Relationship diagram based on the contractor 
        database Data Definition Language (DDL) code, from which 
        further analysis of the database could be conducted.
  --Examination of SQL code with respect to (1) system queries, 
        especially with respect to the use of table joins in clauses, 
        nested queries, outer joins, and cursors; (2) code complexity; 
        (3) performance risk factors; and (4) identifying the SQL code 
        critical path \1\.
---------------------------------------------------------------------------
    \1\ Critical path SQL code is defined as those SQL queries that are 
executed a majority of the time.
---------------------------------------------------------------------------
  --Review of the database structure for signs of performance 
        enhancement attributes (e.g., table partitioning, table 
        splitting, denormalization, materialized views, and rollup 
        tables).
  --Review of the database indexing to determine if table indexes were 
        selected for maximum SQL code performance.
  --Analysis of the Virtual Private Database (VPD) implementation 
        performance risks (i.e., looking at the where clause predicates 
        that would be added to each and every SQL query).
  --Evaluation of system scalability requirements through an 
        extrapolation of reported test results.

2.2 Software Design Assessment
    The software design assessment comprised six distinct analyses: 
software architecture, software requirements, source code traceability, 
source code documentation, requirements traceability, and security.

2.2.1 Software Architecture Analysis
    The analysis began with a review of the CONOPS, SADD, SRD, Software 
Design Document (SDD), and accompanying component SDDs. In addition, 
IEEE Std 1471-2000 [4] was reviewed because it was referenced in the 
SADD.
    The software architecture was examined using an abbreviated form of 
the Architecture and Tradeoff Analysis Method (ATAM) developed by the 
Software Engineering Institute [9]. Critical system and software 
requirements (known as quality attribute requirements in the ATAM) were 
identified in Exhibit 3-2 of the SADD, reviewed, and laid out to form a 
quality attribute tree, with specification down to the scenario level. 
(These system quality factors address scalability, extensibility, 
reliability, performance, security, and evolvability.) Software 
architectural approaches based on the high priority quality factors 
were then iteratively elicited and analyzed, with risks, sensitivity 
points, and tradeoff points identified. Part of the iterative process 
included brainstorming and prioritizing the scenarios generated in the 
utility tree based on stakeholder needs (in this case, because access 
to the actual stakeholders was not possible, the prioritization was 
based on information in the document artifacts); in the second pass of 
the process, the scenarios were treated as test cases for the 
architecture analysis.

2.2.2 Software Requirements Analysis
    Software requirements analysis was conducted on data access control 
and basic workflow requirements after a review of the SRD, SDD (and 
corresponding volumes), thread design documents, and consultation with 
the FBI. The quality of these software requirements was evaluated 
against the following attributes found in IEEE STD 830-1998 [10] \2\:
---------------------------------------------------------------------------
    \2\ IEEE STD 830-1998 was used because software requirement 
specifications and system requirement specifications are different, and 
each has a different set of recommended practices. There is a lot in 
common between standards for system requirements and IEEE STD 830-1998, 
and hence duplication, but the two types of standards address different 
areas of scope for different audiences, and do so at different levels 
of detail.
---------------------------------------------------------------------------
  --1. Unambiguous and clear.--The requirement has only one 
        interpretation. The UAC Requirements Terms and Definitions 
        Document (RTDD) was the primary source for clarification, 
        followed by Webster's Dictionary [11].
  --2. Consistent.--The requirements do not conflict, and requirements 
        use the same terms to mean the same things.
  --3. Non-redundant.--There are no superfluous requirements. Each 
        requirement adds something new to the SRD.
  --4. Complete.--Nothing is missing from the requirement. Each 
        requirement defines a user type, employs the verb ``shall'' 
        once, and specifies an end result. Most requirements should 
        also have a performance or timing criterion.
  --5. Single requirement and concise.--The requirement does not 
        contain more than it should. The requirement has no superfluous 
        detail and expresses only one need.
  --6. Design- and implementation-independent.--The requirement does 
        not prescribe any design or implementation solution.
  --7. Testable/verifiable.--The requirement uses concrete terms and 
        measurable quantities. Words like ``good,'' ``well,'' and 
        ``usually'' signal that a requirement is not testable.
  --8. Complete requirement set.--No requirements are missing. The set 
        of requirements defines those actions the software will take 
        given all possible types of input data when in all possible 
        states.
    Information and findings were shared with and by the system design 
assessment team to increase overall understanding of critical 
requirements.

2.2.3 Source Code Traceability Analysis
    This section summarizes the combined processes of the source code 
traceability analysis and the software requirements traceability 
analysis (Section 2.2.5).
    Requirements in the areas of access control and basic workflow were 
identified and traced from the software requirements to threads and SDD 
volumes to the source code, using the SDD and corresponding volumes 
(e.g., Workflow Volume), thread design documents, Test Plan, and the 
RequisitePro database. (The initial process of tracing from software 
requirements to threads was abandoned after the FBI notified Aerospace 
that the contractor had developed new documentation.) In conducting 
these traceability analyses, emphasis was placed on:
  --Correctness (e.g., does the documented design and source code 
        address the software requirements allocated to it?)
  --Consistency (e.g., is the allocation of software to design and code 
        consistent across the documentation and supporting requirements 
        management tools; are allocations at the same level of detail?)
  --Completeness (e.g., are all software requirements allocated to 
        design elements and code; do the design elements clearly and 
        concisely satisfy the allocated requirements given the design 
        level of detail?)
    Tracings were examined from software requirements through software 
design and code, and from software requirements to tests.
2.2.4 Source Code Documentation Analysis
    Java source code complexity was determined for all modules. PL/SQL 
source code complexity was examined for modules related to security, 
basic workflow, administration, and case management software 
components. The complexity of modules written in Java was determined 
using McCabeQA. ClearSQL was used for modules written in PL/SQL. 
Module size, in terms of source lines of code (SLOC), was determined 
for the respective Java and PL/SQL modules because size is another 
indicator of complexity. Those modules with the greatest complexity, 
size, or relationship to other modules were then subjected to a peer 
review: 191 Java modules, from the functional areas of data access 
control, workflow, case management, administration, and components, out 
of 309 high-risk modules; all 667 PL/SQL modules related to the 
functional areas of workflow, security, administration, and case 
management, 98 of which were determined to be high risk; and 42 JSP 
modules in the functional areas of workflow, security, administration, 
and case management, based on size and relationship to other JSP 
modules. The underlying source code of the selected modules was 
compared to contractor documentation (SDD and corresponding volumes, 
thread design documents, Software Development Plan (SDP)), especially 
with respect to design and test. Documentation was examined for 
correctness, consistency, completeness, and suitability. The Java and 
PL/SQL peer reviews focused on data and control flow, traceability of 
modules from design documentation, correctness of comments, and other 
elements of coding practices as defined by the development contractor's 
coding standards expressed in the SDP.

2.2.5 Requirements Traceability Analysis
    The activities of the source code traceability analysis (Section 
2.2.3) and the software requirements traceability analysis were tightly 
coupled. For that reason, the process description and status of the two 
analyses are combined and reported in Section 2.2.3 above.

2.3 Security Assessment
    The security assessment was based on the DOD Information Technology 
System Certification and Accreditation Process (DITSCAP) [12, 13] and 
the National Information Assurance Certification and Accreditation 
Process (NIACAP) [14]. Project documentation reviewed as part of the 
assessment include the SRS, SRD, SADD, CONOPS, Security CONOPS, SDD, 
Security Volume, Admin Volume, Security Architecture, Security Plan and 
associated support package, Privileged Users Guide, and Certification 
and Accreditation Methodology.
    Security-related requirements were identified from the available 
documentation: the SRS, SRD, and the Security Volume of the SDD. The 
design of the system was then examined with respect to the subset of 
requirements to determine the completeness and accuracy of the system 
design against this requirement set.
    Certification and accreditation material contained in the System 
Security Plan and System Security Plan Support Package was also 
reviewed to determine its suitability and completeness with respect to 
what Aerospace experience has shown is necessary for such an activity.

2.4 Software Development Maturity Assessment
    The software development maturity assessment was conducted using 
the same processes Aerospace employs for national security space 
systems, but tailored to the meet the time constraints of this project. 
A questionnaire was developed, based on the U.S. Air Force Software 
Development Capability Evaluation (SDCE) [15], that addresses risks, 
key requirements, and five areas of specific interest:
  --Systems engineering (e.g., system requirements development, 
        management and control)
  --Software engineering (e.g., software requirements management, 
        software design, software coding and unit testing, software 
        integration and test)
  --Quality management and product control (e.g., quality management, 
        quality assurance, defect control, peer review, software 
        configuration management)
  --Organizational resources and program support (e.g., organizational 
        process management)
  --Program-specific technologies (e.g., database management, COTS, 
        trusted systems).
    Answers to some questions were found in a review of the available 
documentation: SRS; Master Plan; Configuration Management (CM), Risk 
Management (RM), and Quality Assurance (QA) Plans; Software Development 
Plan (SDP); Master Test Plan and Delivery 1 Test Plan; and System 
Security Architecture. Questions that could not be answered from the 
documentation, or for which additional information was needed, were 
presented to the FBI and the contractor in preparation for an on-site 
fact-finding visit.
    At the time of the fact-finding visit (November 9, 2004) Aerospace 
interviewed selected members of the contractor staff according to areas 
identified in the questionnaire. The current Deputy Program Director, 
who was the VCF Delivery 1 Program Manager, provided interviewees with 
the questionnaire and scheduled interviews with most of the VCF 
Delivery 1 managers. The Program Manager accessed the IBM Rational 
ClearCase, ClearQuest, and TestManager files during the interview 
sessions. Time constraints did not permit an in-depth review of the 
files, but sample reports were printed, and examples of parts of the 
Software Development Folders (SDFs) were reviewed.
    Prior to the visit, Aerospace requested that the following 
documents and artifacts be available for review: SDFs, the System 
Engineering Master Plan, documentation from preliminary and critical 
design reviews, deficiency report databases or spreadsheets, Rational 
Rose artifacts, metrics plans and reports, peer review reports, and 
quality assurance reports. All requested items were made available and 
reviewed, with the following exceptions:
  --The System Engineering Master Plan was not provided. The review 
        team elected not to review it because it was not part of the 
        development contract baseline.
  --Rational Rose artifacts were not reviewed. The review team focused 
        on the SDF because coding was accomplished based on the SDF 
        contents.
  --No system-level preliminary or critical design reviews materials 
        were reviewed because these events were not conducted. 
        Materials from In-Progress Reviews (IPRs) and the System 
        Requirements Review were reviewed.

                          3. topical findings
    The results of the Aerospace IV&V are grouped into six topic areas:
  --Architectures (e.g., enterprise-, system-, and software-level 
        architectures)
  --Requirements (e.g., concept analysis, system analysis, requirement 
        analysis, requirement quality, traceability)
  --Software quality (e.g., software functionality, structure, testing, 
        documentation, thread methodology, database software)
  --Performance (e.g., overall system performance of the database)
  --Security (e.g., certification and accreditation, system security 
        administration, security requirements definition, security 
        design documentation)
  --Contractor processes (e.g., processes defined by the contractor 
        that were or were not followed, processes that worked or did 
        not work).
    Findings in each area are summarized in the following sections. 
Each summary lists strengths and weaknesses, provides a high-level 
summary of the most important strengths and weaknesses (individually or 
in groups) and their implications, and gives an overall appraisal of 
the topic area. Conclusions based on the findings are summarized in 
Section 4.
    With the exception of the software development maturity assessment, 
all of the assessments were made strictly on documentation and 
artifacts delivered to Aerospace. This has two consequences. The first 
consequence is that this usually leads to noting more weaknesses than 
strengths. If there is sufficient ambiguity or uncertainty of what is 
intended in a document, a negative finding is generated, even if a 
short conversation with the contractor could have removed the problem. 
Therefore, the perceived state of what is being evaluated can be more 
negative than the actual state warrants. Aerospace did three things to 
reduce both the likelihood of this happening and the associated impact. 
First, a fact-finding visit was made to the development contractor's 
facility to resolve questions about their software development 
processes. Second, industry and government standards were used to 
provide objective measures of quality and practices. Lastly, Aerospace 
looked at both documentation and product (i.e., source code) for 
possible strengths or weaknesses in each area.
    The second consequence of basing the IV&V review largely on 
documentation is that the ability to transfer the existing document set 
from the development contractor to a replacement contractor is tested. 
In this instance many weaknesses could indicate there are significant 
problems with the documentation or that the concepts being developed 
are not clearly stated. In either case, it would be very unlikely that 
a replacement contractor could pick up where the original left off, 
thereby closing the door on a possible acquisition or maintenance 
strategy.

3.1 Architecture
    This section summarizes the strengths, weaknesses, and Aerospace 
assessment of the architecture.

3.1.1 Strengths
    The incumbent contractor specified a standard three-tiered Web-
based design pattern for the VCF architecture. A well-designed and 
implemented system of this type should be highly flexible, extensible, 
and scaleable, and should easily integrate new functionality. The 
theoretical strength of the approach is that it is highly 
componentized, generic, and built on open standards.

3.1.2 Weaknesses
    Though the fundamental strength of the architecture lies in its 
classic three-tier model, the fundamental weakness relates to the 
failure to actually implement the system according to the specified 
architectural concept. As a result, the system risks the ability to 
maintain, change components (e.g., COTS, GOTS), reuse, or add new 
functionality to the software. Maintainability and reuse are negatively 
impacted by the tightly coupled, threaded design. Performance and 
scalability are likely to be limited by the decision to implement VCF 
in a centralized versus a distributed fashion. Furthermore, it is 
possible that certain types of distributed architectures would provide 
greater reliability through redundancy.
    Though maximizing the use of COTS was a stated goal of the VCF 
program, Aerospace found a limited use of COTS application products, 
and a design approach whereby functionality available in COTS was 
rejected, then reimplemented in VCF custom code. In addition, no non-
Oracle COTS search and analysis tools were found to be acceptable, as 
no non-Oracle tools were found to be compatible with the Virtual 
Private Database and associated access controls.
    The use of most COTS software is precluded by the choice for 
implementation of security and access controls at the data level. The 
VCF system uses two types of access controls: functional access 
controls, and data access controls. Functional access controls are 
implemented primarily in application code written in PL/SQL within the 
data tier. Data access controls are implemented using the VPD. Because 
all of the access control mechanisms are enforced by the database, they 
cannot be utilized by external applications. This is a fundamental 
limitation in VCF architecture. This means that virtually all 
functionality available in COTS that requires access control (including 
document management, workflow, tasking and delegation) must be 
implemented by developers in the VCF application in custom code. This 
limitation extends to highly capable COTS search and analysis 
applications, including link analysis and specialized applications used 
in other law enforcement and intelligence community applications.
    The manner in which the access controls were implemented in the VPD 
feature of the Oracle database also imposes significant and 
unacceptable performance delays. While most implementations incorporate 
some of the controls available in VPD, and apply to a restricted subset 
of database tables, this implementation uses all of the control 
mechanisms and applies them to the tables that are used in virtually 
every join operation required for the response to any normal database 
query, resulting in significant performance degradation.
    Remediation of these weaknesses would require a complete 
reevaluation of the approach to security access control.
    Lastly, the software architecture documentation does not conform to 
the best practices identified in IEEE Std 1471-2000. For example, 
stakeholder concerns are not directly mapped to the software 
architectural responses, there is no viewpoint specification for the 
software architecture description, a specific methodology is not 
identified to represent architectural views, and known inconsistencies 
among architectural description elements are not noted. Failing to 
adhere to best practices can impact functionality, timeliness, and 
schedule throughout the development cycle.

3.1.3 Appraisal
    Decisions on architecture and the accompanying high-level design 
are fundamentally important. Yet critical architecture goals have not 
been met. There was a failure to appropriately assess the use of COTS 
products. It appears that inadequate attention was given to the 
performance requirements in relation to the choice of the Virtual 
Private Database and the associated Access Control List (ACL) table to 
implement the discretionary access control requirements. Analysis 
targeted at determining the objects to be protected with discretionary 
access controls, and methods of protecting these objects, may have 
resulted in alternate design choices that had more attractive 
performance characteristics. Likewise, by allowing the original three-
tier architecture to collapse to two tiers (thus failing to adhere 
strictly to the Web-based design pattern), the architectural tenet on 
separation-of-concerns was violated. Consequently, future technology 
insertion is at risk, and maintenance and reuse of the VCF software 
will be more difficult.

3.2 Requirements
    This section summarizes the strengths, weaknesses, and Aerospace 
assessment of system and software requirements (development, analysis, 
and documentation).

3.2.1 Strengths
    All of the system level requirements examined were found to be 
within scope. There is no evidence of unnecessary features that could 
constrain design and increase cost.
    The System Requirements Specification (SRS) did not contain TBD (to 
be determined) or TBR (to be reviewed) markings. This is generally a 
positive indicator for systems that have progressed from the conceptual 
phase to the development phase, since a lack of TBDs and TBRs usually 
means that the requirements baseline is stable. However, the lack of 
TBDs and TBRs provides no assurance that requirements are not missing. 
Friedman and Sage [16] have pointed out that the lack of TBDs can 
indicate that requirements have been suppressed or ignored, thus 
creating what they call ``silent specs.''
    Design and implementation details were not found in either the 
system-level or software requirements; therefore, the developer adhered 
to expected system and software development practices.
    None of the examined data access control and the basic workflow 
software requirements duplicated another. Avoiding duplicate 
requirements eliminates needless requirements analysis and redundancies 
in development and testing.

3.2.2 Weaknesses
    The CONOPS is incomplete in that it lacks summaries of advantages, 
disadvantages, limitations, and alternatives and tradeoffs considered. 
It fails to show through analysis that the Information Presentation and 
Transportation Network Components provide the necessary infrastructure 
to meet UAC requirements.
    The CONOPS does not agree with the SRS, resulting in concepts that 
are not articulated as requirements in the SRS and requirements that do 
not correspond to operational concepts. The expected relationship 
between the CONOPS and the SRS is that the CONOPS should contain 
statements of operational activities; the SRS should specify system 
functions through functional requirements. A relationship should exist 
between the operational activities and the system functions. Contrast 
this relationship with that between the UAC CONOPS and the UAC SRS: the 
relationship between operational activities and system functions is 
missing; there is little correspondence between the statements made in 
the UAC CONOPS and the UAC SRS functional requirements.
    Neither the SRS nor the SRD address all of the requirements 
expected in a specification. Failure to address the range of applicable 
requirements can result in a system that is implemented in such a way 
as to be unacceptable to the user or other stakeholders. Incorporating 
the additional sections at this point in the life cycle would require a 
major effort that would subsequently result in rewriting the design 
documents and making changes to the source code as needed to 
accommodate these design changes and would result in additional 
integration and test effort.
    The System Architecture Design Document (SADD) is incomplete 
relative to expectations. Although the SADD lists architecture 
constraints and goals, it does not describe how the architecture meets 
them. The SADD includes neither decisions nor rationale for the 
external interfaces, scalability, extensibility, maintainability, and 
other items important to the architecture. The incomplete description 
of the system design could lead to unspecified and untraceable software 
requirements, which, in turn, leads to a system that does not meet 
users' needs.
    Inconsistencies exist between the Interface Definition Document 
(IDD), the Interface Control Documents (ICDs), and the SRS. For 
example, not all ICDs are referenced in the IDD, and some external 
systems noted in the SRS do not have a corresponding ICD. Although the 
SRS identifies external systems that currently interface with ACS and 
the types of interface to be supported by VCF to ensure legacy support, 
there are no requirements in the SRS that indicate the VCF must ensure 
such support. The IDD itself contains only seven requirements 
(``shall'' statements), six of which relate to the frequency of 
interface execution. Inadequate interface definition puts at risk the 
ability of VCF Delivery 1 to operate with legacy systems.
    In addition to reviewing the requirements-related documentation for 
inclusion of information typically expected in the documents, a quality 
review of the system-level and software requirements was conducted. 
Quality deficiencies include problems such as compound requirements, 
conflicting requirements, ambiguous and undefined terms, use of ``and/
or'' in system requirements, use of ``et cetera'' in system 
requirements, use of unverifiable words in system requirements, lack of 
specified user category in software requirements, lack of response time 
constraints in software requirements, and redundant system 
requirements. These quality deficiencies may result in a system 
implementation that does not meet the expectations of users and other 
stakeholders. Specific problems and examples are provided in the 
finding summaries.
    The SRS did not completely cover requirements. Gaps in expected 
system level functionality were found. Additionally, the Requirements 
Terms and Definitions Document (RTDD) contained implied requirements. 
Placing implied requirements within the RTDD does not ensure that the 
expected functionality will be implemented.
    Traceability was assessed on various levels and from various 
perspectives. The expected relationship between need statements, system 
requirements, and requirements for lower-level elements (e.g., hardware 
and software) is that there is a strict downward flow of requirements. 
Every need statement maps to a system requirement and every system 
requirement maps to a need statement. Thus, there are neither 
``childless'' need statements nor ``orphan'' system requirements. The 
process continues in a like manner for the system requirements and 
lower-level element requirements. Contrast this with what is observed 
in the UAC need statements and requirement documents: need statements 
do not flow exclusively to system requirements, and in many cases they 
bypass the system requirements completely. The lack of traceability 
from need statements to system requirements could result in a system 
design that does not meet user needs and may implement features that 
are not required.
    Traceability was also assessed in the SRS review by conducting a 
decomposition analysis on a set of requirements from the SRS to the 
software level. The analysis identified problems such as incomplete 
decompositions and decompositions that were more restrictive than the 
system level requirement. Additional traceability analyses assessed the 
mapping of system and software requirements to the traceability matrix; 
errors were found in the trace. The mapping of business rules to 
software requirements was also incomplete. Here again, the lack of 
traceability from system requirements through design means that the 
design may not meet requirements and may implement features that are 
not required.
    Finally, analyses were conducted of traceability from software 
requirements to software design and source code, and from software 
requirements to tests. There were three sets of artifacts that provided 
traceability between the software requirements and the design: the 
RequisitePro database, the thread documents, and the SDD volumes. The 
RequisitePro database traced to the name of a thread, which was 
associated with the corresponding portion of the SDD volume for basic 
workflow and for data access control. The RequisitePro database was 
consistent with the traceability in the SDD volumes (with one 
exception), but not consistent with the traceability in the thread 
documents. It is Aerospace's understanding that the thread documents 
were the original design documents and that the SDD volumes reflected 
the as-built software. All but one of the software traceability 
findings deal with the SDD volumes as opposed to the thread documents.
    There was poor traceability from the software requirements for 
basic workflow (BW) and data access control (DAC) through the design to 
the software components. A spot-check analysis of the workflow code 
shows that some software requirements do not appear to be covered in 
the code itself. There are some DAC software requirements that are 
inconsistently traced between the RequisitePro database and the 
Security Volume of the Software Design Document. Lack of adequate 
requirement traceability into software design and code results in risk 
that the software will not meet its stated requirements and greater 
difficulty of modifying software when requirement changes occur.
    There were several BW software requirements that were not assigned 
to tests in the Delivery 1 Test Plan. Without these requirements being 
validated in assigned tests, there is no certainty that the users' 
requirements are completely met.

3.2.3 Appraisal
    The requirements, analysis, and documentation associated with the 
UAC and VCF Delivery 1 contain significant information deficiencies 
that must be corrected to ensure an adequate system definition and 
development process; a majority of the system and software requirements 
examined contain quality deficiencies; and the requirements 
decomposition and traceability chain, from the SRS to SRD to software 
design components to source code to test documents, is weak because of 
missing information and inaccuracies. Extrapolating these observations 
to the entirety of the requirements, analysis, and documentation leads 
to serious concerns about the maintainability and reusability of VCF 
Delivery 1. Remediation could be very time-consuming and, because of 
the traceability concerns, may not ensure that all problems would be 
addressed.

3.3 Software Quality
    This section summarizes the strengths, weaknesses, and Aerospace 
assessment of the software, to include database software.

3.3.1 Strengths
    VCF Java Package Standards, set forth in Appendix A of the Software 
Development Plan, were followed. In particular, the Struts framework 
was followed, compelling developers to follow a Model View Controller 
design. This was significant because developers familiar with Model 
View Controller design and the Struts framework should be able to 
understand the flow of information in the source code and maintain the 
presentation layer of software with little difficulty. Also, the 
software components described in the Workflow Volume of the SDD were 
almost all found in the code. This is important for maintenance 
purposes.

3.3.2 Weaknesses
    Commenting standards were not consistently followed in the source 
code files that were analyzed. For example, very few functions or files 
included a change history, and there were no references to the design 
documents associated with each class. This inconsistency indicates that 
coding standards listed in the Software Development Plan were not 
always followed. Not following a formal software development process 
for such a large system implies the lack of a disciplined approach, a 
lack of coordination among developers, and a lack of standards 
enforcement. The result of inconsistent comments is that the burden of 
source code maintenance increases because programmers are forced to 
search through the documentation every time the code needs changing or 
when checking for possible side effects associated with making changes 
to different classes. This weakness can be corrected only by going 
through all the source code files and writing the needed comments. 
There are also comments in the code that mention work that remains to 
be done. This means that either the code is incomplete or that the 
misleading code documentation was never removed from completed code. 
This code should be examined in detail and compared to the design to 
determine its status, and it should be tested to be sure it ran without 
errors. Then these comments should be removed to eliminate confusion.
    Some Java classes have modules with incomplete code and unused 
code. This code cannot be validated because its purpose is unknown. 
Such code can affect the safety of the system by performing unexpected 
and unplanned operations. If the code is not fully validated, then the 
proper operation of the system cannot be assured.
    Some Java code contains inconsistent use of constants by hard 
coding and some by using constants and database files for others. The 
preferred method is to use constants and database files so that any 
future changes can be made to the constant or to the database, thereby 
ensuring completeness of the change. Hard coding requires that changes 
be made to all instances and some may be missed.
    Discrepancies were found between the thread design documents and 
the Software Design Document volumes for data access control and basic 
workflow. In addition, there were cases where more detailed design was 
found in the thread documents than in the design documents. 
Inconsistent design documentation is confusing to anyone trying to 
understand, maintain, or modify the software.
    The design documentation reviewed does not bridge the gap between 
the Software Design Document volumes and the source code. Missing 
design information included the relationships between the software 
components; class parameter details; full definition of class 
interfaces; and details on the purpose and logic of each function. The 
existence of the code is listed in the high-level design, but not the 
code behavior and interactions, which should be reflected in the lower 
level, detailed design. Examples of missing design details include: (1) 
the PL/SQL code for workflow contained a total of 111 modules, of which 
57 were not mentioned in the SDD; (2) a discrepancy between the Java 
files listed in the SDD volumes and the source code provided to 
Aerospace. The lack of a detailed design document that included all 
source code modules makes maintenance and modifications to the source 
code more difficult and time-consuming, and would subsequently drive up 
the cost of any future changes to the system.
    The PL/SQL code has timing and design issues. With regard to 
timing, each module writes a character string to the debug log (in one 
module printing is initiated through the use of a debugging switch; in 
all other cases the printing is hard coded). This has a negative impact 
on code performance because it increases execution time; this practice 
would be tolerable only during prototype development. As to design, the 
PL/SQL code uses literals rather than symbolic constant variables in 
the arguments of ``IF'' and ``WHERE'' statements. This code would be 
nearly impossible to maintain by anyone other than the programmer who 
developed it because there are no references to design documents that 
define literals, such as the integer-type values. This is an example of 
not following coding standards, or of not enforcing them. It would take 
time to fix this code properly by replacing the literals with symbolic 
constant variables so that it could be understood by anyone other than 
the original programmer.

3.3.3 Appraisal
    The source code appears to have been produced without adherence to 
the procedures and standards stipulated in the Software Development 
Plan. The source code examined is not maintainable with its current 
documentation. Without reverse-engineering the missing documentation 
and conducting thorough testing, the code should not be used for any 
operational system. To reverse-engineer this system to bring it up to 
the level for proper maintenance and support would cost about one-
quarter to one-half of the original cost of development. In most 
systems, 15 percent of the cost is derived from the documentation 
across all development stages. Testing, including documentation, 
typically accounts for 40 percent. Approximately half of the 
documentation needs to be completed. The remaining testing is expected 
to be between half and all of the cost of a typical system. This 
depends on problems found during testing.

3.4 Performance
    This section summarizes the strengths, weaknesses, and Aerospace 
assessment of system and database performance.

3.4.1 Strengths
    None identified.

3.4.2 Weaknesses
    The VCF system that was tested by the contractor was a development 
version (VCF Delivery 1), which is missing requirements and is 
inadequate for operations. The system did not implement a number of 
features, such as the Virtual Private Database (VPD) or full production 
scale of hundreds of millions of rows in the database. The measurements 
(as documented in the Interim Scaling and Performance Test Report) only 
present some CPU utilizations and end-to-end response times from/to the 
web server. Disk, bus, and network actual performance were not provided 
in the performance report provided to us and are presumed not to have 
been tested.
    The reported system performance and its performance analysis 
approach are at best marginal. Only the least-complex transactions were 
reported, and a number of those did not meet requirements even for the 
scaled-down database without VPD. A fully populated production VCF 
system based on VCF Delivery 1 would not meet requirements. In some 
cases the response time would be hundreds of percent longer than is 
required, and in worst cases thousands of percent longer than is 
required. Such long response times are essentially nonresponsive.
    The VCF database has the attributes of a logical database model 
with large numbers of tables, a lack of denormalization, subtype 
entities modeled directly to physical tables, and other logical data 
model features. Logical models are rarely performance-optimal. The 
typical database objects available for performance optimization (e.g., 
performance-based index selection, materialized views, table 
partitioning) are absent from the VCF database. At the current 
estimated row counts, the database will require heavy optimization in 
order to scale properly; however, the developers did not do this.
    The database load estimates were created using historical ACS 
usage. While using historical ACS usage was a good starting point, a 
more thorough analysis of the probable usage of VCF should have been 
performed before translating these estimates into a testing protocol.
    The database SQL code is not performance-optimized. The SQL code 
throughout the system uses many of the constructs that are specifically 
noted in the database manufacturer documentation [17, 18] as being 
performance risks. Compounding the problem is the use of the Oracle VPD 
feature for database security. The VCF implementation of this feature 
causes even more poor-performing SQL code to be added to each and every 
SQL statement in the database.
    The executed performance tests were flawed in two ways. First, the 
contractor did not isolate the database when the CPU utilization was 
tested. Aerospace was unable to conclude whether the database CPU was 
underutilized because it was not having a problem with servicing 
requests or it was waiting on another dependent system. The database 
CPU could also have been waiting on internal database hardware such as 
bus data transfers. The second flaw in the performance tests is that 
the test database was loaded at substantially lower row counts than 
what is estimated as needed, even for the ACS database migration.
    An enterprise such as the VCF requires to be managed by a Network 
Operations Center (NOC). The NOC would include a Network Management 
System (NMS), archiving, availability monitoring, and other system and 
operational functions.
    The NMS would include functions such as a help desk, trouble ticket 
system, a network management console, and network management agents on 
the managed workstations and servers. The NMS would use protocols such 
as SNMP (Simple Network Management Protocol), RMON (Remote Monitoring), 
and others. The lack of a requirement for an NMS would result in a 
system that cannot be operated in a production environment, especially 
after it is fully scaled to global production size. Any production 
system requires routine archiving. Most systems have an incremental or 
even a full backup daily, and a full backup at least weekly. Without 
archiving, work could be lost, evidence misplaced or destroyed, and 
investigations could lose their integrity. The lack of a requirement 
for archiving would result in a system that cannot be operated in a 
production environment, especially after it is fully scaled to global 
production size.
    Any production system must meet availability requirements 
commensurate with its mission. A system that is unavailable could 
result in an interrupted investigation due to lack of access to 
investigation data, or the inability to record new information that is 
crucial to progress in the current investigation and other affected 
investigations that depend on new evidence collected. On top of that, 
investigation resources would be lost when the system is down. The lack 
of a requirement for system availability would result in a system that 
cannot be operated in a production environment, especially after it is 
fully scaled to global production size.

3.4.3 Appraisal
    The system falls short of meeting requirements as tested. In 
addition, the scaled-up system, with the VPD running, is highly 
unlikely to meet requirements, particularly for the type of complex 
queries needed by VCF. Simple queries would be hundreds of percent 
slower than the type of queries that were tested by the incumbent 
contractor. The situation would be far worse for complex queries 
running on the scaled-up system. The system would fall short of 
requirements with extremely long response times--thousands of percent 
longer than is required. Such long response times are essentially 
nonresponsive.
    The database has many characteristics of a database still in 
development: a physical implementation of the logical database model 
that will undergo significant modification well before production, and 
SQL coding statements structured in a way that is logically sound and 
easily understood, but not optimized for performance. Developers 
typically develop code in this manner, expecting that time will be 
allocated to performance optimization once the code is functionally 
correct. Code modifications are also easier before optimization.
    The database hardware selection appears adequate for the raw 
amounts of data that must be processed, but the database subsystem 
requires a realistic test with all features active, especially the VPD 
security and a full ACS migration data load. The production hardware 
and COTS software (i.e., Oracle database, Sun server, and the Hitachi 
Storage Area Network (SAN)) are technically capable products. However, 
the current VCF database schema and SQL code implementation do not 
contain the performance enhancements that would allow the hardware and 
COTS database server to perform optimally.

3.5 Security
    This section summarizes the strengths, weaknesses, and Aerospace 
assessment of security.

3.5.1 Strengths
    It appears that planning for system security was done at a high 
level early in the program. Such planning increases the likelihood that 
required security features (e.g., access control, audit) will be 
addressed in the requirements and design, which, in turn, provides a 
cost-effective path to certification and accreditation. Select areas of 
the system not generally found in initial system security reviews 
(e.g., infrastructure devices such as routers and switches that 
nonetheless contain functionality that must be addressed from a 
security perspective) were addressed in some amount of detail.
    The system design provides for a limited interface controlled by 
the VCF application and infrastructure (for non-administrative users to 
interact with the VCF). This approach prevents exposure to security 
vulnerabilities that may exist in the interfaces provided by underlying 
products (not visible at the user interface), such as the command line 
for an underlying operating system.
    At a high level, these strengths point to an approach that, if 
followed, would produce an accreditable system.

3.5.2 Weaknesses
    Several weaknesses were discovered that create a significant risk 
that the system will not be accreditable.
    Broad areas of security requirements were neither well-defined nor 
correctly decomposed to lower-level requirements. Although the coverage 
area of the lower-tier requirements was the same as that in the higher-
level documents, the lower-tier requirement did not provide the 
necessary detail to implement and test the system in support of the 
certification and accreditation effort. Furthermore, the documents 
identified as the primary means for the certification and accreditation 
effort (the System Security Plan and the System Security Plan Support 
Package) did not map to the requirements specified for the system. This 
failure to identify the requirements to which the system would be 
accredited greatly increases the risk that the system would not receive 
accreditation, even if built to the requirements specified. Weaknesses 
were found in design and implementation. The Privileged User Guide 
should contain information to manage and configure the system in a 
secure manner. However, there are many sections marked TBD, as well as 
sections that do not provide the detailed procedures required to 
perform critical configuration steps (e.g., specific configuration 
instructions for the boundary devices so that fundamental assumptions 
noted in higher-level documents can be achieved). Some of the detail 
provided in this guide also appears as if it were copied from other 
sources, and not modified for application to the VCF system. Without 
specific configuration information, the trustworthiness of the system 
cannot be assessed and the system will not be accreditable. 
Furthermore, if the security features that are needed do not exist, or 
do not support all of the capability being depended upon by the 
architecture, then significant schedule and dollar costs will be 
incurred.
    The design documentation for the audit subsystem does not describe 
how the audit requirements are being met, especially in the area of 
management of the audit trail. While the Privileged User Guide contains 
COTS audit configuration steps, there is no discussion concerning how 
the VCF audit is managed, and how the VCF audit can be integrated with 
the audit trails produced by the COTS products to provide a coherent 
audit trail.

3.5.3 Appraisal
    At a high level, the system security description appears to be a 
good start in describing the functionality necessary to build an 
accreditable system. However, in specifying and designing the system to 
meet that functionality, it appears there are significant shortfalls. 
Select requirements specifying the functionality are imprecise and 
incorrectly decomposed. The design of critical identification and 
authentication and audit subsystems do not implement a significant 
portion of the requirements for those subsystems. The documents 
supporting the certification and accreditation of the system and 
security configuration are not complete.
    While all of these issues can be remedied, at this point in the 
product lifecycle there is a high risk that the system implementation 
will not meet the security requirements, and that significant 
additional costs (both to the schedule and in dollars spent) will be 
incurred in trying to address the issues identified. There is a high 
likelihood that the system as it currently stands will not be able to 
be accredited without significant additional effort on the part of the 
developer.

3.6 Contractor Processes
    This section summarizes the strengths, weaknesses, and Aerospace 
assessment of the contractor processes.

3.6.1 Strengths
    Strengths regarding the development contractor's initial processes 
include:
  --Good organizational structure for program management and quality 
        assurance
  --Selection of requirements, software, and documentation control 
        tools
  --Use of peer review and audits as key elements of the quality 
        assurance process
  --Good configuration management and integrated management tools
  --Tracking of change requests.
    A Chief Engineer was designated to monitor the development and 
integration of the systems engineering, software engineering, and data 
engineering activities. The Quality Assurance Manager reported to the 
Group-level QA at a level above the Program Manager to provide 
independent quality assessments of compliance with the established 
procedures.
    Processes and procedures for the software development were defined 
and documented in the Software Development Plan. COTS tools for 
managing these processes were selected and are the same as those used 
frequently in other government developments. Configuration Management 
to control and track the baselines and changes to the requirements, 
documentation, and software was defined and controlled via an 
integrated, automated tool suite.

3.6.2 Weaknesses
    The Master Plan did not include planning information (such as key 
events and tasks) and controls (such as system level reviews) for the 
development task. The implemented risk management process included only 
an ad hoc risk identification method--personnel identified perceived 
risks to the Risk Management Board for analysis. Although the 
organizational structure provided for integration of the engineering 
tasks, there was a lack of engineering discipline as evidenced by the 
lack of adherence to established processes.
    The software methodology did not provide for the database design, 
implementation, and test. There were neither top-level software 
descriptions nor interfaces depicted in the Software Development Plan. 
The database was developed after the software design, which led to 
performance problems. Software integration testing was not planned for 
in the Software Development Plan, and the test plans called this by 
different names without describing how it was to be done. The system 
integration manager and team did the software integration testing, but 
this was not made clear in the documentation.
    Requirements were tracked and reported in the RequisitePro tool, 
but software requirements were not traced to the code--only to the 
threads (which is at a very high level).
    The quality assurance (QA) program did not include QA activities 
for the software code; QA only checked that the peer review process was 
followed.
    Software development folder guidelines were published in the SDP 
and in the Minimum Thread Team SDF Layout and Contents, but did not 
provide for a convenient structure to maintain the artifacts. SDF files 
were dispersed in several different tools and in many folders, making 
it difficult to find a complete SDF.

3.6.3 Appraisal
    The major process strength of VCF Delivery 1 was the documenting 
and planning for the guidelines, procedures, and process controls in 
the beginning of the program in the Software Development Plan. The 
major weakness was a lack of compliance and completeness in the 
procedures.
    The SDFs were used to maintain the updated requirements analysis, 
design materials, implementation artifacts, testing results, and 
lessons learned. The SDFs were to be the key documentation since the 
other documentation was not updated. However, assessing the 
completeness of the SDFs is extremely difficult and cannot be done 
without detailed guidance from a developer.
    A major defect for the maintainability, reusability, expandability, 
and reliability of the VCF Delivery 1 software is the lack of a defined 
and documented software architecture and software methodology. Without 
the tracking of requirements to the software, the reliability and 
usability of the system is questionable and the software cannot be 
verified and validated. Without good software architecture, there is no 
structure to build for future development or functionality.

                             4. CONCLUSIONS

    The principal conclusion of the IV&V effort is that a lack of 
effective engineering discipline has led to inadequate specification, 
design, and development of VCF Delivery 1. Most of the findings 
presented in Section 3 relate in some way to this conclusion. From the 
documents that define the UAC system at the highest level, down through 
the software design and into the source code itself, Aerospace 
discovered evidence of incompleteness, lack of follow-through, failure 
to optimize, and missing documentation.
    The engineering practices followed on this program were not in 
keeping with what Aerospace would expect in a program of this magnitude 
and importance. Good engineering practice includes, of course, well-
written requirements that specify the essential functionality, 
performance, and constraints of the system. It also includes
  --Modeling to analyze behavior and performance, and to ensure the 
        correctness, completeness, consistency, and realism of the 
        requirements
  --A correct decomposition and flow down of requirements from user 
        needs to system requirements to design.
    These practices were found lacking or ineffective for the VCF 
program. Without them there can be little assurance as to the 
correctness and completeness of the requirements and design.
    Secondary conclusions address two of the FBI business questions 
stated in the Introduction. Business Question 2 asks, ``Did the 
incumbent contractor develop a complete and correct Concept of 
Operations, System Architecture, and System Requirements?'' and speaks 
to the framework of the UAC system and VCF Delivery 1. Business 
Question 1, on the other hand, asks, ``Did the incumbent contractor 
meet the stated requirements?'' and must be considered in light of user 
needs, system requirements, and software requirements. Responses to 
these questions are not given in terms of a simple ``yes'' or ``no,'' 
but are phrased in terms of assurance of an affirmative answer.
    The secondary conclusions, together with their basis in the 
findings, are given below, as well as the summary assessment of the 
state of the UAC and VCF Delivery 1.

4.1 Regarding the Quality of the CONOPS, Architecture, and Requirements
    Findings in the areas of architecture and requirements indicate 
that the concept of operations, system architecture, and system 
requirements were not sufficiently mature for the purposes of 
developing VCF. The SRS does not provide an adequate basis for the 
developer to design the system. The SRS and the CONOPS taken together 
do not provide a complete and consistent view of the system. The SADD 
contains certain sound architectural concepts but fails to adequately 
consider the use of alternate architectural concepts or the use of COTS 
that may have better served the needs of the VCF system. Therefore, 
Aerospace finds no assurance that the architecture, CONOPS, and 
requirements are correct and complete, and no assurance that they can 
be made so without substantial rework.

4.2 Regarding the Satisfaction of Requirements
    Findings on user, system, and software requirements touch most of 
the areas of interest (i.e., architecture, requirements, software 
quality, security, and performance), and tend to be negative. Based on 
the requirements examined, the findings indicate that a substantial 
body of requirements are imprecisely written or incorrectly decomposed 
into lower-level requirements, detailed designs, or test scenarios. 
There are key requirements whose correctness is questionable, and there 
are notable instances where the design and implementation do not match 
the architecture and requirements. The extent of requirement 
satisfaction could not be fully determined because only high-level test 
plans, software problem reports (SPRs), and a performance test report 
were available; other documents that are normally examined in 
determining requirement satisfaction (e.g., requirement test plans and 
procedures, and results from testing) were not available. There is no 
evidence that the system will scale to the storage and throughput 
capabilities under the demands of a fully loaded scenario; rather, 
evidence was found to the contrary. Therefore, Aerospace finds no 
assurance that requirements, at the system or software level, will be 
fully satisfied, and no assurance that they can be satisfied without 
substantial rework.

4.3 Overall Assessment
    The UAC and VCF Delivery 1 do not adequately meet system and 
software requirements. Each of the six areas examined has significant 
weaknesses and few compensating strengths. For example,
  --The architecture was developed without an adequate assessment of 
        alternatives and conformance to various architectural 
        standards, in a way that precluded the incorporation of 
        significant commercial-off-the-shelf software, and without 
        modeling and simulation to determine whether the architecture 
        would meet user needs in realistic situations.
  --High-level documents were neither complete nor consistent, and did 
        not map to user needs.
  --Requirements and design documents are incomplete and imprecise, 
        requirement and design tracings have gaps, and software cannot 
        be maintained without difficulty, and is therefore unfit for 
        reuse.
    In short, VCF Delivery 1 is a system whose true capability is 
unknown and may be unknowable, unless substantial time and resources 
are applied to remediation.

                           5. recommendations
    This section presents a framework for addressing one of the FBI 
business questions set forth in the Introduction and recommendations 
based on the framework. Additional recommendations beyond the scope of 
the original business questions are also provided.
5.1 A Framework for Addressing FBI Business Question 3
    FBI Business Question 3 asks, ``What should the FBI do with VCF 
Delivery 1?'' The possible outcomes include keeping all of it, keeping 
parts of it, or discarding all of it. Although this independent 
assessment is primarily technical in nature, stakeholder interests that 
affect the disposition of VCF Delivery 1 may be technical, budgetary, 
schedule-based, or mission-oriented in nature. Only the FBI--in 
consideration of the various stakeholder interests--can make the 
ultimate decision on the disposition of VCF Delivery 1.
    The decision to be made about VCF Delivery 1 is framed by the 
conditions that must be met in each possible outcome. As understood by 
Aerospace, the outcomes and conditions are as follows:
  --Under what conditions should the FBI keep VCF Delivery 1?
    --Only if VCF Delivery 1 satisfies all requirements or remediation 
            is readily achieved.
    --Only if the FBI desires a custom UAC solution versus a solution 
            based on COTS software.
    --Only if it satisfies the needs of the FBI with respect to 
            functionality, schedule, affordability and life-cycle 
            issues.
  --Under what conditions should the FBI keep parts of VCF Delivery 1?
    --Only if there are separable components of VCF Delivery 1 that 
            contain useful functionality in the future context of the 
            UAC.
    --Only if VCF Delivery 1 meets the conditions for reusable or 
            maintainable software.
    --Only if the FBI still desires a custom VCF solution versus a 
            solution based on COTS software.
  --Under what conditions should the FBI discard VCF Delivery 1?
    --Only if VCF Delivery 1 satisfies none of the conditions above.

5.1.1 Regarding the First Possible Outcome
    Regarding the first outcome, keeping all of VCF Delivery 1, 
Aerospace has no assurance that the VCF Delivery 1 requirements have 
been met or that remediation may be readily achieved. In fact, 
Aerospace concludes that determining which requirements are actually 
met and remediating those that are not would be very costly and time-
consuming, given that there are serious concerns with every level of 
the system, from the requirements and architecture, to the design and 
the software.

5.1.2 Regarding the Second Possible Outcome
    The second outcome, keeping parts of VCF Delivery 1, depends on 
whether components of VCF Delivery 1 will be useful in some future 
context. In the current context, VCF Delivery 1 is custom software 
based on a centralized hardware architecture. Thus, if the future 
context is a COTS-based service-oriented architecture (SOA) solution 
based on a distributed hardware architecture, it is less likely that 
useful components of VCF Delivery 1 will be found. On the other hand, 
if the future context is another centralized hardware architecture with 
custom software, it is more likely that useful components will be 
found. This last instance is precisely the context in which the 
incumbent contractor is developing the IOC software--and is, in fact, 
reusing components of VCF Delivery 1.
    Even if a future context occurs in which components of VCF Delivery 
1 are deemed useful, Aerospace has concerns on the reusability and 
maintainability of the software based on the documentation, design, and 
coding standards. The software was not written for reuse and has 
serious maintainability and extensibility problems as well.
    Because the Aerospace IV&V review was based largely on 
documentation and artifacts, and included no substantive direct contact 
with the development contractor other than that needed to assess the 
software development processes, the ability to transfer the existing 
document set from the development contractor to a replacement 
contractor was tested. The many documentation weaknesses that were 
found indicate the existence of significant problems. It is very 
unlikely that a follow-on VCF contractor could pick up where the 
incumbent left off, thereby weighing against this as a possible 
acquisition strategy.

5.1.3 Regarding the Third Possible Outcome
    The third outcome, discarding all of VCF Delivery 1, is essentially 
the default condition that will occur if none of the preceding 
conditions are met. It can be reached if the VCF Delivery 1 software is 
found unsuitable for reuse and beyond remediation. Alternately, it can 
be reached by fiat if the FBI should decide--based on the results of 
the Aerospace COTS/GOTS survey [19]--to proceed with a COTS-based 
solution.

5.1.4 Recommendation
    It is evident from this decision framework that the VCF Delivery 1 
decision depends on more than just VCF Delivery 1 itself. It depends on 
the total future context in which the VCF application will exist.
    It is clear that the first outcome (keeping or remediating VCF 
Delivery 1) is not feasible because of the lack of assurance that VCF 
Delivery 1 fully satisfies the system and software requirements, and 
because Aerospace can foresee no condition under which remediation 
would be feasible. Put another way, any remediation of VCF Delivery 1 
would be akin to starting over.
    The second outcome (keeping parts of VCF Delivery 1) is more 
feasible than the first, but is still fraught with difficulty. Because 
VCF Delivery 1 documentation and source code do not meet the conditions 
for reusable or maintainable software, Aerospace believes it would be 
difficult for any contractor (including the incumbent) to extract much 
of value from the current requirements, design and software given the 
poor state of the documentation. Furthermore, Aerospace believes it 
would be extremely difficult for any contractor besides the incumbent 
to do so.
    Additionally, using VCF Delivery 1 or a derivative thereof only 
makes sense absent a preference for a COTS-based VCF solution. Given 
that there are multiple COTS applications, or features within 
applications, that meet the needs stated in the Federal Investigative 
Case Management Request for Information (RFI) [19], the question of 
reusing parts of VCF Delivery 1 rests on:
  --Having functionality that is superior to the COTS options or that 
        is not available in COTS;
  --Having functionality that is modular and has a defined interface 
        application programming interface (API);
  --Its ability to provide a clearly defined service or set of services 
        in the context of an SOA. Both the RFI and current federal 
        information technology acquisition guidelines (Clinger-Cohen 
        Act [20], Federal Enterprise Architecture Guidelines [21]) 
        stress the desirability of SOAs.
    While the discussion to this point is implicitly about the best 
long-term VCF solution, it is also worth considering what may be a 
useful short-term solution. It may, for instance, be the case that the 
work currently being performed by the incumbent contractor on an IOC 
build will provide a short-term capability to satisfy mission needs in 
a timely fashion until a solution can be crafted that is both more 
capable and more feasible for the long term. Whether or not this is 
feasible depends on the timeliness and affordability and short-term 
utility of an IOC-like solution versus the timeliness of a COTS-based 
solution (which is a strong contender for the preferred long-term 
solution).
    Thus, pending the outcome of the trade studies recommended below, 
Aerospace believes that discarding VCF Delivery 1 and starting over 
with a COTS-based solution is the best long-term solution. Although 
Aerospace recommends that VCF Delivery 1 not be used as a software 
baseline for any future VCF activities based on the deficiencies 
identified herein, Aerospace recommends that the VCF Delivery 1 
artifacts (both documentation and source code) and this report be made 
available as Government Furnished Information \3\ (GFI) to any future 
VCF vendors (as part of a ``Bidders' Library'' for instance). There are 
insights to be gained from understanding how the VCF problem was 
initially framed, how the architecture was conceptualized, and how the 
system was designed and implemented that Aerospace believes will be of 
use to future developers. Aerospace recommends, however, that these 
artifacts be made available only if accompanied by this report. 
Otherwise, the future vendors will be in the position of having to 
repeat all the investigation and analysis performed by Aerospace in its 
investigation of those artifacts.
---------------------------------------------------------------------------
    \3\ Providing the documents and artifacts as Government Furnished 
Equipment (GFE) is not recommended so as to avoid the government 
incurring any liability for their use.
---------------------------------------------------------------------------
    Based on the RFI responses, there are multiple COTS applications, 
or features within applications, that meet both the SOA requirements 
and the needs stated in the RFI.
5.2 Additional Recommendations
    The fact that Business Question 3 was asked at all implies that the 
future of VCF is being considered. The larger issue, then, beyond the 
disposition of VCF Delivery 1 is the way ahead for VCF. It is in 
consideration of this larger issue that the following recommendations 
are offered.
    The principal conclusion of this assessment relates to a lack of 
engineering discipline and all its negative effects. Accordingly, this 
problem must be remedied before going forward. Broadly speaking, this 
will require that the FBI specify that appropriate systems engineering 
and software engineering practices be defined and used, and then 
provide oversight to ensure that they are followed. Allowance must be 
made for a reasonable schedule. An assessment conclusion states: ``The 
engineering practices followed on this program were not in keeping with 
what one would expect in a program of this magnitude and importance.'' 
The specific recommendations offered below speak to practices that 
Aerospace believes are in keeping with a program of this magnitude and 
importance.

5.2.1 Concerning the VCF Architecture
    Aerospace found that VCF Delivery 1 began with certain sound 
architectural concepts, but failed to consider the use of alternate 
architectural concepts or the use of COTS components that may have 
better served the needs of the VCF system. Therefore, Aerospace 
recommends that trade studies be performed across several key 
dimensions, to include the following at a minimum:
  --The use of COTS components for key integrated case management 
        functionality (not merely for infrastructure items such as 
        databases, operating systems, and communications protocols) 
        versus the use of custom application software.
  --The use of an SOA versus the use of a monolithic software 
        application.
  --The use of a distributed hardware architecture versus the use of a 
        centralized hardware architecture.
    Additionally, Aerospace recommends an analysis of how VCF fits in 
with, and is constrained by, the broader enterprise architecture.

5.2.2 Concerning the VCF Requirements
    Aerospace found the VCF Delivery 1 concept of operations and the 
system requirements to be insufficiently mature for the purposes of the 
UAC acquisition. Therefore, Aerospace recommends that a new series of 
meetings be conducted with the users and other stakeholders to elicit 
needs, constraints, operational concepts, and requirements. Once a set 
of abstracted needs, constraints, and broader enterprise concerns is in 
place, it will be possible to perform the operational and requirements 
analyses, modeling of operations and functions, and modeling of 
performance necessary for the creation of a correct and complete CONOPS 
and System Requirements Specification.
    Aerospace found a lack of accurate and complete traceability 
between the various levels of requirements, components, and tests. 
Therefore, in order to provide assurance that all VCF requirements have 
been met and verified, Aerospace recommends that the any future VCF 
development and acquisition activities enforce strict traceability.

5.2.3 Concerning the Use of Standards
    Many of the problems with the body of VCF documentation extend 
beyond a simple lack of discipline and instead relate to a failure to 
address certain standard concerns in system architecture, system 
specification, system design, and requirements quality. The systems 
engineering field is sufficiently mature that there are standards and 
other references that provide descriptive outlines for key documents 
and quality attributes for written requirements.
    Many--though not all--of these standards originate in the defense 
arena. However, they are applicable (with tailoring) to non-defense 
systems such as VCF precisely because it is similar to many defense 
systems in its complexity, its scope, and the criticality of its 
mission. As such, the approaches used in creating other large, complex, 
mission-critical systems can be applied here. The standards and other 
references that Aerospace applied to the VCF assessment are given in 
the bibliography contained in this document. Aerospace believes they 
are as applicable to the future of VCF as they were to an assessment of 
its past.

5.2.4 Concerning Processes
    The success of acquisition programs, particularly large ones, 
depends not only on what is done but also on how it is done. Products 
result from processes--and it is precisely for this reason that 
processes are important. While a good process is not sufficient to 
produce an excellent product, it is necessary.
    A project of the scope, complexity, and importance of VCF demands 
the level of process maturity embodied in CMMI Levels 3 and 4. CMMI 
Level 1 and Level 2 are too ``ad hoc'' for a program of this nature; on 
the other hand, CMMI Level 5 is probably not warranted.
    Aerospace recommends that a Software Development Capability 
Evaluation be conducted prior to contract award to reduce acquisition 
risk by objectively assessing each offeror's ability to successfully 
develop the software needed by the VCF program. Aerospace recommends 
that an independent government cost analysis be conducted during source 
selection to objectively assess the cost realism of each offeror's 
proposal.

                               REFERENCE

    [1] U.S. Department of Defense. Operations Concept Description 
(OCD), Data Item Description DI-IPSC-81430, December 5, 1994.
    [2] American Institute of Aeronautics and Astronautics, Guide for 
the Preparation of Operational Concept Documents, Working Draft 1.0, 
ANSI/AIAA G-043-200x. Washington, D.C.: American Institute of 
Aeronautics and Astronautics.
    [3] U.S. Department of Defense. System/Subsystem Design Description 
(SSDD), Data Item Description DI-IPSC-81432, December 5, 1994.
    [4] Institute of Electrical and Electronics Engineers. IEEE 
Recommended Practice for Architectural Description of Software-
Intensive Systems, IEEE STD 1471-2000. New York: Institute of 
Electrical and Electronics Engineers, 2000.
    [5] U.S. Department of Defense. Software Development and 
Documentation, MIL-STD-498, December 5, 1994.
    [6] U.S. Department of Defense. System/Subsystem Specification 
(SSS), Data Item Description (DID) DI-IPSC-81431, December 5, 1994.
    [7] International Council on Systems Engineering. International 
Council on Systems Engineering (INCOSE) Systems Engineering Handbook, 
Version 2.0, July 2000.
    [8] Buede, Dennis M. The Engineering Design of Systems. New York: 
Wiley, 2000.
    [9] Bergey, J. et al. Software Architecture Evaluation with 
ATAM<SUP>SM</SUP> in the DOD System Acquisition Context. Carnegie 
Mellon University/Software Engineering Institute Technical Note CMU/
SEI-99-TN012, ADA377450. Pittsburgh: Carnegie Mellon University/
Software Engineering Institute, 1999.
    [10] Institute of Electrical and Electronics Engineers. IEEE 
Recommended Practice for Software Requirements Specification, IEEE STD 
830-1998. New York: Institute of Electrical and Electronics Engineers, 
1998.
    [11] Webster's Ninth New Collegiate Dictionary. Springfield, 
Massachusetts: Merriam-Webster, Inc., 1988.
    [12] U.S. Department of Defense, DOD Information Technology System 
Certification and Accreditation Process, DOD Instruction 5200.40, 
December 30, 1997.
    [13] U.S. Department of Defense, Department of Defense Information 
Technology System Certification and Accreditation Process (DITSCAP): 
Application Manual, DOD 8510.1-M, July 31, 2000.
    [14] National Security Telecommunications and Information Systems 
Security Committee. National Information Assurance Certification and 
Accreditation Process (NIACAP), National Security Telecommunications 
and Information Systems Security Instruction (NTISSI) No. 1000, April 
2000.
    [15] U.S. Department of the Air Force, Air Force Material Command. 
Software Development Capability Evaluation, AFMC Pamphlet 63-103, vols. 
1 and 2, June 15, 1994.
    [16] Friedman, George, and Andrew P. Sage. ``Case Studies of 
Systems Engineering and Management in Systems Acquisition,'' Systems 
Engineering, volume 7, no. 1, 2004, p. 90.
    [17] Green, Connie. Oracle9i Database Performance Tuning Guide and 
Reference, Release 2 (9.2). Oracle Corporation (Redwood Shores, CA 
94065), 2002.
    [18] Holdworth, Andrew. Oracle 9i Database Performance Planning, 
Release 2 (9.2). Oracle Corporation (Redwood Shores, CA 94065), 2002.
    [19] Kreitman, Kevin B. COTS/GOTS Trade Study Report, Aerospace 
Technical Report Number ATR-2005(5154)-3. The Aerospace Corporation (El 
Segundo, CA 90245), 17 December 2004.
    [20] Clinger-Cohen Act of 1996 (divisions D and E of U.S. Public 
Law 104-106).
    [21] Federal Enterprise Architecture Program Management Office. The 
Technical Reference Model Version 1.1: A Foundation for Government-wide 
Improvement, August 2003.
                                 ______
                                 
 Prepared Statement of Glenn A. Fine, Inspector General, Department of 
                                Justice

                              INTRODUCTION

    Mr. Chairman, Senator Leahy, and Members of the Subcommittee on 
Commerce, Justice, State and the Judiciary:
    I appreciate the opportunity to testify before the Subcommittee as 
it examines the Federal Bureau of Investigation's (FBI) Trilogy 
information technology (IT) modernization project. The Trilogy project 
was designed to upgrade the FBI's IT infrastructure and replace its 
antiquated case management system with the Virtual Case File (VCF).
    Successful implementation of the Trilogy project is essential to 
modernizing the FBI's inadequate information technology systems. The 
FBI's systems currently do not permit FBI agents, analysts, and 
managers to readily access and share case-related information 
throughout the FBI. Without this capability, the FBI cannot perform its 
critical missions as efficiently and effectively as it should.
    In March 2004, this Subcommittee held a hearing on the status of 
the Trilogy project, and I testified about the schedule delays and cost 
increases of the Trilogy project. At that time, I stated that I was 
skeptical about the FBI's proposed schedule to deploy a fully 
functional, complete version of the VCF before the end of calendar year 
2004. Shortly before the hearing, the Office of the Inspector General 
(OIG) initiated a follow-up audit to assess the FBI's management of the 
Trilogy project.
    Today the OIG released the results of this follow-up audit. Our 
audit found that the FBI successfully has completed the Trilogy IT 
infrastructure upgrades--albeit with delays and significant cost 
increases. However, the FBI has failed to complete and deploy the VCF, 
the critical component of Trilogy that was intended to provide the FBI 
with an effective case management system. The VCF still is not 
operational after more than 3 years of development and the allocation 
of $170 million. We found that the VCF either will require substantial 
additional work or need to be scrapped and replaced by a new system. 
Moreover, the FBI has not yet provided a realistic timetable or cost 
estimate for implementing a workable VCF or a successor system.
    Our audit also examined the causes for the delays and cost 
increases in the Trilogy project. Among the problems were poorly 
defined and slowly evolving design requirements for Trilogy, weak IT 
investment management practices at the FBI, weaknesses in the way 
contractors were retained and overseen, the lack of management 
continuity at the FBI on the Trilogy project, unrealistic scheduling of 
tasks on Trilogy, and inadequate resolution of issues that warned of 
problems in Trilogy's development.
    In this statement, I describe the OIG's examination of the Trilogy 
project. The statement is organized into five parts. First, I provide a 
brief description of prior OIG assessments and testimony about the 
FBI's IT systems in general and Trilogy in particular. Second, I 
provide background information on the Trilogy project. Third, I discuss 
the results of the OIG's recently completed audit regarding Trilogy's 
cost increases and schedule delays. Fourth, I discuss the OIG's 
assessment of the causes for the problems in Trilogy's development and 
implementation. And fifth, as requested by the Subcommittee, I conclude 
my statement by briefly highlighting several ongoing and recently 
completed OIG reviews that examine a variety of other issues in the 
FBI.

            PRIOR OIG REVIEWS OF FBI INFORMATION TECHNOLOGY

    In a series of reviews over the past several years, the OIG has 
identified problems in the FBI's IT systems, including outdated 
infrastructures, fragmented management, ineffective systems, and 
inadequate training.
    For example, a July 1999 OIG review examined the actions of the 
Campaign Finance Task Force that investigated allegations of improper 
fundraising practices during the 1996 Presidential campaign. The Task 
Force relied on the FBI's antiquated case management system, the 
Automated Case Support (ACS) system, and other FBI databases to obtain 
information on the individuals and organizations that had become 
subjects of the investigation. In this review, the OIG noted that 
deficiencies in the ACS system and the way search results were handled 
within the FBI resulted in incomplete data being provided to the Task 
Force.
    Another OIG review issued in March 2002 examined how the FBI had 
failed to turn over to defense attorneys hundreds of FBI documents that 
should have been disclosed prior to the trials of Timothy McVeigh and 
Terry Nichols. The OIG again concluded that the FBI's computer systems 
were antiquated, inefficient, and badly in need of improvement. We 
found that the ACS could not handle or retrieve documents in a useful, 
comprehensive, or efficient way, and it did not provide FBI employees 
with the type of support they need and deserve.
    An OIG audit issued in December 2002 examined the FBI's IT 
investment management practices. This audit concluded that that the FBI 
had not effectively managed its IT investments because it had failed 
to: (1) effectively track and oversee the costs and schedules of IT 
projects; (2) properly establish and effectively use IT investment 
boards to review projects; (3) inventory the existing IT systems and 
projects; (4) identify the business needs for each IT project; and (5) 
use defined processes to select new IT projects. We concluded that the 
FBI continued to spend hundreds of millions of dollars on IT projects 
without adequate assurance that the projects would meet their intended 
goals. Our audit made eight recommendations with respect to Trilogy, 
including urging the FBI to establish schedule, cost, technical, and 
performance baselines and track significant deviations from these 
baselines.
    In a September 2003 audit, the OIG examined the FBI's 
implementation of the OIG's prior IT-related recommendations. While we 
found that the FBI had made substantial progress by implementing 93 of 
148 total recommendations, we concluded that full implementation of the 
remaining recommendations was needed to ensure that the FBI's IT 
program effectively supported the FBI's mission.
    As noted above, in March 2004 this Subcommittee held a hearing to 
examine Information Technology in the FBI, at which the FBI Director 
testified about the status of the FBI's Trilogy project. At that 
hearing, the FBI stated that it planned to have ``a network with Full 
Site Capability by late spring'' and that it was ``closing in on the 
goal of completion'' of the Trilogy project.
    The OIG initiated our follow-up audit to assess the FBI's 
management of the Trilogy project. In December 2004, the OIG completed 
a draft of this audit report and concluded that the VCF was not 
operational after more than 3 years of development and the obligation 
of $170 million, and the FBI did not know when the VCF or a replacement 
system would be implemented.
    Pursuant to our standard practice, in late December 2004 the OIG 
provided the draft audit report to the FBI for its response. In early 
January 2005, the FBI publicly acknowledged problems and delays in the 
development of the VCF. In a written response to our audit report dated 
January 26, 2005, the FBI acknowledged that the VCF had not met its 
goals with respect to development of an automated case management 
system. Nevertheless, the FBI stated that the ``VCF project remains the 
highest IT priority for the FBI.''
    After receiving the FBI's comments, the OIG completed this audit 
report and released it today.
    I will now provide background on the Trilogy project and the VCF 
before summarizing the main findings of our audit.

                         BACKGROUND ON TRILOGY

    Trilogy is the largest of the FBI's IT projects. As originally 
designed, the Trilogy project had three main components: (1) the 
Information Presentation Component (IPC)--which was intended to upgrade 
the FBI's hardware and software; (2) Transportation Network Component 
(TNC)--which was intended to upgrade the FBI's communication networks; 
and (3) User Applications Component (UAC)--which was intended to 
replace the FBI's most important investigative applications, including 
the ACS, the FBI's antiquated case management system. Among its major 
shortcomings, the ACS does not permit FBI agents, analysts, and 
managers to readily access and share case-related information 
throughout the FBI. Without this capability, the FBI cannot efficiently 
bring together all of the investigative information in the FBI's 
possession to solve crimes or help prevent future terrorist attacks.
    The first two components of Trilogy provide the infrastructure 
needed to run the FBI's various user applications, while the UAC was 
intended to upgrade and consolidate the FBI's investigative 
applications. After the September 11 attacks, the FBI decided to 
replace the ACS with an entirely new case management system, the VCF.
    It is important to note that Trilogy was not intended to replace 
all 42 of the FBI's investigative applications or the FBI's 
approximately 160 other non-investigative applications. Rather, Trilogy 
was intended to lay the foundation so that future enhancements would 
allow the FBI to achieve a state-of-the-art IT system that integrates 
all of the agency's investigative and non-investigative applications.
    Our audit found that in late April 2004, the FBI completed the 
first two components of the Trilogy project. The FBI deployed new 
hardware and software, including 22,251 computer workstations, 3,408 
printers, 1,463 scanners, and 475 servers, and it installed new 
communications networks.
    However, as I describe in the next section of this statement, this 
deployment was not done as quickly as the FBI hoped or expected. 
Despite the fact that after the September 11 attacks Congress 
appropriated the FBI an additional $78 million to accelerate deployment 
of Trilogy's infrastructure components, the FBI completed the two 
infrastructure components by late April 2004, just before the FBI's 
original target date of May 2004. Consequently, the FBI missed by some 
22 months the completion date for the two infrastructure components 
under the accelerated schedule funded by Congress. In addition, the 
total costs for the infrastructure components of Trilogy increased from 
$238.6 million to $377 million over the course of the project.
    And while the infrastructure components are now in place to support 
improved investigative applications, the FBI still is far from 
implementing the third component of Trilogy, the VCF.

                RESULTS OF OIG AUDIT OF TRILOGY PROJECT

Trilogy Costs
    Trilogy originally was planned in 2000 as a 3-year, $380 million 
project. Over its life, Trilogy has become a $581 million project that 
has suffered a continuing series of missed completion estimates and 
associated cost growth.
    Initially, in November 2000, Congress appropriated $100.7 million 
for the first year of the project. In May 2001, the FBI hired DynCorp 
(which later merged into Computer Sciences Corporation (CSC)) as the 
contractor for the IPC/TNC infrastructure components of Trilogy. At 
that time, the scheduled completion date for the Trilogy infrastructure 
was May 2004. In June 2001, the FBI hired Science Applications 
International Corporation (SAIC) to develop the user applications 
component of Trilogy (which became the VCF), with a scheduled 
completion date of June 2004.
    In early 2002, the FBI informed Congress in its Quarterly 
Congressional Status Report that with an additional $70 million in 
fiscal year 2002 funding, the FBI could accelerate the deployment of 
Trilogy. Congress supplemented the Trilogy budget with $78 million from 
the Emergency Supplemental Appropriations Act of January 2002, thereby 
raising projected costs to $458 million.
    In December 2002, the FBI estimated it needed $137.9 million more 
to complete Trilogy, in addition to the $78 million it had received to 
accelerate completion of the project. Congress approved a $110.9 
million reprogramming of funds that took into account the estimates to 
complete the IPC/TNC portions of Trilogy, as well as an estimate of the 
costs to complete the UAC portion. The $110.9 million reprogramming 
increased the FBI's total available funding for the project to $568.7 
million. In addition, $4.3 million for operations and maintenance and 
$8 million for computer specialist contractor support were added in 
fiscal year 2003, for a total of $581.1 million--$201 million more than 
originally estimated.
    The following table describes the cost of Trilogy under the 
original plan and under the current plan:

                        [In millions of dollars]
------------------------------------------------------------------------
             Component Area                Original Plan   Current Plan
------------------------------------------------------------------------
TNC/IPC.................................           238.6           337.0
UAC.....................................           119.2           170.0
Contractor Computer Specialists.........             n/a             8.0
Integrator..............................             n/a             5.5
Project Management......................            22.0            32.5
Management Reserve......................             n/a            28.1
                                         -------------------------------
      Total.............................           379.8           581.1
------------------------------------------------------------------------

Schedule for Trilogy Infrastructure Components
    Despite the increased money provided for Trilogy, its 
implementation has been delayed significantly. Part of the problem we 
found was that a stable schedule for Trilogy never was firmly 
established for much of the project's history. Beginning in 2002 the 
FBI's estimated dates for completing the Trilogy project components 
began to swing back and forth and were revised repeatedly.
    The original completion date for deploying the Trilogy 
infrastructure (the first two components of Trilogy) was May 2004. 
After the September 11 attacks, the FBI recognized the urgency of 
completing the project and moved up the completion date for deploying 
the Trilogy infrastructure to June 2003. Later, the FBI said the 
infrastructure would be completed by December 31, 2002. Still later, 
the FBI informed Congress that with an additional $70 million it could 
accelerate deployment of Trilogy and complete the two infrastructure 
components by July 2002 and also deploy the most critical analytical 
tools in the user applications component.
    Yet, the timetable for completing the infrastructure components 
slipped from July 2002 to October 2002 and then to March 2003. On March 
28, 2003, CSC completed a communications network, the Wide Area 
Network, for Trilogy. The FBI reported that the Wide Area Network, with 
increased bandwidth and three layers of security, had been deployed to 
622 sites. In April 2003, the FBI also reported to Congress that more 
than 21,000 new desktop computers and nearly 5,000 printers and 
scanners had been deployed.
    In April 2003, the FBI and CSC agreed to a statement of work for 
the remaining infrastructure components of Trilogy, including servers, 
upgraded software, e-mail capability, and other computer hardware, with 
a completion date of October 31, 2003. In August 2003, CSC informed the 
FBI that the October 2003 completion date would slip another two months 
to December 2003. In October 2003, CSC and the FBI agreed that the 
December 2003 date again would slip. In November 2003, the General 
Services Administration (whose Federal Systems Integration and 
Management Center, known as FEDSIM, had awarded contracts for Trilogy 
on behalf of the FBI) formally announced that CSC had failed to meet 
the deadline for completing work on infrastructure portions of Trilogy 
that were required to support the VCF user application under 
development.
    On December 4, 2003, CSC signed a commitment letter agreeing to 
complete the infrastructure components of the Trilogy project by April 
30, 2004, for an additional $22.9 million, including an award fee of 
over $4 million. An award fee is used when the government wants to 
motivate a contractor with financial incentives. The FBI covered these 
additional costs by reprogramming funds from other FBI appropriations. 
In January 2004, the FBI converted the agreement with CSC to a revised 
statement of work providing for loss of the award fee if the April 30, 
2004, deadline was not met. In addition, the revised statement of work 
provided for cost sharing at a rate of 50 percent for any work 
remaining after the April 30 deadline.
    CSC met the revised deadline of April 30, 2004, for completing the 
two infrastructure components of Trilogy. As a result, the FBI met the 
original target set in 2001 for the infrastructure components of 
Trilogy, but missed the accelerated schedule funded by additional money 
from Congress by some 22 months.

Schedule for the Virtual Case File
    In June 2002, the FBI decided to deploy the VCF user application 
component of Trilogy in two phases under an accelerated plan: delivery 
one in December 2003 and delivery two in June 2004. A third delivery 
eventually was added, also for June 2004. Delivery one was supposed to 
consist of the initial version of the VCF, which was intended to be a 
completely new case management system with data migrated from the ACS. 
The VCF also was intended to serve as the backbone of the FBI's 
information management systems, replacing paper files with electronic 
case files. Deliveries two and three under the contract were supposed 
to consist of enhancements and additional operational capabilities to 
the VCF.
    SAIC provided the first version of the VCF to the FBI in December 
2003, in accordance with the accelerated schedule. However, the FBI did 
not accept that version because the FBI said it was not a functional 
system and did not meet the FBI's requirements. Deliveries two and 
three never occurred because of the difficulties experienced in 
completing the initial version of the VCF. The FBI informed the OIG 
that these deliveries are not being pursued now given the problems in 
the first delivery and the FBI's plans to seek a common interagency 
platform for a case management system (the Federal Investigative Case 
Management System or FICMS, which is discussed below).
    In fact, the FBI has abandoned the intended three VCF deliveries 
and instead announced a new two-track approach for continuing 
development of the VCF. Track one, which the FBI refers to as the 
``Initial Operational Capability,'' includes a 6-week test of an 
electronic workflow process scheduled to be completed by March 2005. 
During this test, the FBI's New Orleans field office and a smaller 
resident agency office will enter investigative lead and case data into 
a prototype VCF file system, and this information will be approved 
electronically and uploaded into the ACS. The FBI intends to obtain 
user comments on, and assess the performance of, this new workflow 
system being tested in track one.
    However, it is important to make clear that the version of the VCF 
being tested in track one will not provide the FBI with the case 
management applications as envisioned throughout the Trilogy project 
because it represents just one developmental step in the creation of a 
fully functional investigative case management system. It does not 
offer full case management capabilities. Rather, it is designed to 
demonstrate that documents can be approved electronically and uploaded 
into the existing, obsolete ACS.
    The second track, called Full Operational Capability, is intended 
to reevaluate and update requirements for the next phase of developing 
a functional case management system to replace ACS. In track two, the 
FBI plans to identify user activities and processes for creating and 
approving documents and managing investigative leads, evidence, and 
cases. As a result of the information gleaned during track two, the FBI 
is updating and confirming the case management requirements and 
evaluating whether currently available software can be adapted for a 
case management system rather than creating a completely new system.
    In commenting on the findings in our audit report about the delays 
in the VCF, the FBI stated that ``In many ways, the pace of 
technological innovation has overtaken our original vision for VCF, and 
there are now products to suit our purposes that did not exist when 
Trilogy began.'' This suggests that the current VCF effort may be 
obsolete and that the FBI may implement an entirely new system to 
replace it.
    Moreover, our audit found that the FBI still does not have a clear 
timetable or prospect for completing the project. The VCF case 
management application was intended to replace the ACS and be the sole 
system within the FBI that would contain all investigative lead and 
case file information in a paperless system. Due to the failure to 
complete the VCF, the FBI continues to lack a modern case management 
system containing complete and accessible investigative lead and case 
information. While the FBI cites in its response to our report advances 
in other FBI IT systems, such as its newly created Investigative Data 
Warehouse, the VCF case management system would have many features that 
a Data Warehouse does not. The VCF was intended to be the backbone of 
the FBI's information systems, replacing the FBI's paper case files 
with electronic files. Case data in the VCF could be approved 
electronically, and the electronic files would be available throughout 
the FBI immediately as entered. Various lead and case information 
easily could be associated for analysis. The Investigative Data 
Warehouse, while perhaps a useful tool, does not manage case workflow, 
does not provide immediate access to case information, and does not 
substitute for an effective case management system. Consequently, the 
FBI continues to lack critical tools necessary to maximize the 
performance of both its criminal investigative and national security 
missions.

Federal Investigative Case Management System
    As a parallel effort to the VCF, the FBI recently has stated that 
it is pursuing an effort to develop the Federal Investigative Case 
Management System (FICMS). FBI officials have variously described this 
effort to the OIG during the course of our audit as a continuation of 
the VCF, a new investigative case management system to replace the 
failed VCF, or a ``framework'' for the future development of an 
investigative case management system platform.
    In its January 26, 2005, formal response to the OIG audit report, 
however, the FBI stated that the VCF and the FICMS are ``two separate, 
but related projects that will move forward simultaneously. The VCF 
project remains the highest IT priority for the FBI, and we are 
developing an implementation plan that will result in deployment of a 
fully functional investigative case and records management system.''
    The FBI also stated in its response that it is continuing to pursue 
the VCF through development of an implementation plan. The FBI hired 
the Aerospace Corporation to evaluate currently available software 
products to determine if they meet the FBI's requirements for a case 
management system. The FBI also asked Aerospace to evaluate the 
adequacy of the VCF as delivered by SAIC to determine what might be 
salvaged from that effort.
    Yet, the timetable for the FICMS and the VCF still does not appear 
to be rapid or clear. In conjunction with the OIG's audit, the FBI told 
the OIG that it hopes to award a contract for FICMS by April 30, 2005. 
But the FBI has not provided its estimated costs, a revised schedule 
for completing the VCF, or a schedule for developing a new case 
management system to replace the VCF through the FICMS effort.

                      CAUSES OF TRILOGY'S PROBLEMS

    We believe the responsibility for ensuring the success of the 
Trilogy project is shared by several parties: the FBI; the Department 
of Justice; FEDSIM--the component of GSA that awarded Trilogy contracts 
on behalf of the FBI; and the two contractors--CSC for the two 
infrastructure components, and SAIC for the user applications component 
that became the VCF. These entities, to varying degrees, did not 
appropriately contract for, manage, monitor, or implement the Trilogy 
project.
    In our view, the main responsibility for the problems with Trilogy 
rests with the FBI. The FBI acted on a legitimate and urgent need to 
upgrade its IT infrastructure and replace the antiquated ACS. However, 
in the FBI's desire to move quickly on the Trilogy project, it engaged 
FEDSIM to handle the contracting for this very large and complex 
project without providing or insisting upon: defined requirements, 
specific milestones, critical decision review points, and penalties for 
poor contractor performance.
    The resulting cost-plus-award-fee contract yielded control to the 
contactors for developing Trilogy's technical requirements, while 
leaving the FBI little leverage to direct the project. In essence, the 
contract terms required paying the contractors regardless of whether 
they met schedules or were even technically capable of completing such 
a challenging project.
    In addition, the FBI failed to adequately develop and articulate 
the design requirements at the outset of the project, and consequently 
the requirements repeatedly changed as the project progressed, with too 
much contractor control and too little input from FBI management.
    In its response to the audit report, the FBI alluded to its lack of 
control over requirements as a reason for the current VCF problem by 
stating that ``[T]he VCF project suffered in part from runaway scope.'' 
The FBI response also stated that to guard against runway scope in the 
future, ``the IT system will be designed, developed, and deployed 
incrementally against specified and planned parameters.''
    In addition to the poor choice of contracting method and sketchy 
requirements, neither the FBI, the Department, nor FEDSIM ensured that 
adequate schedule, cost, technical, and performance baselines were 
established to allow the project to be adequately monitored and to 
identify and rectify schedule slippages or technical problems. Since 
none of the responsible parties ensured that realistic milestones were 
established to complete various segments of the project, it was 
difficult to ensure that the contractors successfully met overall 
schedule, cost, technical, or performance targets for the project.
    In addition, the Department expected the FBI to assume the role of 
project integrator to ensure all three Trilogy components meshed 
properly and were on track, even though the FBI lacked this capability 
or experience. The FBI's ability to manage the Trilogy project, even 
with the help of contractor personnel, was crippled further by a 
revolving door of Chief Information Officers (CIOs) and Trilogy project 
management personnel at the FBI.
    A variety of audits by the OIG and the Government Accountability 
Office, as well as internal FBI reviews, had identified deficiencies in 
the FBI's management of IT projects, including Trilogy. However, the 
FBI's corrective action was slow. Only recently has the FBI made 
substantial progress in its IT investment management processes.
    More specifically, in our audit report the OIG detailed the 
following eight causes for the FBI's problems with the Trilogy project:
  --Poorly defined and slowly evolving design requirements.--One of the 
        most significant problems with managing the schedule, cost, 
        technical, and performance aspects of the Trilogy project was 
        the lack of a firm understanding of the design requirements by 
        both the FBI and the contractors. Trilogy's design requirements 
        were ill-defined and still evolving as the project progressed. 
        During the initial years of the project, the FBI had no firm 
        design baseline or roadmap for Trilogy. According to one FBI 
        Trilogy project manager, Trilogy's scope grew by about 80 
        percent since the initiation of the project. Such large changes 
        in the requirements meant that the specific detailed guidance 
        for the project was not established, and as a result a final 
        schedule and cost were not established. In addition, after the 
        September 11 attacks, the FBI recognized that the initial 
        concept of simply modifying the old ACS would not serve the FBI 
        well over the long run. The FBI then created plans for the VCF. 
        Additionally, a need for broadened security requirements due to 
        vulnerabilities identified in the Hanssen espionage case 
        affected Trilogy's development. According to one project 
        manager, this recognition of the need to upgrade security 
        caused more problems and delays for the full implementation of 
        the infrastructure component.
  --Contracting weaknesses.--The FBI's current and former CIOs told the 
        OIG that a primary reason for the schedule and cost problems 
        associated Trilogy was weak statements of work in the 
        contracts. According to FBI IT and contract managers, the cost-
        plus-award-fee type of contract used for Trilogy did not 
        require specific completion milestones, did not include 
        critical decision review points, and did not provide for 
        penalties if the milestones were not met.
  --IT investment management weaknesses.--As described in the OIG's 
        December 2002 audit report, The Federal Bureau of 
        Investigation's Management of Information Technology 
        Investments, at Trilogy's inception and over much of its life, 
        the FBI's IT Investment Management process was not well-
        developed. Although our recent audit found that while the FBI 
        had started centralizing its project management structure, 
        appropriate project management was not consistently followed by 
        Trilogy's IT project managers. In essence, the FBI took risks 
        to expedite Trilogy's implementation, and that approach failed 
        because the management practices to oversee Trilogy simply were 
        not in place.
  --Lack of an Enterprise Architecture.--An Enterprise Architecture 
        provides an organization with a blueprint to more effectively 
        manage its current and future IT infrastructure and 
        applications. The development, maintenance, and implementation 
        of Enterprise Architectures are recognized hallmarks of 
        successful public and private organizations. While the FBI has 
        agreed to develop a comprehensive Enterprise Architecture, this 
        recommendation has not yet been fully implemented. The FBI has 
        contracted for an Enterprise Architecture to be completed by 
        September 2005. Without a complete Enterprise Architecture, the 
        FBI needed to conduct reverse engineering to identify existing 
        IT capabilities before developing the infrastructure and user 
        applications requirements for the Trilogy project.
  --Lack of management continuity and oversight.--Turnover in key 
        positions hurt the FBI's ability to manage and oversee the 
        Trilogy project. Since November 2001, 15 different key IT 
        managers have been involved with the Trilogy project, including 
        5 CIOs or Acting CIOs and 10 individuals serving as project 
        managers for various aspects of Trilogy. This lack of 
        continuity among IT managers contributed to the lack of 
        effective and timely implementation of the Trilogy project. 
        According to contractor personnel who are advising the FBI on 
        Trilogy, the FBI suffered from a lack of engineering expertise, 
        process weaknesses, and decision making by committees instead 
        of knowledgeable individuals.
  --Unrealistic scheduling of tasks.--Along with the lack of firm 
        milestones in the Trilogy contracts, the scheduled completion 
        dates for individual project components were unrealistic. The 
        unrealistic scheduling of project tasks led to a series of 
        raised expectations followed by frustrations when the 
        completion estimates were missed. According to an FBI official 
        who monitored the development of the Trilogy infrastructure, 
        Computer Sciences Corporation had problems producing an 
        appropriate work schedule given the resources provided for the 
        project. Until the FBI became more active in examining the 
        scheduling of the project, the FBI accepted the project's 
        schedules as presented by the contractor. This acceptance began 
        to shift when the FBI's scheduler worked with the contractor in 
        early 2003 to establish a realistic work schedule for 
        completing the infrastructure components.
  --Lack of adequate project integration.--Despite the use of two 
        contractors to provide the three major Trilogy project 
        components, the FBI did not retain a professional project 
        integrator to manage contractor interfaces and take 
        responsibility for the overall integrity of the final product 
        until the end of 2003. According to FBI IT managers, FBI 
        officials performed the project integrator function even though 
        they had no experience performing such a role. Although FBI and 
        Department officials stated that the Department required the 
        FBI to perform project integration duties without contractor 
        support, the expertise to adequately perform this function did 
        not exist within the FBI.
  --Inadequate resolution of issues raised in reports on Trilogy.--
        Within a matter of months after initiation of the Trilogy 
        project, the FBI recognized significant issues that needed 
        resolution. Internal reports issued by the FBI's Inspection 
        Division, Criminal Justice Information Services Division, and 
        consultants identified a lack of a single project manager, 
        undocumented requirements, and a baseline that was not frozen. 
        Based on internal reports, the FBI was aware of the risks that 
        it faced during the development of the Trilogy project. While 
        FBI management eventually hired a project manager to oversee 
        the project--a recommendation made in all of the reports--the 
        process of defining requirements and baselines for the VCF 
        still continues, more than three years after these internal 
        reports were issued. Because the FBI did not act timely to 
        resolve the findings of these reports, many problems involving 
        project management weaknesses, poorly-defined requirements, and 
        lack of firm targets unnecessarily continued throughout much of 
        the Trilogy project's history.
    I believe it is important to note that, despite the troubled 
history of the Trilogy project, the FBI recently has made some 
improvements in its management of information technology. One major 
improvement in the FBI's IT management was the appointment of a new CIO 
in May 2004 and the consolidation of the FBI's previously fragmented 
management of IT resources and responsibilities under the Office of the 
CIO. A significant problem in the FBI's management of IT investments 
was that all of the FBI divisions with IT investments were not under a 
single authority and, as a result, had a variety of processes and 
procedures for developing new systems. Under the reorganization, the 
CIO is responsible for all of the FBI's IT assets, projects, plans, 
processes, and budgets.
    In December 2004, the Office of the CIO completed an initial 
version of an IT Strategic Plan, which describes how IT will support 
the FBI's Strategic Plan and mission goals for the next five years. All 
IT projects now are required to be consistent with the FBI's Strategic 
Plan.
    The Office of the CIO also has developed an FBI-wide Life Cycle 
Management Directive to guide FBI personnel on the technical management 
and engineering practices used to plan, acquire, operate, maintain, and 
replace IT systems and services. The directive provides detailed 
guidance to FBI Program and Project Managers and, if fully and 
effectively implemented, will help prevent the delays and problems that 
occurred during the Trilogy project.
    As noted above, the FBI also is in the process of creating an 
Enterprise Architecture by September 2005. The Enterprise Architecture 
will provide a blueprint to aid the FBI in coordinating and managing 
its current and future IT infrastructure and systems. The FBI also is 
working on an IT Portfolio Management Program to list and technically 
document all of its IT systems. The FBI anticipates that 
recommendations stemming from its completed IT portfolio will be 
included in the development of its fiscal year 2007 IT budget.
    In commenting on the OIG's Trilogy audit report, the FBI cited a 
number of other improvements it has begun to make, such as an IT 
metrics program to identify and measure IT performance, an initiative 
to standardize and automate IT procurement actions, a Program 
Management Professional certification training program, a Master IT 
Policy List to coordinate and control IT policies, standardized 
technology assessments, and an Information Assurance Program. Further, 
the FBI told us that VCF track one, or Initial Operating Capability, 
used the FBI's new IT management approach, including identifying 
project objectives, requirements, and constraints before proceeding to 
control gates designed to keep the project on track and to regulate the 
release of funds. Also, the FBI said it developed a cost-sharing 
arrangement as part of the renegotiated UAC contract. These initiatives 
were beyond the scope of our audit, and we could not examine the FBI's 
claims on these systems. However, they appear to represent progress in 
the FBI's IT system. But none of them diminish the urgent need for the 
FBI to fully implement a fully functioning case management system like 
the VCF to create, organize, share, and analyze case information.

               OIG CONCLUSIONS REGARDING TRILOGY PROJECT

    In sum, the FBI has made progress with its management of IT and its 
implementation of the first two phases of Trilogy. Trilogy's 
infrastructure improvements have been completed, including the delivery 
of thousands of modern computer workstations and other hardware 
throughout the FBI. Although the Trilogy infrastructure improvements 
were characterized by delays and increased costs, the infrastructure 
now is in place to support improved user applications, including the 
VCF or its successor case management system, which the FBI recognizes 
as its top IT priority.
    Yet, the VCF effort is incomplete, and the prospects for timely 
completion remain unclear. After more than 3 years, multiple missed 
deadlines, and a price tag of $170 million, the FBI still does not have 
an investigative case management system to replace the antiquated ACS 
system. Further, we are not confident that the FBI has a firm sense of 
how much longer and how much more it will cost to develop and deploy a 
usable system, whether the FBI continues to pursue the VCF system or 
decides to implement a new case management system.
    Finally, we disagree with the FBI's assertion in its response to 
our draft report that the delays in deploying the VCF and the lack of 
an adequate case management system do not have national security 
implications. To the contrary, we believe there is a critical need to 
replace the ACS to enable FBI agents and analysts to effectively 
perform the FBI's mission. The archaic ACS system--which some agents 
have avoided using--is cumbersome, inefficient, and limited in its 
capabilities, and does not manage, link, research, analyze, and share 
information as effectively or timely as needed. While the FBI has made 
strides in other IT areas--including installing a number of systems to 
share intelligence information and upload numerous documents into a 
data warehouse--the continued delays in developing the VCF affects the 
FBI's ability to carry out its critical missions.

                   ADDITIONAL OIG REVIEWS IN THE FBI

    To conclude this statement, in response to a request from the 
Subcommittee, I summarize briefly the OIG's ongoing reviews of other 
priority issues in the FBI. The following are examples of ongoing and 
recently completed OIG reviews that may be of interest to the 
Subcommittee.

Ongoing OIG Reviews in the FBI
    Terrorist Screening Center.--The OIG is examining the operations of 
the Terrorist Screening Center to determine how it has managed 
terrorist-related information to ensure that complete, accurate, and 
current watch lists are developed and maintained.
    Implementation of the Attorney General's Guidelines.--The OIG is 
reviewing the FBI's compliance with the revised Attorney General 
Guidelines that govern the use of confidential informants; undercover 
operations; investigations of general crimes, racketeering enterprises, 
and terrorism enterprises; and warrantless monitoring of verbal 
communications.
    Intelligence Analysts.--The OIG is reviewing the FBI's recruitment, 
selection, training, and staffing of intelligence analysts.
    FBI's Handling of the Brandon Mayfield Matter.--The OIG is 
reviewing the FBI's conduct in connection with the erroneous 
identification of a fingerprint found on evidence from the March 2004 
Madrid train bombing as belonging to Brandon Mayfield, an attorney in 
Portland, Oregon.
    Alleged Mistreatment of Detainees at Military Detention 
Facilities.--The OIG is examining any involvement of FBI employees in 
either observing or participating in the alleged abuse of detainees at 
the military's Guantanamo Bay and Abu Ghraib facilities. In addition, 
the OIG is reviewing when FBI employees reported the allegations of 
abuse and how FBI managers handled the employees' reports.
    The FBI's Chinese Counterintelligence Program.--At the request of 
the FBI Director, the OIG is examining the FBI's performance in 
connection with the handling of Katrina Leung, an asset in the FBI's 
Chinese counterintelligence program.
    The Department's Counterterrorism Task Forces.--The OIG is 
evaluating the Department's counterterrorism task forces to: (1) 
determine if they are achieving their stated purposes; (2) evaluate 
gaps, duplication, and overlap in terrorism coverage; and (3) identify 
how the performance of each task force is measured.
    Implementation of the Communications Assistance for Law Enforcement 
Act (CALEA).--The OIG is conducting a follow-up audit of the 
implementation of CALEA, which allows reimbursement to communications 
carriers for modifications of equipment to allow the capability for 
lawful electronic surveillance. The FBI has expended more than $500 
million under CALEA. The OIG's objectives are to review the progress 
and impediments to the FBI's implementation of CALEA; review CALEA's 
costs; and determine how the implementation of CALEA has impacted 
federal, state, and local law enforcement in their ability to conduct 
electronic surveillance.
    FBI's Reprioritization Efforts.--The OIG is reviewing how the FBI's 
operational changes resulting from its reorganization and change in 
priorities after the September 11 attacks have affected other law 
enforcement agencies.

Recently Completed OIG Reviews in the FBI
    The following are some examples of recently completed OIG reviews 
related to FBI operations:
  --Follow-up Review of the Status of IDENT/IAFIS Integration (December 
        2004).--This OIG review examined ongoing efforts to integrate 
        the federal government's law enforcement and immigration 
        agencies' automated fingerprint identification databases. Fully 
        integrating the automated fingerprint systems operated by the 
        FBI and the DHS, known as IAFIS and IDENT respectively, would 
        allow law enforcement and immigration officers to more easily 
        identify known criminals and known or suspected terrorists 
        trying to enter the United States, as well as identify those 
        already in the United States that they encounter. This latest 
        OIG report is the fourth in four years that monitors the 
        progress of efforts to integrate IAFIS and IDENT.
      This OIG report found that while deployment of new IDENT/IAFIS 
        workstations to Border Patrol offices and ports of entry 
        represents a significant accomplishment, full integration of 
        IDENT and IAFIS has yet to be realized. Federal, state, and 
        local law enforcement authorities still do not have complete 
        access to information in the IDENT database. Without such 
        access, the FBI and DHS fingerprint systems are not fully 
        interoperable, and it is more difficult for federal, state, and 
        local law enforcement agencies to identify illegal aliens they 
        encounter.
      This OIG report found that the congressional directive to fully 
        integrate the federal government's various fingerprint 
        identification systems has not been accomplished because of 
        high-level policy disagreements among the Departments of 
        Justice, Homeland Security, and State regarding such 
        integration. In addition, the Department and the DHS still have 
        not entered into a memorandum of understanding (MOU) to guide 
        the integration of IAFIS and IDENT. This MOU has not been 
        completed because of fundamental disagreements between the 
        Department and the DHS over the attributes of an interoperable 
        fingerprint system and the number of fingerprints to be taken 
        from individuals by each agency.
  --Effects of the FBI's Reprioritization (September 2004).--The OIG 
        reviewed the changes in the FBI's allocation of its personnel 
        resources since the September 11 terrorist attacks. The report 
        provided detailed statistical information regarding changes in 
        the FBI's allocation of resources since 2000. The OIG 
        determined that the FBI has reallocated resources in accord 
        with its shift in priorities from traditional criminal 
        investigative work to counterterrorism and counterintelligence 
        matters. In addition, the OIG review identified specific field 
        offices most affected by changes in FBI priorities within 
        various investigative areas, such as shifting agent resources 
        from organized crime or health care fraud cases to terrorism 
        investigations. The OIG report recommended that the FBI 
        regularly conduct similar detailed analyses of its agent usage 
        and case openings to provide a data-based view of the status of 
        FBI operations and to assist managers in evaluating the FBI's 
        progress in meeting its goals.
  --Handling of Information Prior to September 11 Terrorist Attacks 
        (July 2004).--This classified OIG report, conducted at the 
        request of the FBI Director, examined the FBI's handling of 
        intelligence information prior to the September 11 terrorist 
        attacks. The review focused on the FBI's handling of an 
        electronic communication written by its Phoenix Division in 
        July 2001 regarding extremists attending civil aviation schools 
        in Arizona, the Zacarias Moussaoui investigation, and 
        information related to September 11 terrorists Nawaf al-Hazmi 
        and Khalid al-Mihdhar.
      The OIG made 16 recommendations for improving the FBI's 
        intelligence handling and counterterrorism efforts, including 
        recommendations targeted towards the FBI's analytical program. 
        The OIG provided the classified version of this report to the 
        9/11 Commission and to Congress. In response to requests from 
        members of Congress, the OIG is working with the Department to 
        produce an unclassified version of this report that can be 
        publicly released.
  --Foreign Language Translation Program (July 2004).--The OIG audited 
        the FBI's translation of counterterrorism and 
        counterintelligence foreign language materials. The audit found 
        that the FBI did not translate all the counterterrorism and 
        counterintelligence material it collected. The OIG attributed 
        the FBI's backlog of unreviewed material to difficulties in 
        hiring a sufficient number of linguists and limitations in the 
        FBI's translation information technology systems. The review 
        also found problems in the FBI's quality control program for 
        language translations. The report made 18 recommendations for 
        improving the FBI's foreign language translation program.
      In response to the OIG report, the FBI stated that it plans to 
        implement a national integrated statistical collection and 
        reporting system for its translation program in fiscal year 
        2005 that will allow foreign language program management to 
        accurately determine the amount of unreviewed material that 
        needs to be translated. The FBI also plans to increase its 
        digital collection systems' storage capacity so that unreviewed 
        audio material for critical cases is not deleted by the system. 
        In addition, it plans to implement controls to ensure that the 
        forwarding of audio among FBI offices via its secure 
        communications network is accomplished reliably and timely. The 
        FBI further reported that it plans to assess the linguist 
        hiring process, implement measures to reduce the time it takes 
        to bring linguists on board, and strengthen quality control 
        procedures to ensure that translations are accurate and that 
        all pertinent material is being translated.
  --Edmonds Case (June 2004).--The OIG examined the FBI's actions in 
        connection with allegations raised by former FBI contract 
        linguist Sibel Edmonds. Edmonds alleged that her concerns about 
        aspects of the FBI translation program were not appropriately 
        handled by the FBI and that her services as a contract linguist 
        were terminated in retaliation for her raising these 
        allegations. The OIG review concluded that many of Edmonds' 
        core allegations relating to the co-worker had some basis in 
        fact and were supported by either documentary evidence or 
        witnesses other than Edmonds. The OIG concluded that the FBI 
        should have investigated Edmonds' allegations more thoroughly. 
        With respect to Edmonds' claim that she was fired for raising 
        these concerns, the OIG concluded that while Edmonds does not 
        fall within the protection of the FBI's whistleblower 
        regulations, Edmonds' allegations were at least a contributing 
        factor in why the FBI terminated her services.
  --DNA Reviews.--During the past year, the OIG completed three reviews 
        examining various aspects of DNA laboratories or DNA grant 
        programs. In the first review, completed in May 2004, the OIG 
        examined vulnerabilities in the protocols and practices in the 
        FBI's DNA Laboratory. This review was initiated after it was 
        discovered that an examiner in DNA Analysis Unit I failed to 
        perform negative contamination tests. The OIG's review found 
        that certain DNA protocols were vulnerable to undetected, 
        inadvertent, or willful non-compliance by DNA staff, and we 
        made 35 recommendations to address these vulnerabilities. The 
        FBI agreed to amend its protocols to address these 
        recommendations.
      In a separate review, the OIG audited several laboratories that 
        participate in the FBI's Combined DNA Index System (CODIS), a 
        national database maintained by the FBI that allows law 
        enforcement agencies to search and exchange DNA information. 
        The OIG's CODIS audits identified concerns with some 
        participants' compliance with quality assurance standards and 
        uploading of unallowable and inaccurate DNA profiles to the 
        national level of CODIS.
      In a third review dealing with DNA matters, issued in November 
        2004, the OIG audited the Office of Justice Programs' DNA 
        backlog reduction grant program. This program provides funding 
        to states for the analysis of DNA samples collected in cases 
        where no suspect has been identified. The audit found that many 
        of the DNA profiles that had been analyzed by the states using 
        grant funding had not been uploaded into the FBI's CODIS system 
        and that grantees were not using the funds on a timely basis to 
        reduce DNA backlogs.
                                 ______
                                 
             Prepared Statement of Senator Charles Grassley

    Chairman Gregg, I want to thank you and the Ranking Member for 
holding this important hearing on the FBI's Trilogy project and for 
allowing me to submit a statement for the record. Over the years I have 
taken a keen interest in making sure that the FBI does the best job 
that it can. Unfortunately, as Inspector General Fine has testified 
today, the Trilogy project isn't an example of excellence.
    I want to commend General Fine for his report outlining the many 
problems with the FBI's management of the Trilogy project and it's 
Virtual Case File. The results of the OIG audit revealed that, although 
the FBI has completed two of the three components of the Trilogy 
project, the Virtual Case File (VCF) project has failed to produce a 
functioning records management system. More importantly, it seems as if 
the FBI will now actively pursue the development of the Federal 
Investigative Case Management System (FICMS), but has not provided 
estimated costs for such a project or a revised schedule for completing 
the VCF.
    The audit has determined that the ``main responsibility for the 
problems with Trilogy rests with the FBI.'' The fact that changes to 
the system requirements were made after the project had been initiated, 
that contracts were not monitored and that project management decisions 
were made by committees instead of experts with a working knowledge of 
these systems, are all indicative of a plan that had failed before it 
even got off the ground. The absence of an Enterprise Architecture and 
lack of proper scrutiny over the various contracts leads one to believe 
that funds for this project were requested from Congress before a 
rational and pragmatic review of the potential problems were examined.
    Today's OIG audit is another verse of the same song. On several 
occasions in the last few years, the IG has had opportunity to examine 
the FBI's automated case support and its IT systems. They have 
highlighted the flaws and deficiencies and made recommendations. As the 
IG noted in September 2003, the FBI implemented many of the IG's 
recommendations, but not all of them. Had the FBI fully embraced these 
recommendations the Trilogy project might have been in a different 
place today. In fact one of the problems we see today was noted in 
December of 2002. At that time, the IG concluded that the FBI was 
spending hundreds of millions of dollars on IT projects without 
adequate assurance that the projects would meet their intended goals. 
Apparently, not much has changed.
    This is particularly troubling, in light of the dire need for a 
case management system that works. I agree with the IG's assessment 
that ``there is a critical need to replace the ACS to enable FBI agents 
and analysts to effectively perform the FBI's mission.'' Fighting 
terrorism is the FBI's main job and not having an adequate ACS hinders 
their effort. The FBI asserts that the failure of the VCF will not 
impact on national security, but frankly, I'd rather not take the 
chance. Securing the homeland is far too important of a task to not 
have the best tools available.
    After having spent $580 million on the Trilogy project, including 
$171 million on the Virtual Case File, one would think that the FBI 
didn't just have the best tools, but they have all of the tools. 
Unfortunately, the taxpayers $171 million was squandered on a project 
that doesn't meet the FBI's needs. Additionally, the fact that the FBI 
has been set back three years in planning their critical 
infrastructure, necessitates a well thought-out and managed solution. I 
hope that from this failure the FBI can gain some insights and build a 
learning curve that will help them as they look for a another system.
    To that end, I would recommend that the FBI explore the case 
management programs already utilized by other federal government 
agencies, before attempting to spearhead a Federal Investigative Case 
Management System. It is quite possible that a program currently in use 
by the federal government could be adapted to suit the needs of the FBI 
case management program.
    Chairman Gregg, I again want to thank you for giving me the 
opportunity to weigh in on this critical topic. General Fine, thank you 
for your thorough and insightful report and testimony. I really do want 
the FBI to be the best they can be at protecting America's citizens, 
and that's why this report and hearing are so very important. The FBI 
must learn from its mistakes. To not do so could lead to an even 
greater waste of taxpayers' dollars and increased risk to national 
security.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Gregg. But I am going to have to recess this 
hearing and we are going to have to come back and reschedule 
the balance at another date. I think the time that the Director 
has given us has been exceptional and it might have been a 
little longer than people had expected, but we appreciate his 
courtesy.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

                           VIRTUAL CASE FILE

    Question. There is a field test of the VCF Initial Operating 
Capability currently underway in the New Orleans field office. (A) When 
will that test be completed? Who will assess the results of that test 
and what criteria will be applied? (B) What are the Federal Bureau of 
Investigations (FBI's) plans for ``VCF-lite?'' Does it expect to use 
this software in the future?
    Answer. The deployment of the Virtual Case File (VCF) Initial 
Operating Capability (IOC) as a pilot to the New Orleans Field Office, 
the Baton Rouge Resident Agency, the Criminal Investigative Division's 
Drug Unit, and the User Advocate Unit provides the opportunity to 
refine workflow business processes, verify workflow requirements, 
quantify workflow efficiency improvements, develop workflow-related 
system deployment processes, and develop workflow-related training 
processes. During the pilot, metrics are being collected to quantify 
the above goals and assess user satisfaction. At the end of the pilot 
activities, the FBI will better understand the opportunities an 
electronic workflow capability provides for improving the efficiency of 
document-related business processes and the challenges involved in 
deploying a web-based workflow application across the workforce. 
Questions the FBI hopes to answer include:
  --Will the automation of workflow reduce investigation time?
  --Will the application track documents throughout their existence?
  --What is the impact of the automated workflow on the FBI workforce?
  --What is the best way to train FBI employees on new technology tools 
        and capabilities?
  --Is the user interface acceptable to the users and does it enhance 
        their ability to do their work efficiently and effectively?
  --What is needed to implement more effective security controls to 
        ensure seamless access to data and information sharing?
  --Will the interface between the Automated Case Support (ACS) system 
        and the VCF IOC be adequate for future system integration 
        efforts, including ``flash cutover'' strategies?
    The pilot was completed in late spring of 2005, metrics are being 
analyzed and reported. The FBI has tasked Mitretek Systems to perform 
the assessment to determine what future use of the application is 
appropriate. The results of this pilot, along with the conclusions 
drawn by the Office of the Chief Information Officer (OCIO), will be 
shared with The RAND Corporation as well as our oversight partners, 
including the Congress, Office of Management and Budget (OMB), and 
Government Accountability Office (GAO).
    The IOC was developed in two increments: the initial IOC and the 
incremental ``IOC Plus.'' The incremental IOC Plus consists of a few 
additional features that were identified during the beta test as 
significantly enhancing the usability of the IOC and capable of 
development and testing for a minimum additional cost. Based on 
feedback from users during the pilot, the FBI will determine the value 
and cost of deploying IOC Plus field-wide. Such a deployment would 
provide a stop-gap capability while the Full Operating Capability 
solution is being developed. The FBI has prepared a cost estimate for 
deploying IOC Plus field-wide and associated operations for a 12-month 
period. These costs will be analyzed along with the perceived benefit 
of such a deployment to the user community, resulting in a 
recommendation of whether to deploy IOC Plus field-wide.
    Aspects of the pilot software will be used in the future. In 
particular, the Web ACS capabilities integrated into the pilot are 
being further developed and will provide users increased access to ACS 
data. In addition, the software implementing the workflow aspect of the 
pilot is under evaluation for longer term, future use. There are no 
plans for a ``VCF-lite.''
    Question. You told this subcommittee on March 23, 2004, that in the 
wake of the 9/11 attacks, you evaluated whether to develop VCF or 
purchase a commercial off-the-shelf product. You stated: ``I have had a 
number of persons outside the bureau look at the decision to develop 
our own, persons--I call them the gray-beards--who are from a number of 
private concerns who would look at the choice we made and the product 
we've come up with. And I think the reviews are very good for the 
product we've come up with.'' Did these ``gray-beards'' from private 
concerns produce written or otherwise formal assessments of whether the 
FBI should develop its own product or buy off-the-shelf? If so, please 
provide those. If not, why did the FBI chose to rely on an informal 
assessment rather a formal report like the one recently prepared by 
Aerospace? Couldn't the FBI have benefited by contracting for a formal 
report on off-the-shelf alternatives much earlier?
    Answer. Two groups of ``gray beards'' reviewed Trilogy and/or VCF. 
A panel from the National Academy of Science (NAS), led by Jim 
McGrotty, looked at Trilogy first in September 2002, and then again 
during late 2003 and early 2004. The initial NAS effort in September 
2002 consisted of two days of briefings, after which the panel provided 
an oral assessment to the Director and others. No formal written report 
was issued. The purpose of this review was to give the Director a 
``pulse-check'' on how Trilogy was proceeding. The second NAS review 
resulted in a written report, issued in May 2004, and was followed by 
an addendum in June 2004, that focused on changes made by Zalmai Azmi, 
after his appointment as the FBI's Chief Information Officer (CIO) 
(which were not considered in the initial report). The NAS was not 
asked to assess commercial off-the-shelf (COTS) products, although some 
panel members believed, from the discussion of requirements presented, 
that COTS products might meet FBI requirements.
    The second group of ``gray beards'' is the Director's Science and 
Technology Advisory Board, led by Art Money. This Board has been 
briefed on Trilogy, VCF, and the FBI's information technology (IT) 
effort in general since it first began meeting in October 2003. At the 
request of former FBI Executive Assistant Director Wilson Lowery, 
members of the Board met in June 2004, specifically to review and 
comment on the VCF Corrective Action Plan, including the identification 
of any inconsistencies or gaps in the remediation plan. After a series 
of briefings during the day, the Board members met with the Director to 
provide an oral assessment of the plan and other suggestions. Since 
then, VCF, Enterprise Architecture (EA), and IT have been regular 
agenda items on the Science Board's agenda, and the program managers 
have updated the board members. Again, the Board was not asked to 
assess COTS, but they also suggested that COTS could satisfy most of 
the FBI's requirements and encouraged the FBI to explore that option.
    Question. On July 16, 2002, Sherry Higgins, your then-Project 
Management Executive, testified before the Senate Judiciary 
Subcommittee on Administrative Oversight that the FBI was using an 
industry-standard process--Joint Application Development--to ``define 
and prioritize'' its requirements. The subcommittee was also told this 
was a new way of doing business: bringing together users, designers, 
and future systems operators to define and prioritize requirements. Why 
was this process not effective in producing a concrete and final list 
of VCF requirements that SAIC could use to build VCF?
    Answer. The Joint Application Development (JAD) sessions resulted 
in user-need and requirements statements reflecting the capabilities 
users desired in the final system. These statements were, however, not 
prioritized and, in some important aspects, insufficiently detailed 
(this was particularly true of the requirements related to users' 
access to the system's functions and data and to the requirements 
defining the system's administrative functions). As a result, the 
requirements were accurate and consistent, but they were not complete 
in all areas. In addition, they did not reflect the constraints imposed 
by the system's conceptual design or current infrastructure, since the 
process by which requirements were defined was implemented after the 
Science Application International Corporation (SAIC) had already 
developed the conceptual design and the infrastructure framework. The 
SAIC attempted to use these user-need and requirements statements to 
define a set of requirements that were consistent with a vision of how 
to build the system, but were unsuccessful because the JAD lacked 
sufficiently detailed requirements regarding security, records 
management, and the intelligence mission to complete the new system and 
application architecture.
    Question. At the hearing on February 3, you described problems 
leading to a failed VCF effort, including that the FBI ``lacked skill 
sets in our personnel, such as qualified software engineering, program 
management and contract management.'' You also stated that the FBI 
responded to these deficiencies by outsourcing the contract management 
and technology development. The Federal Systems Integration Management 
(FEDSIM) is acting as the contracting office on behalf of the FBI, and 
Mitretek Systems provides program management, systems engineering and 
technical advisory services. SAIC has been responsible for delivering 
VCF.
    Has the FBI or an outside entity evaluated the extent to which it 
should have such capabilities within its own staff, and if so, what is 
the result of that assessment?
    Answer. In 2003, a distinguished group under the NAS conducted an 
in-depth study of the Trilogy program including, in particular, VCF. 
The NAS determined that, while the FBI had some good IT people, it fell 
short of the kind of expertise needed to manage large IT acquisitions, 
not only from the program management perspective, but also from an 
engineering perspective.
    The FBI recognized these shortcomings and created the Office of the 
Chief Technology Officer (CTO) in June 2004, to strengthen engineering 
and computer science especially as it relates to the development of new 
technology. Currently, that office includes 10 software/system 
engineers and is in the process of selecting an additional 10, which 
will be a combination of new employees and transfers from other parts 
of the FBI. At the same time, the CTO is strengthening software, 
system, and data engineering at the Bureau by hiring contractors to 
work on establishing ``to be'' technical and data reference models for 
the enterprise, participating in project and critical design reviews, 
and base-lining the FBI's capabilities from a systems engineering 
perspective. The FBI plans to request additional government software 
and systems engineers in the future to bolster its resource pool for 
dealing with complex and critical information technology projects.
    Additionally, the FBI's Office of IT Program Management (OIPM) has 
taken several steps to strengthen program management skills as they 
relate to IT programs and projects. In addition to recruiting several 
experienced program managers to fill key IT management positions within 
the OIPM, the FBI has implemented a training initiative through which 
employees can be certified as Program Management Professionals. Since 
September 2004, 30 employees have been trained and two additional 
classes, with an additional 50 students, are underway.
    On March 4, 2005, the FBI became a member of the Program Management 
Institute (PMI), and enrolled 20 employees in this professional 
organization. In addition, these individuals joined the Washington, 
D.C. PMI Chapter and the government special interest group. This allows 
FBI program managers to remain updated on the latest information from 
PMI, attend project meetings, and participate in the government-
specific interest group.
    Question. What adjustments did the FBI make to its own internal 
personnel to ensure proper oversight of, and effective communication 
with, SAIC, FEDSIM, Mitretek and other entities performing functions 
related to VCF?
    Answer. While the FBI did take steps to improve internal oversight 
of the VCF project, in retrospect the steps were not adequate to ensure 
proper oversight. Steps taken included, but were not limited to, the 
following: (1) a communication plan between the FBI User Team and SAIC 
where FBI User Team members were integrated into SAIC's environment for 
project support; (2) an interim Award Fee feedback plan instituted by 
the FBI and the Federal Systems Integration Management (FEDSIM) Center 
to provide SAIC more frequent performance analysis; (3) monthly In-
Progress Review (IPR) briefings provided by SAIC to FEDSIM and the FBI; 
and (4) weekly Program Management Office (PMO) meetings, attended by 
SAIC, FEDSIM, and the FBI.
    Once it became apparent that SAIC was having difficulties, the PMO 
co-located FBI and Mitretek Systems personnel at SAIC. Mitretek was 
asked by the FBI to provide additional resources to help resolve 
issues. In addition to attending ad hoc meetings as issues arose, 
Mitretek Systems developed a User's Guide and a series of white papers 
to assist SAIC in understanding the FBI's needs and requirements in 
areas not covered in detail in the system and software requirements. 
The white papers addressed such topics as: access control concepts, 
authorized users, delegated functions identified in the Systems 
Requirements Document, lead routing table concepts, package assumptions 
rules and roles, silent hits, User Application Component client server 
communications link bandwidths, logging, and data models.
    In the first quarter of 2004, an independent FBI Special 
Technologies and Applications Section technical team provided an 
architectural evaluation, identifying risks and deficiencies previously 
suspected, but not confirmed, to the PMO. This new risk information, in 
addition to SAIC's past performance on this project, became an 
important component in the FBI's assessment of SAIC's ability to 
respond to the challenges of completing VCF delivery 1.
    Question. Prior oversight reports have found that the bureau has 
had trouble managing its information technology contractors and that 
these problems contributed in part to cost, schedule, and performance 
shortfalls on system modernization projects such as Trilogy/Virtual 
Case File. For example, in December 2002, the Inspector General 
reported that the bureau was not implementing cost, schedule, and 
technical baselines to monitor its contractor's progress on the Trilogy 
project. In addition, in May 2004, the National Research Council 
reported that the bureau needed more control over its Trilogy/Virtual 
Case File contracts, including more frequent use of contractor progress 
reviews, performance metrics, and specific milestone delivery dates. 
What has the FBI done to strengthen its ability to effectively manage 
its contractors and minimize the risk that the bureau will experience 
cost, schedule, and performance shortfalls on future IT projects?
    Answer. In May 2004, Director Mueller announced the appointment of 
Mr. Zalmai Azmi as the FBI CIO. Mr. Azmi is responsible for the FBI's 
overall information technology efforts, including developing the FBI's 
IT strategic plan and operating budget; developing and maintaining the 
FBI's technology assets; and providing technical direction for the re-
engineering of FBI business processes. Mr. Azmi was given the authority 
for enterprise-wide IT budget control/consolidation. The CIO and Chief 
Financial Officer (CFO) work closely together on all IT financial and 
budget matters (including the IT budgets in all FBI divisions). The CIO 
and CFO instituted an acquisition process that required all IT 
investments to be reviewed by CIO and CFO staff. Almost 1,000 
acquisitions were reviewed and approved in the last 2 quarters of 
fiscal year 2004. The risks associated with cost, schedule, and 
contract performance are also reduced by the FBI's close coordination 
with the Department of Justice (DOJ) CIO; the FBI and DOJ CIOs meet 
regularly to discuss status and address issues related to the FBI's 
major IT investments.
    The CIO centralized the IT business of the FBI, mostly in an 
organizational structure under his office with a few specialized 
applications organizationally separate but reporting through him (e.g., 
the Criminal Justice Information Systems Division in West Virginia) 
under the Life Cycle Management Directive (LCMD). The LCMD, which 
fundamentally changes how IT projects are managed in the Bureau, 
governs how IT projects are managed from ``cradle to grave'' and is 
consistent with industry and other government agency best practices. 
The LCMD guides FBI personnel on the technical management and 
engineering practices used to plan, acquire, operate, maintain, and 
replace IT systems and services. All IT projects and programs will be 
required to undergo rigorous project and executive level ``control 
gate'' reviews for each stage, from inception through disposal. There 
are seven gates, nine phases, and 14 key supporting processes in the 
LCMD. These reviews are the mechanism for management control and 
direction, decision-making, coordination, and confirmation of 
successful performance.
    The FBI's CIO has established a system of review boards through 
which the IT business of the FBI is conducted.
  --The IT Advisory Board ensures new technologies are incorporated 
        into FBI operations and business practices, ensures decision 
        makers prioritize operational technology needs for future 
        development, minimizes duplicate technology business practices 
        to better optimize resources, and resolves conflicts involving 
        IT issues among FBI Headquarters divisions.
  --The EA Board ensures IT systems comply with EA requirements, the 
        supporting system concept, critical design, and disposal 
        reviews.
  --The IT Policy Review Board provides guidance and direction on IT 
        policy matters, resolves issues, and develops new policies.
  --The Technical Review Board ensures IT systems comply with technical 
        requirements, leads critical design, and supports deployment 
        readiness and system test reviews.
  --The Change Management Board manages IT infrastructure changes, 
        leading deployment readiness, system test readiness, 
        operational acceptance, and disposal reviews.
  --The Investment Management Project Review Board ensures IT systems 
        acquisitions are aligned with IT policy, strategic plans, and 
        investment management/portfolio management requirements. It 
        leads system concept and acquisition plan reviews.
    These Boards have defined roles/responsibilities within the 
structured framework of the LCMD and operate pursuant to established 
charters and procedures. The LCMD applies to all solution providers, 
including contractors. In addition, contract management is enhanced at 
the Departmental level by the work of the Department Executive Review 
Board (DERB), which oversees DOJ's major IT investments, including 
those led by the FBI. The DERB operates as part of DOJ's Information 
Technology Investment Management process to provide oversight at the 
highest level.
    Through a newly instituted IT Investment Management process, the 
CIO is establishing control and management of IT project budgeting, 
working with the CFO in the budget formulation process during the 
fiscal year 2006 budget cycle (the Finance Division has asked the CIO 
to provide an addendum to the fiscal year 2007 budget request targeting 
IT requirements). In addition, the OCIO has increased the oversight of 
IT projects and programs through the development of IT standard system/
project definitions; identification of the FBI IT portfolio of systems, 
applications, programs, and projects; release of the FBI IT Master 
Project/Programs list; promulgation to all FBI divisions of the LCMD; 
and purchase of an Enterprise Portfolio Management tool and a Project 
Portfolio Management tool.
    Oversight of IT projects begins with establishing baselines for 
each project. In June 2004, it was mandated that all new projects 
produce and maintain resource-driven MS Project 2002 schedules. These 
schedules are subject to periodic (weekly, monthly, and/or at LCMD 
gates, depending on the project) review and analysis. All pre-existing 
projects will be required to produce and maintain project schedules, 
which are subject to review and analysis at each of the remaining LCMD 
gate reviews. DOJ has announced their implementation of a congressional 
mandate that all projects of a certain size are required to provide 
American National Standards Institute Earned Value Management Systems 
data. The Earned Value Management (EVM) methodology is a project 
(investment) management process that effectively integrates the 
investment scope of work with schedule and cost elements for optimum 
investment planning and control. The OCIO is in the process of 
reporting EVM data to DOJ in compliance with this mandate.
    Question. When SAIC submitted invoices as it spent taxpayer's 
money, what were the FBI's procedures for evaluating: (a) whether those 
expenditures were permissible under its contract; (b) whether they were 
producing the necessary result; and (c) whether the timing of those 
expenses put SAIC on track for timely delivery? Why did those 
procedures fail to identify at an earlier date that SAIC would not be 
able to deliver the expected results on the due date, and what changes 
have been put in place to manage future contracts?
    Answer. In a large system development project such as VCF, the key 
is the development of a base-lined, resource-loaded network addressing 
both schedule and resources. Tracking progress against this resource-
loaded network reveals whether the money is being spent according to 
the plan and the development is on track. While SAIC had a resource-
loaded network, it was not sufficiently milestone driven to expose the 
difficulty they were having completing the system development. Even 
with this weakness, the FBI was aware of the project status. Over the 
past year, the FBI has met with DOJ officials and with House and Senate 
Committee Members and/or their staffs to address issues regarding the 
VCF and Trilogy programs.
    The FBI is acutely aware of these deficiencies and has taken 
proactive steps to ensure that they do not recur. As noted above, all 
projects will be managed in accordance with the Life Cycle Management 
Directive. Earned Value Management (EVM) reporting requirements will be 
mandated on projects of a specified size and dollar threshold. A work 
breakdown structure and a detailed, integrated, event-driven schedule 
will be developed and maintained for each project. Project status 
reporting will be accomplished at both the project and enterprise 
levels. Project Management Reviews will be conducted at the project 
level, and ``control gate'' reviews will be conducted at the enterprise 
level. Appropriately designated boards will oversee projects and, 
through the recent deployment of Worklenz software, all oversight 
entities will have the same view into a project's progress. The 
oversight process will also be enhanced by the monthly entry of key 
budget and milestone data for all DOJ IT projects, including FBI IT 
projects, into DOJ's IT Dashboard, which will allow the FBI's and DOJ's 
CIOs to view status, EVM metrics, and major developments affecting 
progress.
    While clearly VCF does not provide the capabilities the FBI sought, 
the ``lessons learned'' from the VCF project management were 
beneficial. As noted above, the FBI has developed the LCMD to impose 
structure and process in system development, and the VCF IOC was 
executed using this new approach to IT management. Project objectives, 
requirements, and constraints were clearly identified before proceeding 
to each control gate, and ``go/no go'' criteria were used at major 
milestones to control the release of funding and to keep the project 
focused. In addition, a cost-sharing arrangement was established as 
part of the renegotiated User Applications Component contract, and 
adherence to defined management processes was mandated. As a result, 
the VCF IOC development and deployment was completed on schedule and 
within budget.
    Question. At the hearing, you indicated that the FBI has deferred 
to DOJ for consideration of whether the FBI can recoup any funds from 
SAIC, and if so, how much and on what basis. When was this issue 
deferred for consideration and when do you expect to receive an answer? 
Will you inform the Committee immediately upon receipt of this 
assessment?
    Answer. The FBI referred this matter to DOJ's Civil Division on 
February 2, 2005. The FBI asked the Civil Division to ``begin to 
analyze the facts to assist us in determining the appropriate course of 
action'' concerning the possible recovery of funds from SAIC. The FBI 
is continuing to work with the Civil Division and the General Services 
Administration to resolve this matter and determine what future action, 
if any, will be taken. At this point, it is not known when a final 
determination will be made. The FBI will inform the Committee when such 
a determination is made.
    Question. The FBI's response to the Inspector General's draft 
report indicated that the FBI established its baseline Enterprise 
Architecture (EA) in 2004 and is in the process of developing a target 
EA in September 2005. What is the status and progress of the bureau's 
efforts to develop and implement an effective and complete EA that can 
be used to effectively guide and constrain its IT investments, and will 
it be complete by September 2005? Does it make sense to continue to 
pursue VCF, or even the Federal Investigative Case Management System 
(FICMS), before this EA is complete?
    Answer. Since the award of a contract for EA support on March 21, 
2004, the FBI has applied a focused, concentrated, and elevated effort. 
For example, a revised EA Program Plan was completed and signed by the 
CIO on July 2, 2004. EA development efforts and products are being 
reviewed approximately every other month by the Director's Science and 
Technology Advisory Board, an external group of senior scientists and 
technology experts. Both completed and in-progress EA products are also 
reviewed by the EA Board (EAB), which includes Deputy Assistant 
Directors from FBI Headquarters Divisions. The EA principles and the 
Integrated EA Base were completed and approved by the EAB and the CIO 
on December 9, 2004. The Integrated EA Base Line, which was approved by 
the FBI Director on December 21, 2004, contains the following 
information.
  --Business Architecture--36 stakeholders, 42 functions, 223 sub-
        functions.
  --Data Architecture--identified 8 data areas and 65 data classes.
  --Applications Architecture--includes the Master IT Systems List with 
        an inventory of over 500 FBI systems, applications, networks, 
        and databases.
  --Technology Architecture--includes the FBI IT Master Products List 
        with over 800 COTS and Government off-the-shelf products.
    The CIO has added both in-house personnel and contractors to ensure 
completion of the target, or ``To Be,'' EA by May 2005. The initial 
phase, referred to as the ``interim To Be architecture,'' addresses the 
target architecture and the Integrated Baseline Architecture, focusing 
on current projects and interoperability within the current technology 
environment. Any project that is being developed with incremental 
capabilities will need to be aware of the architectural impact of 
projects in-progress to address integration issues. Phase I of the 
target architecture identifies the mission requirements being supported 
by the FBI projects identified for fiscal year 2005 and 2006, including 
VCF, and the EA team is working with the personnel responsible for the 
VCF to ensure that its architectural issues are addressed. The interim 
target architecture includes mapping to the reference models identified 
in the Federal EA, tailored for the FBI environment to provide 
architectural support for projects under development. The intent is to 
create an optimum architecture environment for the implementation of 
projects that enhance the FBI's technical environment so the FBI is in 
an optimum position to support the VCF effort.
    Question. Mr. Azmi testified at the hearing that the FBI now has a 
list of requirements for VCF and has mapped these requirements 
``through a federal enterprise architecture framework,'' that these 
have been broken down into phases, and that another independent 
contractor is assessing the cost of implementing those phases and will 
have a report by mid-February. What is the relationship between this 
``federal enterprise architecture framework'' and the FBI's efforts to 
develop its own EA by 2005?
    Answer. The Federal EA Framework (FEAF) that was initially 
established in fiscal year 2000 has been evolving with the development 
of OMB's five reference models. For example, the original FEAF did not 
contain any framework support for security. Additionally, OMB and GAO 
recognized that focusing on specific organizations' applications 
retained the dependencies or bottlenecks within these organizations. 
Therefore, OMB replaced that approach with one that employs the concept 
of service components independent of an application's implementation. 
Some of the reference models, including the Security reference model, 
are still under development. The OMB approach is to include in the 
reference models a master list of all possible elements, so that an 
organization can develop its own reference model by selecting the 
elements appropriate to that organization. The FBI is using the OMB 
reference models to complete its EA to the extent possible, adding 
additional features or framework elements, such as security services 
and features, as appropriate. The FBI target model also uses the 
reference models, but depicts the future environment the FBI expects to 
need to meet mission goals. The difference between the baseline EA and 
the target EA represents the gap that must be bridged to achieve the 
target EA.
    Question. Is the list of requirements referenced in the hearing the 
final list of requirements against which VCF will be built, or will 
there be additional changes to the requirements list, perhaps when the 
FBI's own EA is complete in 2005?
    Answer. The FBI contracted with BAE Systems to review and 
revalidate users requirements because the mission of the FBI has 
evolved, presenting new requirements for information and intelligence 
sharing among different entities. This review is still in progress. To 
ensure future IT systems do not expand beyond their functional level, 
IT systems will be designed, developed, and deployed incrementally 
against specified and planned parameters.
    Question. Which independent contractor is developing a cost 
estimate, and will you provide the cost-estimate report to Congress 
upon receipt? Does it make sense to solicit cost estimates at this time 
given the potential flux in the VCF requirements?
    Answer. Two Independent Government Cost Estimates (IGCEs) are being 
developed, one by Mitretek Systems and one by Aerospace. Aerospace is a 
Federally Funded Research and Development Corporation and is 
Congressionally chartered to provide this kind of analysis. An IGCE is 
based on a set of assumptions addressing the concept and its 
development, operations, and maintenance. Given the current fluidity in 
the concept's development, these estimates will need to be revisited 
when the final concept has been defined.
    Due to the rigor and time associated with developing an IGCE, the 
FBI decided to begin preparing the estimates and factor in time for 
later updates, rather than waiting until everything is known to begin 
to prepare the estimates.
    The FBI would be pleased to brief the Subcommittee on our progress 
in this area.
    Question. The OIG Report indicates that the FBI discontinued its 
pursuit of certain enhancements and additional operational capabilities 
to VCF in part because the VCF Delivery 1 did not meet its 
expectations, and also because the FBI plans to pursue the Federal 
Investigative Case Management System (FICMS). The OIG Report also 
indicated that the FBI is serving as the executive agent of the process 
to award a contract for FICMS by April 2005. The FBI's response to the 
OIG's draft audit described FICMS as a ``blueprint'' and stated that 
VCF and FICMS ``are on parallel tracks that will eventually converge.'' 
What will this ``blueprint'' entail and who designed it?
    Answer. The Federal Investigative Case Management Solutions (FICMS) 
initiative, part of OMB's Case Management Line of Business, is a 
framework that provides guidance for participating agencies designing 
and developing investigative case management systems. FICMS ensures, 
where appropriate, the establishment and reusability of common IT 
solutions and promotes the inter-agency compatibility and system 
interoperability needed to facilitate information sharing across the 
federal investigative and law enforcement landscape. Investigative 
agencies share core business functions but also have unique needs that 
drive agency-specific system requirements. The FICMS framework uses a 
Service Oriented Architecture approach, which allows agencies the 
flexibility to implement a common, core solution and build specific 
functional modules that plug into the common solution to meet unique 
agency needs. Accordingly, investigative agencies will procure 
commercially available solutions where appropriate, then implement 
these solutions to address specific activities such as investigative 
workflow management, records management, and data analysis. These 
agency-specific systems will follow the broad FICMS blueprint so that 
data can flow easily and securely between agencies. The FBI is planning 
to implement the first investigative case management system as part of 
the FICMS framework, and is collaborating with DOJ and the Department 
of Homeland Security (DHS) to maximize the system's use by other 
investigative agencies, thus preventing costly investments in duplicate 
IT case management systems. OMB selected DOJ to lead this effort, and 
the FBI was designated as DOJ's Executive Agent for FICMS development.
    Question. What impact has the development of FICMS had on the FBI's 
view of, or plans for, VCF? What does it mean that VCF and FICMS ``are 
on parallel tracks'' and ``will eventually converge?''
    Answer. The FBI is continuing to move forward to develop and deploy 
a case management system. At the same time, the lessons learned through 
VCF will be used to help develop the FICMS, a broad blueprint for 
federal investigative case management systems being led by DOJ. The FBI 
will use the FICMS framework to develop an investigative case 
management system that will not only meets the Bureau's specific needs, 
but will also provide a blueprint for other federal investigative 
agencies implementing case management systems. The use of this common 
FICMS framework will permit more seamless information sharing.
    Question. Will FICMS benefit from the 3-years and $170 million 
devoted to the VCF effort, and if so, in what ways?
    Answer. Yes, the lessons the FBI has learned in its efforts to 
develop VCF will help in developing the FICMS, particularly in the 
areas of contract management, project management, the development and 
implementation of policies and procedures, modular development and 
deployment, data security, records management, and training. For 
example, the FBI learned that it should not attempt a ``flash cutover'' 
(i.e., a full implementation of a system in which all functionality is 
brought online initially) when migrating from the legacy system to the 
new system. Instead, the FBI should develop and incrementally deploy 
capabilities in phases. Also, business process requirements captured 
through the JAD sessions will be used in the development of the FICMS 
requirements. The electronic interfaces developed between the legacy 
ACS application and VCF IOC are being evaluated for possible reuse. The 
metrics and lessons learned from the New Orleans Pilot, which are 
currently being compiled, will also influence the development of FICMS.
    Question. How will FICMS relate to the FBI's enterprise 
architecture? What steps has the FBI taken to ensure that these efforts 
will interrelate, rather than conflict?
    Answer. The FBI is using the FEAF as the basis for the development 
of the FBI EA. OMB requires that federal agencies use the FEAF, which 
will ensure interoperability between systems and easy information 
sharing. The FBI will use the Service Reference Model of the FEAF as 
the FICMS framework for delivering services in a phased approach to 
participating federal agencies based on their determined priority. Each 
phase will deliver capabilities independently.
    Question. Is there a defined list of requirements for FICMS, such 
that soliciting contracts for FICMS in April will be an efficient and 
productive process?
    Answer. The goal of this program is to ensure compatibility between 
all systems used by the various entities in DOJ and DHS. In order to 
ensure that all technology requirements will be included in the 
system's overarching framework, the FBI sent system requirements to DOJ 
and DHS for review. DOJ and DHS responded by providing additional 
requirements that are necessary for their operations. Based on this 
input, the FBI created a larger set of requirements encompassing the 
needs of the FBI, DOJ, and DHS. This approach ensures that all 
components' investigative needs be addressed by the framework.
    Question. Besides DHS, what other departments and agencies will 
FICMS serve?
    Answer. FICMS will serve as a framework for investigative 
information technology systems used by the FBI, DOJ (including DOJ 
components), and DHS.
    Question. At the hearing, you stated that the FBI ``did not have a 
complete set of defined VCF requirements when the original contract was 
signed in June 2001, and we did not have a finalized set until the 
summer of 2002.'' In addition, FBI CIO, Zal Azmi testified that ``we 
have completed our requirements. We have a requirements document for a 
case management system that our users, our agents, our analysts want 
and the FBI. We have mapped those requirements to our services that are 
guidelines by the federal enterprise architecture framework.'' However, 
the Inspector General's recent audit stated that ``the process of 
defining requirements and baselines for the VCF still continues,'' and 
recommends that the FBI ``freeze the critical design requirements for 
the case management system before initiating a new contract.'' Can you 
reconcile these statements? Are the requirements for VCF now frozen and 
final until a case management system is delivered? How can the VCF 
requirements be final when the FBI does not have a complete EA? When 
the requirements are finalized, will an outside expert evaluate the 
list of requirements, and if so, who and when?
    Answer. The OIG report was written in late 2004. Since that time, 
the FBI has made significant progress in documenting the requirements 
and Concept of Operations (CONOPS) for an enterprise-wide case 
management capability. In January 2005, the FBI completed the System 
Requirements Specifications (SRS) and System CONOPS. The SRS have been 
revised based on feedback provided through a review process, and will 
be finalized at the end of the review/revision process. The CONOPS is 
also undergoing that review/revision process. A System Requirements 
Review for completeness is also ongoing and, after all inputs are 
incorporated, the final set of system requirements will include 
approval by each of the Lines of Business owners. The systems 
engineering team is working with the EA team to ensure system 
requirements meet EA objectives. Additionally, requirements will be put 
under formal Configuration Management control. Requirements will be 
base-lined at contract award and, after contract award, changes or 
proposed changes to the system or requested functionality will be 
managed in accordance with the Configuration Management Key Support 
Process of the Life Cycle Management Directive. The requirements have 
additionally been presented to the Director's Science and Technology 
Board.
    Question. You testified at the hearing that agents will have ``a 
basic case management system'' in their hands within a year. What 
specifically will a ``basic case management system'' entail and will 
its delivery complete the VCF project? If for some reason developments 
threaten to delay delivery beyond 2005, will you inform this 
subcommittee immediately?
    Answer. The FBI has expended significant time and effort since the 
hearing confirming requirements for a new case management system, as 
well as developing a procurement strategy that will take advantage of 
off-the-shelf products. At this time the FBI envisions the deployment 
of the new case management system in four phases, each of which will 
provide discrete aspects of the new case management system. The first 
phase should be completed 9 to 12 months after contract award, which is 
expected in the summer of 2005. However, we would not expect a ``basic 
case management system'' to be in place until the completion of phase 
2, which will not be until 2006. Phases 3 and 4 will add additional 
capabilities to the system.
    Question. In your testimony, you stated that within 6 to 8 weeks 
you would have an assessment of: (a) the costs required to get a fully 
functional case management system in the hands of agents; (b) the 
extent to which those costs would require additional funding or 
reprogrammed funds; and (c) what other programs would lose funds, if 
reprogramming was required. Please provide these assessments to the 
subcommittee immediately upon completion, or apprise us if they will be 
delayed beyond 8 weeks.
    Answer. The estimate referred to in this question will be based on 
the IGCEs discussed in response to question 9(C), above. The FBI will 
keep the subcommittee informed.
    Question. In your testimony, you described the FBI's development of 
an Investigative Data Warehouse (IDW). Was any part of the development 
of IDW funded out of the $581 million appropriated for the Trilogy 
project?
    Answer. Funds appropriated for Trilogy were not used for the 
development of the Investigative Data Warehouse.

                       TERRORIST SCREENING CENTER

    Question. In December 2003, the FBI's Terrorist Screening Center 
began its task of consolidating government terrorist watchlists. In the 
recent White House budget submission to Congress, an additional $75 
million is directed to the Terrorist Screening Center. What is the 
status of the watchlist consolidation project, and what problems have 
prevented its completion?
    Answer. As of March 12, 2004, the Terrorist Screening Center (TSC) 
consolidated in the Terrorist Screening Database (TSDB) all identifying 
data from the 12 watchlists specified in the April 2003 GAO report 
entitled ``Terrorist Watch Lists Should Be Consolidated to Promote 
Better Integration and Sharing'' (GAO-03-322). While this consolidated 
database does include the identifying data from the Automated Biometric 
Identification System (ABIS) and the Integrated Automated Fingerprint 
Identification System (IAFIS), it does not include the associated 
purely biometric information from ABIS and IAFIS.
    Question. When will the government have a complete, integrated 
terrorist watchlist with online access for law enforcement?
    Answer. As noted above, the TSC has a complete integrated terrorist 
watchlist that is now maintained in the TSDB. In addition, information 
appropriate to pertinent law enforcement groups is exported daily to 
various information systems, where it is electronically accessible to 
groups that need it in performance of their specific duties. 
Domestically, general law enforcement officers have access to the TSDB 
through the National Crime Information Center system; Customs and 
Border Patrol and Immigration and Customs Enforcement have access 
through the Interagency Border Inspection System; the Transportation 
Security Administration has access through the No-Fly and Selectee 
lists; and the Department of State has access through the Consular 
Lookout and Support System. Among the United States' foreign partners, 
Australian authorities have access through TACTICS, and Canadian 
authorities have access through TUSCAN.

                         CONCLUSION OF HEARING

    Senator Gregg. I am going to recess the hearing.
    [Whereupon, at 3:20 p.m., Thursday, February 3, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
